NO. __________
IN THE

Supreme Court of the United States
GORDON COLLEGE, ET AL.,

Petitioners,

v.
MARGARET DEWEESE-BOYD,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Judicial Court of Massachusetts
PETITION FOR A WRIT OF CERTIORARI
ASHLEY B. ABEL
BENJAMIN R. DAVIS
JACKSON LEWIS P.C.
75 Park Plaza
4th Floor
Boston, MA 02116
(617) 367-0025

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
ERIN MORROW HAWLEY
ALLIANCE DEFENDING FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioners

i
QUESTIONS PRESENTED
In Our Lady of Guadalupe School v. MorrisseyBerru, 140 S. Ct. 2049 (2020), this Court instructed
lower courts to consider a variety of factors in
determining when the ministerial exception applies.
Yet, in clear conflict with that decision and those of
other, lower courts, the Massachusetts Supreme
Judicial Court rejected Petitioner Gordon College’s
designation of its faculty as “ministers,” even though
Gordon’s professors are “Christian educators” who are
the College’s primary means of accomplishing its
religious charge—to “transmit, carry, and advance
the Christian mission through teaching, scholarship
and service,” App.120a—by integrating their evangelical Christian faith in all their teaching and
scholarship. Instead, the court focused on the fact
that this faculty member did not teach religion and
was not required to lead devotional, prayer, or chapel
exercises. That decision misunderstands the
importance of the integration of religious faith with
academic disciplines, exacerbates a split of authority,
and presents two questions for review:
1. Whether professors at religious colleges
perform ministerial functions when the college exists
to spread its faith, and the college requires faculty, as
a primary component of their position, to integrate
Christian doctrine into their work and academic
disciplines, engage in teaching and scholarship from
a decidedly religious perspective, and serve as
advisors and mentors for student spiritual formation.
2. Whether the First Amendment requires courts
to defer to the good-faith characterization of a ministerial position by a religious organization or church.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE STATEMENT
Petitioners-Defendants are Gordon College, D.
Michael Lindsay, and Janel Curry. Gordon College is
a 501(c)(3) educational organization with no parent
corporation. No publicly held company owns 10% or
more of its stock.
Respondent-Plaintiff is Margaret DeWeese-Boyd.
LIST OF ALL PROCEEDINGS
Supreme Judicial Court of Massachusetts, No.
12988, DeWeese-Boyd v. Gordon College, judgment
entered March 5, 2021.
Massachusetts Superior Court Department,
Essex County, No. 1777CV01367, DeWeese-Boyd v.
Gordon College, judgment entered April 3, 2020.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE STATEMENT ...... ii
LIST OF ALL PROCEEDINGS ................................. ii
APPENDIX TABLE OF CONTENTS ....................... v
TABLE OF AUTHORITIES ..................................... vi
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 1
PERTINENT CONSTITUTIONAL PROVISIONS ... 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 6
A. Gordon College ................................................ 6
B. Gordon’s ministerial faculty ........................... 9
C. DeWeese-Boyd’s religious qualifications ...... 11
D. DeWeese-Boyd’s promises to integrate
religion into her academic discipline in her
teaching and scholarship .............................. 12
E. The College declines DeWeese-Boyd’s
request for promotion to full professor. ........ 14
F. Proceedings below ......................................... 15

iv
REASONS FOR GRANTING THE WRIT............... 18
I. The Ministerial exception and schools ............... 20
II. The decision below conflicts with this Court’s
decisions in Our Lady of Guadalupe and
Hosanna-Tabor and exacerbates a lower-court
conflict. ................................................................ 23
A. At any religious college whose mission is to
integrate its express religious beliefs
throughout its academic disciplines, the
“function” of a professor is ministerial. ........ 23
B. The lower court disregarded what a
Gordon College faculty member does—
transmit the College’s faith. ......................... 24
III.The lower court’s decision exacerbated a
conflict among appellate courts.......................... 29
IV. This Court should grant the petition and hold
that courts cannot second guess a religious
organization’s good-faith belief about who is
performing a ministerial function. ..................... 37
V. This case is an ideal vehicle with which to
answer the questions presented. ........................ 39
CONCLUSION ......................................................... 40

v
APPENDIX TABLE OF CONTENTS
Supreme Judicial Court of Massachusetts
Opinion
March 5, 2021 ........................................................... 1a
Superior Court of Massachusetts
Memorandum of Decision and Order on
Summary Judgment
April 2, 2020 ........................................................... 37a
Memo from Faculty Senate to DeWeese-Boyd
dated December 16, 2016 ..................................... 104a
Letter from Provost Curry to DeWeese-Boyd
dated February 8, 2017 ........................................ 108a
Excerpts from Amended Consolidated
Statement of Undisputed Material Facts .......... 112a
Excerpts from Gordon College Bylaws ................ 133a
Excerpts from Gordon College Restated
Articles of Organization ....................................... 135a

vi
TABLE OF AUTHORITIES
Cases
Adams v. Indiana Wesleyan University,
No. 3:09-CV-468, 2010 WL 2803077 (N.D. Ind.
July 15, 2010) ....................................................... 35
Alicea-Hernandez v. Catholic Bishop of Chicago,
320 F.3d 698 (7th Cir. 2003) ................................ 31
Colorado Christian University v. Weaver,
534 F.3d 1245 (10th Cir. 2008) ............................ 36
EEOC v. Catholic University of America,
83 F.3d 455 (D.C. Cir. 1996) .......................... 31, 32
EEOC v. Mississippi College,
626 F.2d 477 (5th Cir. 1980) ................................ 33
EEOC v. Southwestern Baptist Theological
Seminary,
651 F.2d 277 (5th Cir. 1981) ................................ 33
Grussgott v. Milwaukee Jewish Day School, Inc.,
882 F.3d 655 (7th Cir. 2018) .......................... 30, 31
Hosanna-Tabor Evangelical Lutheran Church &
School v. EEOC,
565 U.S. 171 (2012) ....................................... passim
Kant v. Lexington Theological Seminary,
426 S.W.3d 587 (Ky. 2014) .................................. 34
Kirby v. Lexington Theological Seminary,
426 S.W.3d 597 (Ky. 2014) ............................ 33, 34

vii
Lemon v. Kurtzman,
403 U.S. 602 (1971) ........................................ 22, 38
Lishu Yin v. Columbia International University,
335 F. Supp. 3d 803 (D.S.C. 2018) ...................... 35
Minker v. Baltimore Annual Conference of the
United Methodist Church,
894 F.2d 1354 (D.C. Cir. 1990) ............................ 31
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979) .............................................. 22
Our Lady of Guadalupe School v. MorrisseyBerru,
140 S. Ct. 2049 (2020) ................................... passim
Presbyterian Church in United States v. Mary
Elizabeth Blue Hall Memorial Presbyterian
Church,
393 U.S. 440 (1969) .............................................. 38
Rayburn v. General Conference of Seventh-Day
Adventists,
772 F.2d 1164 (4th Cir. 1985) ........................ 31, 32
Richardson v. Northwest Christian University,
242 F. Supp. 3d 1132 (D. Or. 2017) ..................... 36
Stately v. Indian Community School of
Milwaukee, Inc.,
351 F. Supp. 2d 858 (E.D. Wis. 2004) ................. 35

viii
Statutes
28 U.S.C. 1257(a) ....................................................... 1
Other Authorities
2 Thomas Hughes, History of the Society of Jesus
in North America: Colonial and Federal (1917) . 20
Michael W. McConnell, Establishment and
Disestablishment at the Founding, Part I:
Establishment of Religion, 44 Wm. & Mary L.
Rev. 2105 (2003)................................................... 20

1
DECISIONS BELOW
The Superior Court’s order denying Gordon
College’s motion to dismiss based on the ministerial
exception is reported at 2020 WL 1672714, reprinted
in the Appendix (“App.”) at App.37a–103a.
The Supreme Judicial Court of Massachusetts’
decision affirming the Superior Court is reported at
487 Mass. 31 (Mass. 2021), reprinted at App.1a–36a.
STATEMENT OF JURISDICTION
Petitioner timely files this petition from the
Supreme Judicial Court of Massachusetts’s March 5,
2021 decision. This Court has jurisdiction under 28
U.S.C. 1257(a).
PERTINENT CONSTITUTIONAL
PROVISIONS
The First Amendment to the United States
Constitution provides, in relevant part: “Congress
shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof.”
The Fourteenth Amendment to the United States
Constitution provides, in relevant part: “[N]or shall
any State deprive any person of life, liberty, or
property, without due process of law.”

2
INTRODUCTION
Petitioner Gordon College was formed to provide
instruction in the Bible and other subjects while
preparing students for Christian ministry and other
forms of Christian work. Gordon has maintained its
dedication to the historic, evangelical, biblical faith,
and should the College ever stray from its core
religious mission, its governing charter requires the
transfer of all its assets to another evangelical
institution, such as the American Bible Society.
Consistent with these purposes, all Gordon
community members—including students and
faculty—agree to abide by a Religious Life and
Conduct statement. Students are required to provide
a profession of faith as part of the admissions process.
All faculty members must also agree and adhere to a
Statement of Faith. Gordon considers its faculty
“ministers,” and it determines their effectiveness in
large part by the integration and expression of their
Christian faith in their teaching and scholarship.
Gordon also expects every faculty member to
participate actively in the spiritual formation of its
students into godly, biblically faithful ambassadors
for Christ. That is why the College “commissions”
faculty through participation in a worship service,
prayer, and dedication.
In sum, Gordon’s professors are Christian
educators whom the College expects to transmit,
carry, and advance the College’s Christian beliefs and
mission through teaching, scholarship, and service.
Faculty are the primary means by which Gordon
College furthers its religious mission. They must
profess the College’s Christian faith, assist students

3
in their spiritual journey as part of their intellectual
formation, be available to minister to students with
questions, personal needs, and spiritual exploration,
and—most important—inculcate the Christian
identity and transmit it to the next generation. The
College allocates its resources to support faculty in
these ministerial activities.
“The religious education and formation of
students is the very reason for the existence of most
private religious schools, and therefore the selection
and supervision of the teachers upon whom the
schools rely to do this work lie at the core of their
mission.” Our Lady of Guadalupe School v. MorrisseyBeru, 140 S. Ct. 2049, 2055 (2020). “Without that
power, a wayward [professor]’s … teaching[ ] and
counseling could contradict the [College]’s tenets and
lead [its students] away from the faith.” Id. at 2060.
Accordingly, “[j]udicial review of the way in which
[Gordon] discharge[s] those responsibilities would
undermine [its] independence in a way that the First
Amendment does not tolerate.” Id. at 2055.
Yet that untenable situation is precisely where
Gordon now finds itself. Respondent Margaret
DeWeese-Boyd was a Gordon associate professor of
social work with a theological degree who was denied
a full professorship in 2016 because her performance
fell short of the College’s expectations for faculty
scholarship and institutional service. She sued in
state court. The Massachusetts Supreme Judicial
Court concluded that DeWeese-Boyd was required to
be a Christian teacher and scholar—but did not
perform ministerial functions.

4
The Supreme Judicial Court of Massachusetts
reached this conclusion because faculty were not
required to perform certain church-type ministerial
acts, such as conducting devotions or teaching a
course focused exclusively on religion (as opposed to
integrating sectarian instruction into each course).
The problem is that the court took the same, cramped
reading of this Court’s ministerial-exception
pronouncements as did the Ninth Circuit in Our Lady
of Guadalupe. It compared DeWeese-Boyd to the
plaintiffs in Our Lady of Guadalupe and HosannaTabor Evangelical Lutheran Church & School v.
EEOC, 565 U.S. 171 (2012), and found it “significant”
that DeWeese-Boyd did not teach religion-only
classes, lead her students in prayer, or lead students
in devotional exercises or chapel services. App.24a.
But that conclusion ignores the affirmative
ministerial expectations Gordon did have for its
faculty, not to mention the function that all faculty
must perform at a devoutly religious college if the
college is successfully to pursue its mission of
transmitting faith to its students and preparing those
students effectively to engage the secular culture as
followers of Christ and adherents of the Christian
faith. By narrowly defining ministerial activities in
an educational setting, the court ignored the unique,
functional ways that college professors spiritually
shape their students when compared to primary
school teachers.
The lower court’s decision will have a devastating
impact on Gordon and other religious schools,
undermining its very purpose for existence. It
warrants summary reversal. The court’s opinion
disregards this Court’s functional test in Hosanna-

5
Tabor and cannot be reconciled with Our Lady of
Guadalupe, as even the lower court acknowledged.
App.34a (“We recognize that some of the language
employed in Our Lady of Guadalupe may be read
more broadly.”). And it exacerbates a long-simmering,
lower-court conflict over the ministerial exception’s
application to religious institutions of higher
education.
This Court should summarily reverse under Our
Lady of Guadalupe, which precludes lower courts
from “‘embrac[ing] the narrowest construction’ of the
ministerial exception, departing from ‘the consensus
… that the employee’s ministerial function should be
the key focus,’ and demanding nothing less than a
‘carbon copy’ of the specific facts” in this Court’s
ministerial exception cases. 140 S. Ct. at 2060
(cleaned up).
Alternatively, the Court should grant review to
clarify how the ministerial exception applies to college
professors who serve as the primary conduit through
which religious colleges teach and inculcate religion,
are required to incorporate their Christian faith into
teaching and scholarship, and are expected to mentor
their students’ spiritual development. The Court
should also hold that courts should defer to the goodfaith characterization of a ministerial position by a
religious organization or church.

6
STATEMENT OF THE CASE
A. Gordon College
Massachusetts chartered Gordon College to carry
on the faith-based educational work begun in 1889 by
its founder, the Reverend Adoniram Judson “A.J.”
Gordon. App.112a–113a, 133a. The College’s Restated
Articles of Organization announce that Gordon was
formed “to provide instruction in the Bible and other
subjects; to prepare men and women for the work of
foreign and home missions, for the duties of the
Christian ministry and other special forms of
Christian work.” App.113a, 135a. And Gordon’s ByLaws make clear that the College is dedicated to
“[t]he historic, evangelical, biblical faith”; “[s]cholarship that is integrally Christian”; “[l]ife guided by the
teaching of Christ and the empowerment of the Holy
Spirt”; and “application of biblical principles to
transform society and culture.” App.113a, 133a. If the
College ever strays from its religious mission, it must
transfer all assets to another evangelical institution,
such as the American Bible Society, as stipulated by
the institution’s governance documents. App.113a;
Record Appendix (“R.A.”) 224.
Gordon “approaches its educational task from
within the fixed reference points of biblical theism,
which provides a coherent perspective on life and the
world.” App.114a, R.A.242. As the College explains on
its website, “We deepen the faith by integrating
Christian beliefs and practice into all aspects of our
educational experience.”1

1

https://perma.cc/7W73-VSUE (emphasis added)

7
To ensure adherence to its religious principles,
Gordon requires all its faculty—including Margaret
DeWeese-Boyd—to subscribe to the College’s
evangelical Christian Statement of Faith, through
which they affirm the fundamental tenets of their
faith, including that the “66 canonical books of the
Bible as originally written were inspired of God.”
App.114a–115a, R.A.306. Faculty must also make
clear their devotion to a thoroughly Christian
educational setting, including agreeing to abide by
the College’s Bible-based Statement on Life and
Conduct. App.115a, R.A.245, 254. All faculty must
also confirm “personal agreement with the Statement
of Faith.” App.115a, R.A.304. As Gordon’s President
testified, when interviewing a prospective faculty
member, he likens joining the College “to joining a
religious order,” including “being able to embrace the
Christian mission and purpose of the institution.”
App.115a–116a, R.A.320.
Admitted students expect to learn from faculty
who integrate the College’s faith in their classes.
Students applying for admission must “describe
[their] faith in Jesus Christ” and explain “why [they]
are interested in attending a distinctively Christian
college like Gordon College.” App.116a, R.A.324, 328.
Like faculty and staff, students must also accept the
College’s Life and Conduct Statement and Statement
of Faith. Ibid. And the College infuses its campus
environment with religious art, Bible verses, music,
and worship space. App.117a, R.A.316.

8
Gordon’s Life and Conduct Statement specifies
the College’s Christian “ideals and standards.”2 Those
who affirm the Statement “recognize[ ] that biblical
principles are foundational for corporate life and
individual behavior,” and that the “actions of
Christians within a community are not solely a
private matter.”3 Indeed, “[a]ttaining common goals
and ensuring orderly community life may necessitate
the subordination of some individual prerogatives.”4
The Statement goes on to clarify that “[c]ertain
actions are expressly prohibited in Scripture and are,
therefore, wrong,” and these commandments are
“authoritative.”5 “Those words and actions which are
expressly forbidden in Scripture, including but not
limited to blasphemy, profanity, dishonesty, theft,
drunkenness, sexual relations outside marriage, and
homosexual practice, will not be tolerated in the lives
of Gordon community members, either on or off
campus.”6 Community members also agree to forgo
alcohol, drugs, and tobacco, and to honor the
Sabbath.7 DeWeese-Boyd’s complaint admits she no
longer agrees with two significant religious beliefs in
the Statement yet attempts to use the courts to force
the College to make her a full professor.
2

https://perma.cc/A3JN-6BCJ.

3

Ibid.

4

Ibid.

5

Ibid.

6

Ibid.

7

Ibid.

9
B. Gordon’s ministerial faculty
Nearly a century ago, Gordon’s Board of Trustees
emphasized it could hire only faculty who support its
evangelical Christian doctrines and mission.
App.117a–118a, R.A.224. So, its Faculty Handbook
requires that all professors integrate Christian faith
with their teaching and academic discipline.
“[F]aculty are expected to be fully prepared in all
facets of their tasks as Christian teachers and
advisors, both in and outside the classroom. They
must engage students in their respective disciplines
from the perspectives of Christian faith and to teach
with accuracy and integrity.” App.118a, R.A.256
(emphasis added).
Unlike a secular institution, the Handbook continues, “[o]ne of the distinctives of Gordon College is
that each member of faculty is expected to participate
actively in the spiritual formation of [its] students into
godly, biblically-faithful ambassadors for Christ.”
App.118a, R.A.282 (emphasis added). “In the Gordon
College context, faculty members are both educators
and ministers to [their] students.” App.119a, R.A.282
(emphasis added). Gordon’s teaching pillars include
“integration” of faith and learning—to “help[ ]
students make connections between course content,
Christian thought and principles, and personal faith
and practice[,]” “encourage[ ] students to develop
morally responsible ways of living in the world
informed by biblical principles and Christian
reflection[,]” and “cultivate[ ] a sense that ‘knowing’ is
a matter not just of the intellect, but also of faith.”
App.119a, R.A.283–84 (emphasis added).

10
The College takes these directives seriously.
Gordon conducts seminars for professors concerning
the integration of faith and learning, including
discussions and required reading. App.119a,
R.A.334–35. A professor’s success at integrating faith
and learning is a key factor that Gordon considers for
performance reviews, promotions, and applications
for tenure for all faculty members. App.120a,
R.A.262–63, 266–67. And Gordon has a “Vision Day”
for faculty and staff at which the College
“commissions” new and current faculty through
participation in a worship service, prayer, and
dedication. App.120a, R.A.322, 338–40.
In sum, Gordon’s professors are “Christian
educators” who are the College’s primary means of
accomplishing its religious mission: to “transmit,
carry, and advance the Christian mission through
teaching, scholarship and service.” App.120a,
R.A.318. Professors must “profess the Christian
faith,” “assist students in their spiritual journey as
part of their intellectual formation,” “be available to
minister to students with questions, personal needs,
[and] spiritual exploration,” and “inculcate the Christian identity and transmit it to the next generation.”
App.120a, R.A.320 (emphasis added). And DeweeseBoyd’s ministerial responsibilities were the same: “To
carry and embody the Christian faith, to advance it in
its formation in the lives of our students; to bring
Christian reflection to bear on her scholarship; to
disciple, mentor, give counsel to the students; and to
serve the[ ] Christian purpose of the institution.”
App.121a, R.A.321. “There is abundant record evidence that [Deweese-Boyd] performed vital religious
duties.” Our Lady of Guadalupe, 140 S. Ct. at 2066.

11
C. DeWeese-Boyd’s religious qualifications
DeWeese-Boyd initially applied for a Gordon
College faculty position in its social work department
in February 1998. Her cover letter to the Provost
explained that she had a Master’s degree from
Covenant Theological Seminary in General Theological Studies as well as Southern Baptist missionary
experience, a background that “could be of particular
benefit to Gordon College students.” App.121a,
R.A.342. In an accompanying document, she emphasized her belief that “the environment provided by the
Christian college is expressly germane to social work
education,” because “Christians have an undeniable
call to minister to others.” App.122a, R.A.345.
In her employment application, DeWeese-Boyd
agreed to Gordon’s Statement of Faith, stated her
Christian beliefs, explained how her Christian faith
affects and is incorporated into her scholarship and
academic discipline, and emphasized that her
educational philosophy is founded in Christianity.
App.122a, R.A.359–75. DeWeese-Boyd’s application
further explained that her “Christian commitment
affects [her] scholarship,” App.123a, R.A.372, and
promised that she would “guide and mentor each
student in such a way as to help her discern how
Christianity impacts upon her particular discipline,”
App.123a, R.A.373.8

8

While DeWeese-Boyd tried to backtrack from these statements
about spiritual mentorship at her deposition, she admitted to
making them and believing them when made, and that she
continues to teach students “how to do scholarship which is
founded on Christian principles and values.” App.123a, R.A.353.

12
D. DeWeese-Boyd’s promises to integrate
religion into her academic discipline in
her teaching and scholarship
As Gordon faculty members progress through the
promotion and tenure application process, they must
detail how they integrate faith and learning, including submission of an “integration paper” at the end of
their third year. App.125a, R.A.265. In her paper,
DeWeese-Boyd declared that her “work as a Christian
scholar is reliant upon what [she] understand[s] to be
the ethical responsibility of the Christian interacting
with the world.” App.125a, R.A.382, 386. She also
explained her idea of “faithful scholarship”—scholarship “faithful to the call of Christ as made evident in
scripture, revealed in the Holy Spirit, and witnessed
to by the holy catholic church.” Ibid.
When applying for tenure in 2009, DeWeese-Boyd
submitted a paper titled, “Reflections on Christian
Scholarship.” App.126a, R.A.388–97. Gordon rejected
it because the paper was not explicit enough about
integration of the Christian faith. App.126a, R.A.355.
The College believed that DeWeese-Boyd needed to
integrate the Christian faith more explicitly into her
work—i.e., to be more faith-based. Ibid.
DeWeese-Boyd’s second attempt more explicitly
set forth her own understanding of those obligations:
x

“I understand the work of integration to be
fundamentally about … pursuing scholarship
that is faithful to the mandates of Scripture”;

13
x

“My Christian commitment also affects my
scholarship by allowing me to see my work as
participation in the ministry of Christian
reconciliation”;

x

“In my vocation as [a] Christian Scholar, I
strive to make useful contributions to the
body of knowledge in my area of expertise—
contributions informed by a uniquely
Christian perspective”;

x

And “a desire to follow Christ … plays out in
the methods with which I teach and how I interact with students.” [App.126a–127a,
R.A.388–97 (emphasis added).]

DeWeese-Boyd’s 2016 application for promotion
reiterated that her “desire to follow Christ informs”
her “approach to teaching, the topics [she] engage[s]
as a scholar, and [her] approach to institutional
service.” App.128a, R.A.399. She understood her
obligation to “pursu[e] scholarship that is faithful to
the mandates of Scripture, the vocational call of
Christ, and the dictates of conscience.” App.128a,
R.A.407. Consistent with these ministerial responsibilities, DeWeese-Boyd attended religious services
with students at Gordon’s campus chapel, convocations, and religious gatherings. App.128a–129a,
R.A.357. She attended the same church as some
Gordon students. Ibid. And her student evaluations
reflected the critical necessity of integrating faith into
students’ social-work education. App.130a, R.A.427–
31.

14
E. The College declines DeWeese-Boyd’s
request for promotion to full professor.
According to Gordon’s Faculty Handbook, the
“Faculty Senate and the provost are responsible for
coordinating evaluation efforts.” R.A.261. In
DeWeese-Boyd’s case, the Faculty Senate recommended her to promotion to full professor, App.104a–
107a, but Gordon’s provost, exercising her rightful
prerogative, disagreed, App.108a–111a. The provost
noted that DeWeese-Boyd’s scholarly productivity
was “limited to only a single publication” from 2008 to
2017, which did “not reach acceptable levels of
scholarly productivity for a Gordon faculty member,
especially one who has been granted two sabbaticals
during this time.” App.108a–109a. DeWeese-Boyd
also apparently had “not made a professional
presentation” in the past four years. App.109a.
Other shortfalls included DeWeese-Boyd’s lack of
responsiveness “even as [she] applied for this
promotion,” App.110a, and in impermissibly
assuming the “Director of Social Work” position
“without permission,” placing the “program at risk,”
ibid. DeWeese-Boyd also engaged in “a larger pattern
of inconsistent contributions to the institution.”
App.111a. As the provost told her, “When you want to
do something, you are willing, but sometimes when
the institution asks you to step up, you decline. This
needs to change.” Ibid.
In conclusion, the provost stated that DeWeeseBoyd’s “performance is meritorious in teaching, but
not in scholarship or institutional service.” App.111a.
The provost encouraged DeWeese-Boyd “to make
greater progress in [her] professionalism and

15
institutional service.” Ibid. Specifically, the provost
asked her to “follow through or demonstrate enough
diligence to bring a project to completion” and to “act
with consistent professionalism,” and criticized her
“lack of responsiveness.” Ibid. The provost hoped “this
detailed feedback [would] provide concrete ideas for
improvement in the years ahead.” Ibid. Gordon’s
President “concurred.” App.108a.
DeWeese-Boyd takes a different view. She says
Gordon denied her promotion to full professor because
she “has been one of the most outspoken critics among
the Gordon College faculty regarding the College’s
policies and practices” concerning “LGBTQ+ individuals” and Gordon’s beliefs about same-sex
relationships. R.A.19 ¶ 18. She says this “outspoken”
criticism—and her gender—resulted in the College
denying her request for promotion. R.A.21 ¶ 25.
F. Proceedings below
In the trial court, the parties filed cross-motions
for summary judgment on Gordon’s “ministerial
exception” affirmative defense. The trial court denied
Gordon’s motion and granted that of DeWeese-Boyd.
The trial court began by correctly rejecting
DeWeese-Boyd’s contention that Gordon is merely a
liberal arts college with a Christian “character.” The
court recognized, correctly, that Gordon is a religious
institution for purposes of the ministerial exception.
App.63a–77a. In so ruling, the court pointed to the
College’s Articles of Incorporation, Bylaws, Mission
Statement, Statement of Faith, Statement of Life and
Conduct, campus chapels, artwork, music, and
expectations regarding the integration of faith and
teaching. Ibid.

16
The trial court then held that “DeWeese-Boyd is
not a minister for purposes of the exception,” App.79a,
for four reasons. First, it said, DeWeese-Boyd “had no
religious duties and did not actively promote the
tenets of evangelical Christianity.” App.98a. Second,
her role “did not involve, expect or require
proselytizing on behalf of Gordon College.” Ibid.
(cleaned up). Third, despite the Faculty Handbook’s
view of Gordon faculty as “ministers,” DeWeeseBoyd’s application touting both her Covenant
Theological Seminary education and her Southern
Baptist missionary experience, and her own paper
wherein she saw her work as “participation in the
ministry,” the court said she “neither held a ministerial title nor held herself out as a minister.” App.99a.
Finally, “DeWeese-Boyd did not perform any important religious functions for Gordon College.” Ibid.
The Massachusetts Supreme Judicial Court
allowed Gordon a direct appeal, then affirmed.
App.1a–36a. That court’s overly constrained analysis
of the ministerial exception was remarkably like the
Ninth Circuit’s in Our Lady of Guadalupe and
exhibited a striking lack of deference to the College’s
own understanding of its faculty’s ministerial role.
The court held that Gordon College was a
religious institution, and therefore entitled to
“autonomy with respect to internal management
decisions that are essential to the [College’s] central
mission,” including the “selection of the individuals
who play certain key roles.” See Our Lady of
Guadalupe, 140 S. Ct. at 2060. Further, the court
recognized that DeWeese-Boyd was “required to, and
did, both engage in teaching and scholarship from a
Christian perspective and integrate her faith into her

17
work.” App.24a. The court also acknowledged that the
“integrative responsibility was an important aspect of
being a professor at Gordon,” App.25a, highlighting
that the College likens “joining Gordon to responding
to a formal call to religious service,” ibid.
Nevertheless, the court embraced an unconstitutionally narrow construction of the ministerial
exception, demanding that DeWeese-Boyd’s role as a
professor of social work mirror the role of grade-school
teachers in this Court’s ministerial exception cases.
Employing a “checklist” approach, Our Lady of
Guadalupe, 140 S. Ct. at 2067, the lower court dodged
the functional test, focusing exclusively on the College
not requiring faculty “to meet with students for
spiritual guidance, pray with students, directly teach
them doctrine, or participate in religious rituals or
services with them,” App.26a. The court deferred to
DeWeese-Boyd’s “view” that she was not a minister,
App.31a, and her opposition to adding the word
“minister” to describe professors in the Faculty
Handbook, ibid., rather than defer to the College’s
good-faith views of its own faculty positions.
While recognizing that Our Lady of Guadalupe
“may be read more broadly,” App.34a, the court held
that DeWeese-Boyd’s responsibilities were “significantly different” than “teachers of religion at primary
or secondary schools in the cases that have come
before the Supreme Court,” App.31a, while ignoring
the difference between a religious college and grade
school setting. Moreover, the court reasoned, the
opposite conclusion would mean that all College
employees—“whether they be coaches, food service
workers, or transportation providers”—must be
ministers, App.35a, even though this case is solely

18
about whether professors at religious colleges are
ministers when required to engage in teaching and
scholarship from a religious perspective, integrate
their faith into their academic disciplines, and serve
as spiritual advisors and mentors to students.
Accordingly, the court rejected Gordon’s ministerial defense, App.36a, involving a teacher who is
charged with transmitting the Christian faith to her
students and integrating that faith in her academic
work and teaching, and whom the College considers
to be a minister. So a factfinder must scrutinize
whether Gordon rejected DeWeese-Boyd for full
professorship because Gordon believed that DeWeeseBoyd needed to improve her scholarship and institutional service or, as she argues, due to her public
advocacy against the College’s express religious
beliefs regarding human sexuality—in which case
Gordon could be liable under Massachusetts nondiscrimination law.
REASONS FOR GRANTING THE WRIT
In Our Lady of Guadalupe, this Court explained
that the “religious education and formation of
students is the very reason for the existence of most
private religious schools, and therefore the selection
and supervision of the teachers upon whom the
schools rely to do this work lie at the core of their
mission.” 140 S. Ct. at 2055. “Judicial review of the
way in which religious schools discharge those
responsibilities would undermine the independence of
religious institutions in a way that the First Amendment does not tolerate.” Ibid.

19
That reasoning applies with full force to a private
religious college. If Gordon cannot select, retain, and
promote its faculty free of government interference, it
cannot faithfully carry out its religious mission. And
if that happens, Gordon’s governing documents
require it to disband and to distribute its assets to
another evangelical institution.
The Massachusetts Supreme Judicial Court
obviously does not share the College’s religious belief
that a faculty member’s integration and teaching of
the Christian faith with an academic discipline is
inherently a religious and ministerial function and
critical to the College’s very existence. Nor does that
court share the College’s understanding of how the
Christian faith must be integrated into classes such
as social work. But the First Amendment requires
that the courts respect the College’s religious beliefs
rather than apply a flawed perception of what the
courts think Christian education should be.
The decision below conflicts with Our Lady of
Guadalupe and Hosanna-Tabor and warrants
summary reversal. Alternatively, plenary review is
warranted because the decision below exacerbates a
conflict among the lower courts regarding whether
professors at religious institutions can qualify as
ministers, and because this petition squarely raises a
question reserved in Our Lady of Guadalupe: whether
courts should defer to religious organizations’ own
understanding of who is a “minister.”

20
I.

The Ministerial exception and schools

Before the American Revolution, a “principal
means of government control” over churches were
laws that granted “the power to appoint prelates and
clergy.” Michael W. McConnell, Establishment and
Disestablishment at the Founding, Part I: Establishment of Religion, 44 Wm. & Mary L. Rev. 2105, 2132
(2003). Such laws resulted in “continual conflicts
between clergy-men, royal governors, local gentry,
towns, and congregants over the qualifications and
discipline of ministers.” Id. at 2137. Some such laws
controlled religion through education. For example,
an early-18th century Maryland law “prohibited any
Catholic priest or lay person from keeping school, or
taking upon itself the education of youth.” 2 Thomas
Hughes, History of the Society of Jesus in North
America: Colonial and Federal 443–44 (1917).
Out of this entanglement, the Religion Clauses
were born. “[T]he founding generation” adopted them
to “ensure[ ] that the new Federal Government—[ ]
would have no role in filling ecclesiastical offices.”
Hosanna-Tabor, 565 U.S. at 183–84. “The Establishment Clause prevents the Government from appointing ministers, and the Free Exercise Clause prevents
it from interfering with the freedom of religious
groups to select their own.” Ibid.
In Hosanna-Tabor, this Court articulated several
reasons for officially recognizing what lower courts
had long applied: the so-called ministerial exception.
“Requiring a church to accept or retain an unwanted
minister, or punishing a church for failing to do so”
entangles the state in religious organizations’ affairs
in the same way as judges deciding religious doctrinal

21
disagreements. 565 U.S. at 188. Doing this “interferes
with the internal governance of the church, depriving
the church of control over the selection of those who
will personify its beliefs,” impermissibly interfering
with “a religious group’s right to shape its own faith
and mission through its appointments.” Ibid. (emphasis added). Accordingly, “courts are bound to stay out
of employment disputes involving those holding
certain important positions with churches and other
religious institutions.” Our Lady of Guadalupe, 140 S.
Ct. at 2060. If a religious organization lacked that
power, a wayward, key employee’s “teaching[ ] and
counseling could contradict the church’s tenets and
lead the congregation away from the faith.” Ibid.
While determining whether a position qualifies
for the ministerial exception may involve consideration of “a variety of factors,” Our Lady of Guadalupe,
140 S. Ct. at 2063, “[w]hat matters, at bottom, is what
an employee does,” id. at 2064. There is no “rigid
formula” but rather the question is whether an
employee performs “religious duties.” Id. at 2066– 67.
“Educating and forming students in the … faith …
[and] guid[ing] their students, by word and deed,
toward the goal of living their lives in accordance with
the faith” are some such duties. Id. at 2066. Further,
a “religious institution’s explanation of the role of
such employees in the life of the religion in question
is important.” Ibid.
Indeed, this Court has oft recognized the importance of religious-school teachers transmitting the
faith. In Hosanna-Tabor, this Court explained that
the grade-school teacher at issue was charged with
“leading others toward Christian maturity” through
her teaching and “performed an important role in

22
transmitting the Lutheran faith to the next
generation.” 565 U.S. at 192 (cleaned up). In other
contexts, this Court has stressed “the importance of
the teacher’s function in a church school.” NLRB v.
Catholic Bishop of Chi., 440 U.S. 490, 501 (1979).
Religious schools are “a powerful vehicle for
transmitting the … faith to the next generation,” “an
integral part of the religious mission,” and teachers
are a “prime factor for the success or the failure of the
school[’s mission].” Lemon v. Kurtzman, 403 U.S. 602,
615–16, 618 (1971) (cleaned up).
Our Lady of Guadalupe doubled down on this
point: “implicit in our decision in Hosanna-Tabor was
a recognition that educating young people in their
faith, inculcating its teachings, and training them to
live their faith are responsibilities that lie at the very
core of the mission of a private religious school.” 140
S. Ct. at 2064. The opinion cited favorably to a
Hosanna-Tabor concurrence concluding that the
ministerial exception must include employees who
“serve[ ] as a messenger or teacher of” a religious
organization’s faith. Ibid. (cleaned up).
Many religious schools “expressly set themselves
apart from public schools that they believe do not
reflect their values.” Id. at 2065. And a survey of “the
rich diversity of religious education in this country”
demonstrates “the close connection that religious
institutions draw between their central purpose and
educating the young in the faith.” Id. at 2066.

23
II. The decision below conflicts with this
Court’s decisions in Our Lady of Guadalupe
and Hosanna-Tabor and exacerbates a
lower-court conflict.
A. At any religious college whose mission is
to integrate its express religious beliefs
throughout its academic disciplines, the
“function” of a professor is ministerial.
No matter the classroom subject, authentically
religious colleges and universities expect their faculty
to embody and to further the institution’s mission of
transmitting their religious faith. Such schools’
mission is not merely to educate students but to teach
them particular religious beliefs and help them
integrate those beliefs into every academic discipline.
From that education and spiritual formation, the
students graduate with the tools to live their faith in
the public square. “When it comes to the expression
and inculcation of religious doctrine, there can be no
doubt that the messenger matters.” Hosanna-Tabor,
565 U.S. at 201 (Alito, J., concurring). That is why
religious colleges’ governing documents, mission
statements, faculty handbooks, and codes of conduct
are all ordered toward requiring professors to teach
and to show students how to live religiously.
These schools understand that achieving their
mission is possible only if they can hire, retain, and
promote faithful faculty who are true to the
institutional mission and themselves embrace and
model their religion to their students. Thus, faithful
religious schools create religious hiring requirements,
demand that their faculty successfully integrate faith
and education in and out of the classroom, and require

24
that professors sign statements of faith and conduct.
All these things represent the essential role that
faculty play in furthering their schools’ religious
missions.
B. The lower court disregarded what a
Gordon College faculty member does—
transmit the College’s faith.
In denying Gordon’s ministerial defense, the
Supreme Judicial Court of Massachusetts did exactly
what Our Lady of Guadalupe instructed not to do:
insist on a rigid checklist that, to qualify as a
minister, a religious-school teacher must: (1) teach a
religion class; (2) pray with students; and (3) lead
students in devotional exercise of chapel services.
App.35a (considering these factors “significant”). The
more appropriate inquiry examines her function:
x

Like Perich, the teacher in Hosanna-Tabor,
DeWeese-Boyd carried the title “minister,”
App.119a, R.A.282, and was hired in part
largely because of her Covenant Theological
Seminary degree and training, App.121a,
R.A.342.

x

Also like Perich, Gordon College invited
DeWeese-Boyd to a formal commissioning
each and every school year—through
participation in a worship service, prayer, and
dedication. App.120a, R.A.322, 338–40.

25
x

Although she (conveniently) disavows her
ministerial role, DeWeese-Boyd, like Perich,
accepted all of Gordon’s religious terms for
faculty ministers, including the College’s
evangelical Christian Statement of Faith,
App.115a, R.A.306, and Bible-based Statement on Life and Conduct, App.115a,
R.A.245, 254. That is, she “join[ed the]
religious order,” including “embrac[ing] the
Christian mission and purpose of” Gordon
College, App.115a–116a, R.A.320. Every year
she signed an annual contract reaffirming
those commitments and explicitly embraced
them in each application for promotion and
advancement to tenure.

x

Like Perich, DeWeese-Boyd’s job duties
“reflected a role in conveying [her Christian
school]’s message and carrying out its
mission.” Hosanna-Tabor, 565 U.S. at 192.
“[I]nside and outside the classroom,” she was
expected to function as a “Christian teacher[ ]
and advisor[ ].” App.118a, R.A.256. “In the
Gordon College context, faculty members are
both educators and ministers to [their] students.” App.119a, R.A.282 (emphasis added).

x

Like Morrissey-Berru and Biel, the teachers
in Our Lady of Guadalupe, DeWeese-Boyd’s
employment agreement and faculty handbook
“specified in no uncertain terms that [she
was] expected to help the school[ ] carry out
[its] mission” and that her “work would be
evaluated to ensure [she was] fulfilling that
responsibility.” 140 S. Ct. at 2066; App.119a–
120a, R.A.262–63, 266–67.

26
x

Like Morrissey-Berru and Biel, DeWeeseBoyd was a “member[ ] of the school staff who
[was] entrusted most directly with the
responsibility of educating … students in the
faith.” 140 S. Ct. at 2066 (emphasis added).
App.119a, R.A.283–84 (all Gordon faculty
must “encourage students to develop morally
responsible ways of living in the world
informed by biblical principles and Christian
reflection[,]” and “cultivate[ ] a sense that
‘knowing’ is a matter not just of the intellect,
but also of faith.”)

x

Like Morrissey-Berru and Biel, DeWeeseBoyd was “expected to guide [her] students,
by word and deed, toward the goal of living
their lives in accordance with the faith.”
App.118a, R.A.282 (“each member of faculty is
expected to participate actively in the
spiritual formation of [its] students into godly,
biblically-faithful ambassadors for Christ”).
Ibid.

x

Like Morrissey-Berru and Biel, DeWeeseBoyd’s school employer “saw [her] as playing
a vital part in carrying out the mission of the”
College. 140 S. Ct. at 2066; App.120a, R.A.320
(faculty must “profess the Christian faith,”
“assist students in their spiritual journey as
part of their intellectual formation,” “be
available to minister to students with
questions, personal needs, [and] spiritual
exploration,” and “inculcate the Christian
identity and transmit it to the next
generation”) (emphasis added).

27
x

Finally, because a “religious institution’s
explanation of the role of such employees in
the life of the [institution] in question is
important,” Our Lady of Guadalupe, 140 S.
Ct. at 2066, it is significant that Gordon
viewed DeWeese-Boyd a Christian minister,
App.119a–120a, R.A.282, 321.

In sum, “[t]here is abundant record evidence that
[DeWeese-Boyd] performed vital religious duties.”
Our Lady of Guadalupe, 140 S. Ct. at 2066.
Given all this, it was wrong for the Massachusetts
Supreme Judicial Court to limit this Court’s
functional test by treating the facts in Hosanna-Tabor
and Our Lady of Guadalupe as “checklist items to be
assessed and weighed against each other in every
case.” Our Lady of Guadalupe, 140 S. Ct. at 2067. It
was also wrong to devalue the profound importance of
the obligation of Gordon’s faculty to integrate the
College’s evangelical Christian faith into their
respective academic disciplines. The fact that
DeWeese-Boyd was expected to integrate her faith
into her social work and sociology courses rather than
teach an explicitly designated religion class in the
Bible department (which Morrissey-Beru and Biel did
a couple of hours weekly), pray with her students (as
Morrissey-Beru and Biel did a couple of minutes
daily), or lead students in devotional exercises or
chapel services (as Perich did), did not change the
reality of her function or Gordon College’s good-faith
beliefs about its faculty.

28
The faulty logic driving the lower court’s decision
appears to be its mistaken belief that allowing Gordon
to claim DeWeese-Boyd as a minister would inevitably lead to categorizing as ministers every person on
a religious-institution’s staff, from janitors, App.34a–
35a, to “coaches, food service workers, or transportation providers,” App.35a. But this case is not
about any of those other positions, which do not
involve the obligation to transmit the faith through
teaching. Gordon is not asking this Court to issue
such a broad holding, nor should the Court do so.
Of specific importance here, a Christian professor
serves as “messenger” and “teacher.” Our Lady of
Guadalupe, 140 S. Ct. at 2064. Indeed, at Gordon
College, professors are expected to transmit the
Christian faith as articulated and required by the
College. And a test that focuses on “what an employee
does,” ibid., naturally requires a facts-andcircumstances analysis of each institution and each
employee’s designated role.
So, while DeWeese-Boyd’s position was not the
same as the K-6 teachers in Hosanna-Tabor and Our
Lady of Guadalupe, her “core responsibilities” as a
Gordon College minister “were essentially the same.”
Our Lady of Guadalupe, 140 S. Ct. at 2066. Indeed,
inculcation and modeling of the Christian faith to
Gordon’s students was of utmost importance. This
Court should not allow its pronouncements to be so
easily flaunted.

29
III. The lower court’s decision exacerbated a
conflict among appellate courts.
The Massachusetts Supreme Judicial Court’s
ruling also deepened an existing split in lower courts.
As the court acknowledged in its post-Our Lady of
Guadalupe ruling, “the parameters of the
[ministerial] exception”—that is, who’s “covered by
the ministerial exception—remain … unclear.”
App.2a. And the “most difficult issue,” the court said,
was “how to evaluate [a professor’s] responsibility to
integrate her Christian faith into her teaching and
scholarship.” Ibid.
This question has puzzled many courts. The
Seventh and D.C. Circuits, for example, hold that
teachers at religious institutions who integrate their
faith into their work perform ministerial functions,
while the Fifth Circuit and the Kentucky Supreme
Court have ruled that such teachers are not
necessarily performing such functions. This split is
exacerbated by conflicting trial-court decisions. This
Court should resolve those conflicts rather than
allowing different outcomes based merely on where a
college is located.
A. The Seventh Circuit and D.C. Circuit
hold that teachers at religious institutions who integrate their faith into their
work and academic disciplines are
ministers.
Applying Hosanna-Tabor, the Seventh Circuit
has held that a Hebrew teacher at a Jewish school is
a minister, in large part because she was expected to
“integrate religious teachings into” her lessons.
Grussgott v. Milwaukee Jewish Day Sch., Inc., 882

30
F.3d 655, 659 (7th Cir. 2018). Nothing in her title—
“Hebrew teacher”—or in her use of that title
suggested that conclusion. Ibid. For example, the
teacher never identified “as an ambassador of the
Jewish faith.” Ibid. She did not believe anyone would
see her as a “religious leader.” Ibid. And she
“consistently maintained that her teaching was
historical, cultural, and secular”—not “religious.”
Ibid. Yet, because she integrated the Jewish faith in
her teachings, and so was a “‘teacher of faith’ to the
next generation,” the court held that she was a
minister covered by the ministerial exception. Id. at
661 (citing Hosanna-Tabor, 565 U.S. at 199 (Alito. J.,
concurring)) (cleaned up).
In fact, that latter function “outweighed other
considerations,” as the court applied its “totality-ofthe-circumstances test.” Ibid. Like DeWeese-Boyd,
the teacher was “not required to complete” religious
training to perform her role. Id. at 659. But she did
have a background in religious education, “which the
former principal said was a critical factor in the
school’s hiring her.” Ibid. And while she “approached
her teaching from a ‘cultural’ rather than religious
perspective,” and never believed she was “required” to
perform “religious functions,” that did not matter to
the court because “the school clearly intended for her
role to be connected to the school’s Jewish mission.”
Id. at 660; cf. Hosanna-Tabor, 565 U.S. at 192
(esteeming that the teacher was “expressly charged”
with “lead[ing] others to Christian maturity”).
Like Gordon here, the school expected the teacher
“to follow its expressly religious mission and to teach”
Hebrew from a Jewish perspective, so as to instill a
Jewish “identity in [its] learners.” Grussgott, 882 F.3d

31
at 660. This, along with the school’s interest in her
background in religious education during her hiring,
“confirm[ed] that the school expected [the teacher] to
play an important role in ‘transmitting the [Jewish]
faith to the next generation.’” Id. at 661 (citing
Hosanna-Tabor, 565 U.S. at 192). And even if the
teacher “did not know this,” the Seventh Circuit
reasoned, the “school’s expectation” that she perform
this function is what “matters,” and her job included
aspects “that simply would not be part of a secular
teacher’s job at a secular institution.” Ibid.
This holding reinforces a rule the Seventh Circuit
has long recognized: the determination “of whose
voice speaks for the [religious institution] is per se a
religious matter.” Alicea-Hernandez v. Catholic
Bishop of Chi., 320 F.3d 698, 704 (7th Cir. 2003)
(quoting Minker v. Baltimore Annual Conf. of the
United Methodist Church, 894 F.2d 1354, 1356 (D.C.
Cir. 1990)). No less than a teacher at a religious
school, or a “press secretary” at a church, professors
are the “voice” of their institution; they publicly
“convey[ ] the message of” their college. Ibid. And so
the ministerial exception protects a religious college’s
choice about who will “teach its message.” Ibid.
Similarly, the D.C. Circuit has held “that the
ministerial exception encompasses all employees of a
religious institution, whether ordained or not, whose
primary functions serve its spiritual … mission.”
EEOC v. Catholic Univ. of Am., 83 F.3d 455, 463 (D.C.
Cir. 1996) (quoting Rayburn v. Gen. Conf. of SeventhDay Adventists, 772 F.2d 1164, 1169 (4th Cir. 1985))
(emphasis added). The court then applied the
exception to cover a Catholic university’s decision not
to give tenure to one of its professors. Id. at 464.

32
The D.C. Circuit noted that while the professor
was “not a priest,” she sought to obtain tenure “in a
field [Canon Law] that is” critical “to the spiritual
mission of her Church.” Id. at 464. But its determination turned primarily on whether the professor’s
“primary duties consist of teaching, spreading the
faith, … or supervision or participation in religious
ritual and worship.” Id. at 461 (citing Rayburn, 772
F.2d at 1169). And her role “clearly fit[ ] this
description,” because she was part of a faculty whose
“stated mission is to ‘foster and teach sacred doctrine
and the disciplines related to it.’” Id. at 463–64
(quoting the University’s documents).
In other words, if Gordon College was in the
Seventh or D.C. Circuits, it likely would have
prevailed on its ministerial defense. That is because
DeWeese-Boyd was called to teach from a distinctly
Christian perspective to instill a Christian identity in
Gordon students, and because she was part of a
faculty whose stated mission was to grow and spread
the Christian faith both inside and outside the
classroom.
B. The Fifth Circuit and Kentucky Supreme
Court hold that the status of teachers at
religious institutions who integrate
their faith into their work depend on the
courses they teach.
The Fifth Circuit and the Kentucky Supreme
Court agree that professors can be ministers. But
they distinguish between professors who integrate
their faith into disciplines they teach and those who
teach their faith as a discipline.

33
Long before Hosanna-Tabor, the Fifth Circuit
recognized that seminary professors are ministers
when many who hold that role “have been ordained,”
the institution expects them to teach the “whole of
religious doctrine,” and only religious courses are
taught. EEOC v. Sw. Baptist Theological Seminary,
651 F.2d 277, 283-84 (5th Cir. 1981). The ministerial
exception covers them, the court said, because they
serve as “intermediaries between [the church] and
[its] future ministers.” Id. at 283.
In contrast, the Fifth Circuit has not applied the
ministerial exception to cover professors at religious
institutions who do not teach the whole of religious
doctrine. In EEOC v. Mississippi College, for example,
the court held that a psychology professor at a
religious college was not a minister because, while the
professor was “expected to serve” as a Christian
example for her students, she taught a secular
discipline. 626 F.2d 477, 485 (5th Cir. 1980). The
professor did not teach “religious doctrine,” meet any
“religious needs,” or act as an intermediary “between
a church and its congregation.” Ibid.
Similarly, after Hosanna-Tabor, the Kentucky
Supreme Court decided two cases involving two
professors at the same seminary. And the court
applied the ministerial exception to cover one
professor, but not the other. A crucial reason: one
professor taught theology, the other history.
In Kirby v. Lexington Theological Seminary, the
court held that an Instructor of Church and Society at
a seminary was a minister because, while he was “not
ordained,” he was very active in promoting “the
Seminary’s mission.” 426 S.W.3d 597, 611 (Ky. 2014).

34
For example, he engaged in “religious ceremonies,”
taught “Christian doctrine,” and was a “messenger of
the Seminary’s faith.” Id. at 611, 614. But the content
of his teaching was critical, because the court said
that “simply engaging in religious discourse” in the
classroom is not enough; the professor must teach
“doctrine or tenets of the faith.” Id. at 613 n.63.
The Kentucky Supreme Court rehearsed this
distinction in Kant v. Lexington Theological Seminary, 426 S.W.3d 587 (Ky. 2014), an opinion on which
the Massachusetts Supreme Judicial Court relied
heavily below. In that case, the court ruled that a
“Professor of Religious Studies” was not a minister
even though he had taught classes on topics like
“Jewish Studies, theology, ethics, Hebrew Bible, New
Testament, world religions, American religion, Greek,
and Hebrew.” Id. at 588, 592. And while the professor
focused on history classes later in his tenure, he
“participated in Seminary life” in many special
ways—reading scripture, giving sermons, and
attending “chapel services.” Id. at 593.
Yet the court did not believe these activities were
“enough” to be “ministerial.” Id. at 594. It criticized
the lower court for holding that a professor “who
promotes the [religious] mission of the religious
institution is a minister,” suggesting that this fact
bears “little insight into whether” the professor’s
duties carry “substantial religious significance.” The
Kentucky Supreme Court instead repeated that the
promotional activity “must be linked to the tenets of
the religious institution’s faith.” Ibid. The professor’s
instruction, it said, “exemplifie[d] the distinction
between ‘teaching about religion’ and ‘the teaching of
religion.’” Id. at 594-95.

35
C. Trial courts are split over whether
teachers at religious institutions who
integrate their faith into their work can
be ministers.
Federal trial courts vary widely on the first
question presented.
A federal trial court in Indiana ruled that a
professor and chair of the social work department at
a religious university was a minister, even though she
did not believe she taught the faith and felt free to
express her views in the classroom. Adams v. Indiana
Wesleyan Univ., No. 3:09-CV-468, 2010 WL 2803077,
at *8 (N.D. Ind. July 15, 2010). The court held this in
part because she was “required to integrate church
doctrine into [her] teaching.” Id. at *9. Accord Stately
v. Indian Cmty. Sch. of Milwaukee, Inc., 351 F. Supp.
2d 858, 870 (E.D. Wis. 2004) (applying similar logic).
Likewise, in Lishu Yin v. Columbia Int’l Univ., a
federal trial court in South Carolina ruled that a
TEFL-ESL instructor at a religious university was a
minister, even though she did not teach theology
courses or believe that she was a minister. 335 F.
Supp. 3d 803, 815–18 (D.S.C. 2018). The court held
this in part because she “integrated biblical materials
into her courses, helped “prepare[ ] students for
ministry,” and encouraged them to “follow the Lord’s
calling” in their lives. These factors, the court said,
“weigh[ed] heavily … in favor of applying the
ministerial exception.” Id. at 817.
In contrast, a federal trial court in Oregon ruled
that an assistant professor of exercise science at a
religious university was not a minister, even though
she “was expected to integrate her Christianity into

36
her teaching and demonstrate a maturing Christian
faith.” Richardson v. Nw. Christian Univ., 242 F.
Supp. 3d 1132, 1145 (D. Or. 2017). The court said that
function was “secondary to her secular role,” and if
this were the test, the court reasoned, hardly “any
teacher at a religious school would fall outside the
[ministerial] exception. Ibid.
But that’s the point. Whether integrating faith
into an academic discipline is a religious function is
fundamentally a religious question. The line between
teaching doctrine and teaching students to apply
doctrine to so-called secular disciplines—if there can
be one—҂is highly subjective.” Colo. Christian Univ.
v. Weaver, 534 F.3d 1245, 1262 (10th Cir. 2008).
Whether teaching is ‘religious’ or ‘secular’ “depends as
much on the observer’s point of view as on any
objective evaluation of the educational activity.” Id. at
1263. Disagreements on this designation “are to be
expected in a diverse society.” Ibid. But the First
Amendment forbids “government officials [from
sitting] as judges” over the doctrine “quotient” of
teaching that a college deems religious. Ibid.
Gordon College does not distinguish the religious
nature of particular academic disciplines. DeWeeseBoyd’s field of social work is replete with religious
questions and issues, such as “What’s the ideal family
in which to rear children?” “What is the nature of
human sexuality?” and “Should foster parents take
their foster children to religious worship services with
them?” Faith can and should inform the answers to
these questions. That is especially true where all
students have chosen to attend the institution
because of its faith-based identity and mission.

37
The Supreme Judicial Court of Massachusetts,
however, has impermissibly interposed its belief
regarding the centrality of religion to teaching social
work from an integrated Christian perspective in
place of Gordon’s. Imagine sitting in a social-work
class at a Catholic university, discussing whether
Catholic adoption agencies should place children for
adoption with same-sex couples. And the professor
promotes a religious view opposite to the one held by
the university. Is this professor performing ministerial functions? Not in Massachusetts. But probably
in Indiana. This Court should correct that error.
IV. This Court should grant the petition and
hold that courts cannot second guess a
religious organization’s good-faith belief
about who is performing a ministerial
function.
In Our Lady of Guadalupe, Justice Thomas,
joined by Justice Gorsuch, wrote separately on a
question the Court reserved: the amount of deference
owed to a religious organization’s own views about
which of its employees is a minister. Justice Thomas
“reiterate[d his] view that the Religious Clauses
require civil courts to defer to religious organizations’
good faith-claims that a certain employee’s position is
ministerial.” 140 S. Ct. at 2069–70 (Thomas, J.,
concurring) (citing Hosanna-Tabor, 565 U.S. at 196
(Thomas, J., concurring)).
As the majority observed there, judges lack the
necessary “understanding and appreciation of the role
played by every person who performs a particular role
in every religious tradition.” 140 S. Ct. at 2066. And
“[w]hat qualifies as ‘ministerial’ is an inherently

38
theological question, and thus one that cannot be
resolved by civil courts through legal analysis.” Id. at
2070 (Thomas, J. concurring) (citing Hosanna-Tabor,
565 U.S. at 197 (Thomas, J., concurring)). When
courts defer to that theological judgment, “they heed
the First Amendment, which ‘commands civil courts
to decide [legal] disputes without resolving
underlying controversies over religious doctrine.’”
Ibid. (quoting Presbyterian Church in U.S. v. Mary
Elizabeth Blue Hall Mem’l Presbyterian Church, 393
U.S. 440, 449 (1969)).
In Our Lady of Guadalupe, this Court “properly
decline[d] to consider whether an employee shares the
religious organization’s beliefs when determining
whether that employee’s position falls within the
‘ministerial exception’” because to do so “would risk
judicial entanglement in religious issues.” 140 S. Ct.
at 2070 (Thomas, J., concurring). “But the same can
be said about the broader inquiry whether an
employee’s position is ‘ministerial.’” Ibid. “This Court
usually goes to great lengths to avoid governmental
‘entanglement’ with religion, particularly in its
Establishment Clause cases.” Ibid. (citing Lemon v.
Kurtzman, 403 U.S. 602, 613 (1971)). That is because
“the Religion Clauses do not permit governmental
‘interfer[ence] with … a religious group’s right to
shape its own faith and mission through its
appointments.’” Id. at 2071 (quoting Hosanna-Tabor,
565 U.S. at 188). “To avoid such interference, [this
Court] should defer to [religious organizations]’ goodfaith understandings of which individuals are
charged with carrying out the organizations’ religious
missions.” Ibid.

39
V. This case is an ideal vehicle with which to
answer the questions presented.
This case is an excellent vehicle to decide the
questions presented. Two factors highlight this. First,
the record cleanly frames the question presented. The
trial court denied the College’s summary-judgment
motion and granted Deweese-Boyd’s on whether the
ministerial exception applies. App.103a. The factual
record was clean enough, and the legal question
important enough, that the trial court allowed the
College to seek direct appellate review—even though
other issues remained for trial. And the
Massachusetts Supreme Judicial Court granted
review because the critical fact underlying the legal
question here “is undisputed”: Gordon College
required Deweese-Boyd to integrate “the Christian
faith” into her teaching and “scholarship”. App.25a.
The only question is purely legal: whether that
“responsibility” to integrate her faith and work makes
Deweese-Boyd a minister. Ibid.
Second, the issues presented will not benefit from
further percolation. Over 7,000 U.S. colleges and
universities identify as “religious.”9 Religious colleges
need urgent clarity on whether the ministerial exception protects their decisions about professors who
inculcate the faith. Not all have a faith-integration
requirement. But those that do need this Court’s
assurance that the ministerial exception covers their
faculty. Colleges like Gordon should not be forced to
choose between violating the law or shutting down
and dispersing their assets. They need clarity. Now.
9

https://perma.cc/VL7N-5XWN.

40
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
ERIN MORROW HAWLEY
ALLIANCE DEFENDING FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org
ASHLEY B. ABEL
BENJAMIN R. DAVIS
JACKSON LEWIS P.C.
75 Park Plaza, 4th Floor
Boston, MA 02116
(617) 367-0025

AUGUST 2021

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Supreme Judicial Court of Massachusetts
Opinion
March 5, 2021 ........................................................... 1a
Superior Court of Massachusetts
Memorandum of Decision and Order on
Summary Judgment
April 2, 2020 ........................................................... 37a
Memo from Faculty Senate to DeWeese-Boyd
dated December 16, 2016 ..................................... 104a
Letter from Provost Curry to DeWeese-Boyd
dated February 8, 2017 ........................................ 108a
Excerpts from Amended Consolidated
Statement of Undisputed Material Facts .......... 112a
Excerpts from Gordon College Bylaws ................ 133a
Excerpts from Gordon College Restated
Articles of Organization ....................................... 135a

1a
Supreme Judicial Court of Massachusetts, Essex.
No. SJC-12988
_______________
MARGARET DeWEESE-BOYD
v.
GORDON COLLEGE & others.1
______________
OPINION
KAFKER, J. This case requires us to assess, in
light of the recent United States Supreme Court
decision in Our Lady of Guadalupe Sch. v. MorrisseyBerru, ––– U.S. ––––, 140 S. Ct. 2049 (2020) (Our
Lady of Guadalupe), whether the ministerial
exception applies to an associate professor of social
work at a private Christian liberal arts college. When
the ministerial exception applies, the employee may
not claim important protections of civil law
prohibiting discrimination on the basis of any
protected factor, such as race, religion, national
origin, sex, or sexual orientation. Such exceptional
treatment is deemed necessary to protect our
religious institutions against interference by civil
authorities in the selection of those who minister to
their faithful. We are thus presented with a potential
conflict between two fundamental American legal
principles. The application of the ministerial
exception could eclipse, and thereby eliminate, civil
law protection against discrimination within a
religious institution; in contrast, the decision not to
1

Dr. Michael Lindsay and Janel Curry.

2a
apply the exception could allow civil authorities to
interfere with who is chosen to propagate religious
doctrine, a violation of our country’s historic understanding of the separation of church and State set out
in the First Amendment to the United States
Constitution. Unfortunately, the parameters of the
exception -- that is to say, who is covered by the
ministerial exception -- remain somewhat unclear.
We conclude that Gordon College (Gordon) is a
religious institution, but that the plaintiff, Margaret
DeWeese-Boyd, is not a ministerial employee. Her
duties as an associate professor of social work differ
significantly from cases where the ministerial
exception has been applied, as she did not teach
religion or religious texts, lead her students in prayer,
take students to chapel services or other religious
services, deliver sermons at chapel services, or select
liturgy, all of which have been important, albeit not
dispositive, factors in the Supreme Court’s functional
analysis. The most difficult issue for us is how to
evaluate her responsibility to integrate her Christian
faith into her teaching and scholarship as a professor
of social work.
The Supreme Court has not specifically addressed
the significance of the responsibility to integrate
religious faith into instruction and scholarship that
would otherwise not be considered ministerial. If this
integration responsibility is sufficient to render a
teacher a minister within the meaning of the
exception, the ministerial exception would be
significantly expanded beyond those employees
currently identified as ministerial by the Supreme
Court. The number of employees playing key
ministerial roles in religious institutions would be

3a
greatly increased. In fact, Gordon has recently
attempted to describe all of its faculty, and even all of
its employees, as ministers, over the objection of the
faculty itself. It is our understanding that the
ministerial exception defined by the Supreme Court
is more circumscribed.2
1. Procedural history. In September 2017,
DeWeese-Boyd, a tenured associate professor of social
work at Gordon, commenced a civil action against
Gordon and its president (D. Michael Lindsay) and
provost (Janel Curry). She alleged in her complaint
that the defendants unlawfully retaliated against her
for her vocal opposition to Gordon’s policies and
practices regarding individuals who identify as
lesbian, gay, bisexual, transgender, or queer (or
questioning), and others (LGBTQ+persons), by
denying her application for promotion to full
professor, despite the fact that the faculty senate
We acknowledge the amicus briefs submitted by the
Roman Catholic Archdiocese of Boston; by Jewish Coalition for
Religious Liberty and Agudath Israel of America; by the
Attorney General; by Jewish Alliance for Law and Social Action,
Clergy and Laity United for Economic Justice, Keshet, National
Council of Jewish Women, New England Jewish Labor
Committee, T’ruah: the Rabbinic Call for Human Rights, and
Unitarian Universalist Massachusetts Action Network; by the
Charles Hamilton Houston Institute for Race and Justice,
GLBTQ Legal Advocates & Defenders, Lawyers for Civil Rights,
Massachusetts Employment Lawyers Association, National
Association of Social Workers, and Union of Minority
Neighborhoods; by American Association of University
Professors; by the Council for Christian Colleges and
Universities and forty-six individual religious colleges and
universities; by American Civil Liberties Union of
Massachusetts, Inc.; and by four religious liberty scholars.
2

4a
unanimously recommended her for the promotion.
Specifically, she alleged unlawful retaliation in
violation of G. L. c. 151B, § 9; unlawful discrimination
on the basis of her association with LGBTQ+ persons
or on the basis of her gender in violation of G. L. c.
151B, § 9; as to the individual defendants, aiding and
abetting discriminatory and retaliatory acts and
interference with her rights in violation of G. L. c.
151B, § 4; violation of the Massachusetts Civil Rights
Act (MCRA), G. L. c. 12, §§ 11H, 11I; breach of
contract; breach of the implied covenant of good faith
and fair dealing; and tortious interference with
contractual or advantageous relations.
The parties cross-moved for summary judgment
on the question whether the ministerial exception,
which prohibits government interference with
employment relationships between religious institutions and their ministerial employees, barred the
plaintiff’s claims. See Hosanna-Tabor Evangelical
Lutheran Church & Sch. v. Equal Employment
Opportunity Comm’n, 565 U.S. 171, 188-189 (2012)
(Hosanna-Tabor). On April 3, 2020, a Superior Court
judge allowed the plaintiff’s motion and denied the
defendants’ motion, concluding that Gordon is a
religious institution but DeWeese-Boyd was not a
ministerial employee. On April 24, 2020, the same
judge granted the defendants’ motion to report to the
Appeals Court the question whether the dismissal of
the defendants’ summary judgment motion was
error.3 We subsequently allowed Gordon’s application
for direct appellate review.
The reported question asks: “Did the [c]ourt err in
dismissing on summary judgement the affirmative defense of the
3

5a
2. Factual background. a. Gordon. i. History and
guiding principles. Gordon is a private, nondenominational Christian liberal arts college in
Wenham.4 It was chartered by the Commonwealth in
1889 “for the purpose of carrying on the educational
work begun . . . by the Reverend Adoniram Judson
Gordon.”5 Its mission is “to graduate men and women
distinguished by intellectual maturity and Christian
character, committed to lives of service and prepared
for leadership worldwide.” Gordon’s bylaws state that
Gordon is dedicated to both “[t]he historic,
evangelical, biblical faith” and “[e]ducation, not
indoctrination.”
Gordon’s
Administrative/Faculty
Handbook
(handbook) indicates that it is “a Christian
community, distinguished from other Christian
communities by its primary commitment to provide a
liberal arts education.” Community members,
including faculty, must affirm Gordon’s Statement of
Faith and agree to abide by the behavioral standards
in Gordon’s Statement on Life and Conduct. Each
undergraduate must be able to describe their faith
and must complete Gordon’s core curriculum, which
“explores the liberal arts and sciences from a
ministerial exception which was recognized by the United States
Supreme Court for the first time in [Hosanna-Tabor, 565 U.S. at
188-190]?”
Gordon is distinct from Gordon-Conwell Theological
Seminary, which was formed after Gordon’s divinity school
separated from Gordon in 1970.
4

Except where otherwise noted, quotations are taken from
Gordon’s Administrative/Faculty Handbook (handbook) and
other official Gordon materials.
5

6a
Christian perspective.”6 Lindsay testified, “[A]t
Gordon there are no nonsacred disciplines. . . . Every
subject matter that we pursue is informed by, shaped
by, the Christian tradition.”
ii. Social work department.7 The Gordon social
work program’s mission was “the education of men
and women for entry level, generalist practice in
social work within the context of a Christian liberal
arts institution.” The program’s four stated goals
were the “integration and application of social work
and Christian values,” the “understanding and
application of a generalist model of social work
practice,” the “promotion of social and economic
justice,” and the “preparation of students who achieve
professional competence.”
iii. Faculty. A. Faculty responsibilities and tenure
evaluation. In the section, “Responsibilities of
Faculty,” Gordon’s handbook states:
“Faculty members at Gordon College are
teacher-scholars. As an undergraduate liberal
arts institution, Gordon values faculty who are
distinguished by excellence in teaching, commitment to mentoring and advising students, and
service to the College. Teaching and service also
need to be continually enriched and informed by
an active scholarly life. . . . To prepare students
in an academic discipline, Gordon faculty need
to be sound practitioners of that discipline,
The core curriculum includes courses in biblical studies,
science, history, languages, philosophy, and physical education.
6

Gordon eliminated the social work major in 2019, while
this case was pending.
7

7a
adding to and applying the knowledge within
their respective fields of study. Furthermore,
Gordon faculty members need to be interpreters
of their disciplines. Not only should faculty be
able to explain current methodologies and
theories of their disciplines to their students and
colleagues, but they should continually explore
how a Christian worldview enhances, redefines,
or confronts their discipline’s preeminent
practices and philosophical assumptions.”
Gordon faculty are described in the handbook as
“members of a community of Christian scholars,” and
as “committed to imaging Christ in all aspects of their
educational endeavors.” The handbook is clear that
Gordon’s Christian perspective does not limit
academic freedom, “but rather provide[s] an
integrative approach to [the community’s] scholarly
endeavors.”
The
handbook
divides
professors’
basic
responsibilities -- and the bases on which tenure and
promotions are evaluated -- into three categories:
teaching, scholarly and professional activity, and
institutional service.
In their role as teachers, faculty effectiveness is
evaluated in five areas: (1) self-understanding; (2)
course design and content; (3) presentation; (4)
sensitivity to student needs, and (5) integration, in
which the faculty member

8a
a. “cultivates a sense that ‘knowing’ is a matter not
just of the intellect, but also of faith, praxis,[8] and
intuitive insight”;
b. “encourages students to uncover, question, and
reflect on their tacit assumptions about their
world”;
c. “helps students
connections”;

to

make

inter-curricular

d. “helps students make connections between
course content, Christian thought and principles,
and personal faith and practice”; and
e. “encourages students to develop morally
responsible ways of living in the world informed by
biblical principles and Christian reflection.”
In their role as scholars, faculty are expected to
“promote understanding of their disciplines from the
perspectives of the Christian faith and to engage in
scholarship,
professional
participation,
and
dissemination of research and creative work
appropriate to their disciplines.” The handbook notes
that scholarship at Gordon can be “integrative
scholarship that develops Christian perspectives,” but
can also take other forms (specifically, disciplinary,
interdisciplinary, or practical scholarship).
To
satisfy
their
institutional
service
responsibilities, faculty are expected to serve in a
variety of capacities, such as attending faculty
In a religious or philosophical context, “praxis” often
means “action which arises from true belief, the manifestation of
religion in practice.” J. Bowker, The Concise Oxford Dictionary
of World Religions (2016).
8

9a
meetings and serving on departmental committees,
“guided by a concern to further the mission of
Gordon.”
As faculty members progress through the
promotion and tenure processes, they are required to
detail how they integrate faith and learning,
including submitting an “integration paper” at the
end of their third year of appointment. The faculty
senate is responsible for making recommendations on
applications for promotion and tenure.
Curry, Gordon’s provost, testified that faculty are
not required to participate in leading prayers or to
attend regular chapel services on campus. The
handbook does not contain any specific reference to
faculty responsibility for leading prayers.9
Lindsay, who became president of Gordon after
DeWeese-Boyd was hired, testified that when he
interviews a faculty member, he “will liken joining
Gordon College to joining a religious order.”10 Formal
religious training is not, however, required for
employment at Gordon, although some professors
have seminary degrees. Professors with seminary

Lindsay testified that leading students in prayer “would
be an expectation of the job” of faculty “that I think would be
communicated in the various opportunities we provide
throughout the year and in the norms and expectations we have
on the campus,” but he provided no specific reference to what
those norms and expectations are or how they are communicated
other than the handbook.
9

There is no evidence in the record indicating whether such
a statement was made to DeWeese-Boyd.
10

10a
training do not have different titles from other
professors.
B. Addition of “minister” to the handbook. In
October 2016, Gordon added the following language
to the handbook:
“One of the distinctives of Gordon College is that
each member of faculty is expected to participate
actively in the spiritual formation of our
students into godly, biblically-faithful ambassadors for Christ. Faculty members should seek
to engage our students in meaningful ways to
strengthen them in their faith walks with
Christ. In the Gordon College context, faculty
members are both educators and ministers to
our students.”
This language was drafted by Meirwyn Walters,
Gordon’s counsel. The handbook did not previously
use the term “minister” to describe faculty. Faculty
were not informed of this change to the handbook.
After they discovered the language, it was discussed
at a faculty meeting in the fall of 2017, the minutes of
which state:
“The language was composed by Meirwyn, and
not the administration for legal reasons. This
was due to cultural shifts relating to religious
liberty to ‘shore up’ our governing documents.
This allows us to trigger judicial deference to
protect our First Amendment rights. . . In his
opinion, this statement does not add anything
new to faculty responsibilities.”11
Walters testified that the language “wasn’t a change, it
was an addition of language that captured what the school had
11

11a
Multiple professors stated in affidavits that there
was “serious opposition” to the addition of this
language, in large part due to concerns that it was
inaccurate, misleading, and “a significant departure
from [both] the faculty’s own sense of their
responsibilities and calling at Gordon” and “Gordon’s
long-standing ethos.” The Gordon chapter of the
American Association of University Professors issued
the following formal statement in response to the
addition:
“We respectfully disagree with the designation
of faculty as ‘Ministers’ in the most recent
version of the Faculty Handbook. . . . Adopting
the language of ‘Minister’ in a presumed attempt
to bring faculty within the scope of the
Ministerial Exception at best effects a mere
change of label while wrongly describing the
faculty role within the College. Attempting to
shoehorn faculty into this employment category
is at odds with our desire to live in a distinctive
Christian community as ‘Teacher-Scholars.’ ”
b. DeWeese-Boyd. i. Employment and promotion
history. Gordon hired DeWeese-Boyd as an assistant
professor in 1998. Prior to her employment at Gordon,
DeWeese-Boyd worked in the mission field; received a
master of arts degree in general theological studies
from Covenant Theological Seminary and a master of
social work degree from Washington University, both
in St. Louis, Missouri; and was pursuing a doctoral
degree in political science from the University of
been doing historically and its expectations of faculty.” Lindsay
testified that this language was an attempt to “memorialize
what the expectations were of our faculty.”

12a
Missouri at St. Louis and a doctoral degree in social
work from Washington University.12 She highlighted
all of these experiences in her cover letter for a
tenure-track position at Gordon.
She also submitted a curriculum vitae, a
statement regarding her educational philosophy, and
an application detailing her personal faith, its impact
on her scholarship, and her view of faculty
responsibilities in a Christian higher education
institution. In these documents, she listed her
teaching areas as “social policy; research methods;
values and ethics; the policy process; political
thought; [and] community development practice and
theory.” She also made statements regarding faith
and her profession, specifically: “Christians have an
undeniable call to minister to others”; “[m]y Christian
commitment affects my scholarship by allowing me to
see my work as participation in the reform of human
society”; and “it is . . . the role of the Christian
academic to guide and mentor each student in such a
way as to help her to discern how Christianity
impacts upon her particular discipline.”
In 2002, DeWeese-Boyd submitted a book review
as her third-year integration paper. The paper
reviewed two books, titled, “The Paradox of Natural
Mothering” and “The Price of Motherhood: Why the
Most Important Job in the World Is Still the Least
Valued.” Describing the paper, DeWeese-Boyd wrote:
“[W]hat I have submitted is a piece of my work that
DeWeese-Boyd completed her doctoral degree in political
science shortly after she was officially hired. She later completed
all but her dissertation in pursuit of the doctoral degree in social
work.
12

13a
reflects my understanding of integration. In other
words, I have simply submitted a piece of my work as
a Christian scholar. It is work that I believe to be
inherently integrated.” She described the paper as
integrative scholarship that brings “disciplinary
insights to a wider Christian audience,” as opposed to
“integrative scholarship [that brings] a decidedly
Christian perspective to bear on a disciplinary
manner,” which her paper was not.
DeWeese-Boyd was promoted to associate
professor in 2004 and approved for tenure in 2009.13
In 2016, she applied for a promotion to full professor.
Her curriculum vitae accompanying her application
detailed her work in development of the social work
program,14 professional memberships, and scholarly
publications on primarily secular topics. She also
submitted a self-evaluation, in which she reflected on
her teaching, scholarly work, and institutional
service.
The faculty senate unanimously recommended
her for the promotion, noting her teaching
effectiveness, contributions to scholarship, and
For her tenure application, she initially submitted a
paper on land use and development. The provost and faculty
senate asked her to be more explicit in her understanding of
integration, and she then submitted a different paper,
“Reflections on Christian Scholarship,” for consideration for
tenure.
13

DeWeese-Boyd’s curricular contributions included
increasing the statistics requirements to provide students “with
a fuller background in social scientific methods and research,”
introducing a course on community and sustainability, creating
and coordinating a sustainable development minor, and serving
as the social work practicum director.
14

14a
leadership as director of the social work practicum. In
2017, Curry and Lindsay decided not to forward that
recommendation to the board of trustees, citing a lack
of scholarly productivity, professionalism, responsiveness, and engagement. The letter from Curry
detailing the decision did not include any reference to
religious or ministerial matters or theological
disagreement.15
ii. General role at Gordon. The terms of DeWeeseBoyd’s contracts16 state that Gordon employed her as
teaching faculty and that her responsibilities were
governed by the handbook “as that may be amended
from time to time . . . including subscribing to the
Statement of Faith and the Life and Conduct
Statement.” Apart from the reference to the
handbook, the contracts do not explicitly provide for
any spiritual responsibilities.
DeWeese-Boyd is not ordained by any church
body or denomination, nor was she ever formally
commissioned or ordained as a minister for Gordon.17
She was never required to complete education or
professional development regarding ministerial
responsibilities.18 She never viewed herself or held
DeWeese-Boyd’s position was terminated when the social
work major was cut in 2019, while this case was pending.
15

DeWeese-Boyd submitted her contracts for the academic
years 1998-1999 and 2017-2018 to the court.
16

Although Gordon now holds a “Vision Day” for new
faculty, which includes prayer and commissioning, Vision Day
did not exist when DeWeese-Boyd was hired and she did not
participate in any such commissioning.
17

Gordon now conducts seminars concerning the
integration of faith and learning to assist second-year faculty in
18

15a
herself out as a minister for Gordon, nor did she
understand her job to include responsibility for
encouraging students to participate in religious life or
leading them in spiritual exercises. She did not teach
religion or biblical studies to students, take students
to religious services at Gordon, lead or select content
for chapel services at Gordon, conduct Bible studies at
Gordon, or preach at Gordon. She attended Gordon
chapel services approximately twice per year.
3. Discussion. a. Ministerial exception. In
Hosanna-Tabor, Chief Justice Roberts, writing for the
Court, provided a historical explanation of the
ministerial exception and how it arose out of the
English experience of the Crown imposing its will on
the selection of ecclesiastic offices and the colonists’
decision to cross the ocean and free themselves “to
elect their own ministers and establish their own
modes of worship.” Hosanna-Tabor, 565 U.S. at 182.
As the Chief Justice further explained,
“The members of a religious group put their faith
in the hands of their ministers. Requiring a
church to accept or retain an unwanted minister,
or punishing a church for failing to do so,
intrudes upon more than a mere employment
decision. Such action interferes with the internal
governance of the church, depriving the church
of control over the selection of those who will
personify its beliefs. By imposing an unwanted
minister, the state infringes the Free Exercise
Clause, which protects a religious group’s right
writing their third-year integration paper, but Gordon did not
conduct those seminars when DeWeese-Boyd was a second-year
faculty, and she never attended such a seminar.

16a
to shape its own faith and mission through its
appointments. According the state the power to
determine which individuals will minister to the
faithful also violates the Establishment Clause,
which prohibits government involvement in
such ecclesiastical decisions.”
Id. at 188-189.
The Supreme Court also recognized the
significant consequences of the ministerial exception.
Building on a line of lower court cases, the Court held
that this principle provides an affirmative defense
available to religious institutions, barring employment discrimination claims against such an institution by one of its ministers. Hosanna-Tabor, 565 U.S.
at 188, 195 n.4. The facts of the various cases before
the Supreme Court emphasize the serious consequences of the exception. One of the plaintiffs in Our
Lady of Guadalupe alleged that she was terminated
because of her age. Our Lady of Guadalupe, 140 S. Ct.
at 2057-2058. Another plaintiff claimed that she was
terminated because she sought treatment for breast
cancer. Id. at 2059. In the instant case, the plaintiff
contends that she was terminated on the basis of her
association with LGBTQ+ persons or on the basis of
her gender in violation of G. L. c. 151B. If the
ministerial exception applies, even if such allegations
are true, the religious institution will be free to
discriminate on those bases. The same would be true
for racial discrimination or discrimination on the
basis of national origin.
The potential for conflict between these
fundamental legal principles is therefore obvious and
of great concern, not only to the individual plaintiffs,

17a
but also for our civil society and religious institutions.
While “the interest of religious groups in choosing
who will preach their beliefs, teach their faith, and
carry out their mission” is an undoubtedly important
First Amendment right, so, too, is “[t]he interest of
society in the enforcement of employment discrimination statutes.” Hosanna-Tabor, 565 U.S. at 196. See
Bostock v. Clayton County, Ga., 140 S. Ct. 1731, 1737
(2020) (“In our time, few pieces of federal legislation
rank in significance” with legislation outlawing
“discrimination in the workplace on the basis of race,
color, religion, sex, or national origin”); Roberts v.
United States Jaycees, 468 U.S. 609, 624 (1984)
(eliminating
discrimination
“plainly
serves
compelling state interests of the highest order”);
Flagg v. AliMed, Inc., 466 Mass. 23, 29 (2013) (“the
Legislature determined that workplace discrimination harmed not only the targeted individuals but the
entire social fabric”).
Despite the high stakes, the difficult issue is not
at this point whether the ministerial exception should
be created -- it is well established, Williams v.
Episcopal Diocese of Mass., 436 Mass. 574, 579 (2002)
-- or whether it should eclipse and thereby eliminate
civil law protection against discrimination -- it clearly
does. Rather, the difficult issue is who is a minister.
We will return to this issue and address it in detail
after considering the threshold question, which is
whether Gordon is a religious institution. If Gordon is
not a religious institution, as DeWeese-Boyd
contends, a professor of social work at the institution
is certainly not covered by the ministerial exception.
b. Application to the present case. i. Standard of
review. We review summary judgment decisions de

18a
novo. Dorchester Mut. Ins. Co. v. Krusell, 485 Mass.
431, 435 (2020). “The standard of review of a grant of
summary judgment is whether, viewing the evidence
in the light most favorable to the nonmoving party, all
material facts have been established and the moving
party is entitled to judgment as a matter of law.” Id.,
quoting Augat, Inc. v. Liberty Mut. Ins. Co., 410 Mass.
117, 120 (1991). We consider the record as a whole
and need not rely on the same reasoning as the
Superior Court judge. Lynch v. Crawford, 483 Mass.
631, 641 (2019).
The employer who asserts the ministerial
exception as an affirmative defense has the burden of
proving it. Hosanna-Tabor, 565 U.S. at 195 n.4,
(ministerial exception is affirmative defense). See,
e.g., Dixon v. United States, 548 U.S. 1, 2 (2006)
(noting long-established common-law rule that “the
one relying on an affirmative defense must set it up
and establish it”).
ii. Religious institution.19 The Supreme Court has
not directly addressed what constitutes a religious
institution for purposes of the ministerial exception
other than a traditional church or organized sect. See
Our Lady of Guadalupe, 140 S. Ct. at 2056 n.3
(plaintiff teachers at Roman Catholic primary school
employed directly by archdiocese); Hosanna-Tabor,
The defendants argue that the question whether Gordon
is a religious institution is not properly before this court given
that neither party appealed from the judge’s ruling that Gordon
is a religious institution. However, the reported question -whether the judge erred in applying the ministerial exception
affirmative defense -- requires a conclusion as to whether
Gordon is a religious institution.
19

19a
565 U.S. at 177 (defendant “member congregation” of
Missouri synod was both church and school). Federal
circuit courts have concluded that to invoke the
exception, an employer need not be a traditional
religious organization, so long as its “mission is
marked by clear or obvious religious characteristics.”
Conlon v. InterVarsity Christian Fellowship/USA,
777 F.3d 829, 831, 834 (6th Cir. 2015), quoting
Shaliehsabou v. Hebrew Home of Greater Wash., Inc.,
363 F.3d 299, 310 (4th Cir. 2004) (concluding that
campus ministry whose purpose “is to establish and
advance at colleges and universities witnessing
communities of students and faculty who follow Jesus
as Savior and Lord: growing in love for God, God’s
Word, God’s people of every ethnicity and culture and
God’s purposes in the world” is religious institution).
See Shaliehsabou, supra at 310-311 (concluding that
home whose mission “is to provide elder care to ‘aged
of the Jewish faith in accordance with the precepts of
Jewish law and customs’ ” is religious institution). We
agree that this is the appropriate test and further
conclude that Gordon satisfies these requirements.
Although
the
inquiry
is
particularly
straightforward when addressing churches, temples,
mosques, or religious schools affiliated with
particular denominations, religious institutions are
not so limited. Gordon’s nondenominational nature
does not preclude a finding that it is a religious
institution. As the United States Court of Appeals for
the Sixth Circuit explained in Conlon:
“[T]he ministerial exception’s applicability does
not turn on its being tied to a specific denominational faith; it applies to multidenominational
and nondenominational religious organizations

20a
as well. . . . [I]n order to invoke the exception, an
employer need not be a traditional religious
organization such as a church, diocese, or
synagogue, or an entity operated by a traditional
religious organization” (quotation and citation
omitted).
Conlon, 777 F.3d at 834. The Sixth Circuit concluded
that
InterVarsity
Christian
Fellowship/USA
(InterVarsity), “with not only its Christian name, but
its mission of Christian ministry and teaching,”
clearly fit the definition of a religious institution
despite its lack of denominational affiliation or
hierarchy. Id. Like InterVarsity, Gordon has a clear
commitment to Christian principles, as well as
historical religious roots.
DeWeese-Boyd also argues that because Gordon’s
“primary commitment” is to provide a liberal arts
education, it is not a religious institution. There is,
however, no primary purpose requirement. Gordon
identifies as both a Christian college and a liberal arts
college, as the portion of the handbook the plaintiff
quotes makes clear: Gordon is “a Christian
community, distinguished from other Christian
communities by its primary commitment to provide a
liberal arts education.” The existence of one purpose
does not negate the other where Gordon’s mission
remains undoubtedly “marked by clear or obvious
religious characteristics.” Shaliehsabou, 363 F.3d at
310. All of Gordon’s governing documents reference
religious purposes, and all members of the Gordon
community, including its faculty, are expected to
articulate and affirm their faith and abide by faithbased behavioral standards. Upon review of the
abundant record concerning Gordon’s obvious

21a
religious character, we conclude that it is a religious
institution.
iii. Ministerial employee. We now turn to the
primary issue in this case: who is covered by the
ministerial exception. We look to the two recent
ministerial exception decisions issued by the Supreme
Court, Hosanna-Tabor and Our Lady of Guadalupe,
focusing first on the facts and the specific holdings. In
Hosanna-Tabor, the Supreme Court stated:
“Every Court of Appeals to have considered the
question has concluded that the ministerial
exception is not limited to the head of a religious
congregation, and we agree. We are reluctant,
however, to adopt a rigid formula for deciding
when an employee qualifies as a minister. It is
enough for us to conclude, in this our first case
involving the ministerial exception, that the
exception covers [the plaintiff], given all the
circumstances of her employment.”
Hosanna-Tabor, 565 U.S. at 190.
More specifically, Hosanna-Tabor involved an
Evangelical Lutheran church and school. HosannaTabor, 565 U.S. at 177. Cheryl Perich was a “called”
teacher, who had undergone formal religious training
and accepted a formal call to religious service. Id. at
178, 191-192. Both Perich and her employer viewed
her as a minister, and her employer commissioned,
reviewed, and referred to her as such. Id. at 191-192.
Her formal title was “Minister of Religion,
Commissioned.” Id. at 191. Her job duties included
“lead[ing] others toward Christian maturity” and
“teach[ing] faithfully the Word of God,” and to this
end she taught her students religion, led them in

22a
prayer three times a day, took them to chapel, and
occasionally led the chapel service. Id. at 192. She also
claimed a special housing allowance on her taxes that
was available only to employees earning their
compensation “in the exercise of the ministry.” Id. at
191-192. In concluding that Perich was a ministerial
employee, the Court focused on “the formal title given
Perich by the Church, the substance reflected in that
title, her own use of that title, and the important
religious functions she performed for the Church.” Id.
at 192.
Our Lady of Guadalupe involved two teachers at
Roman Catholic primary schools, Agnes MorrisseyBerru and Kristen Biel, who brought actions against
their employers after demotion and discharge. Our
Lady of Guadalupe, 140 S. Ct. at 2056-2059. The
Court recognized the vital importance of education in
the faith to many religions and applied that
understanding to their analysis, concluding that the
teachers were ministers:
“As elementary school teachers responsible for
providing instruction in all subjects, including
religion, they were the members of the school
staff who were entrusted most directly with the
responsibility of educating their students in the
faith. And not only were they obligated to
provide instruction about the Catholic faith, but
they were also expected to guide their students,
by word and deed, toward the goal of living their
lives in accordance with the faith. They prayed
with their students, attended Mass with the
students, and prepared the children for their
participation in other religious activities. Their
positions did not have all the attributes of

23a
Perich’s. Their titles did not include the term
‘minister,’ and they had less formal religious
training, but their core responsibilities as
teachers of religion were essentially the same.
And both their schools expressly saw them as
playing a vital part in carrying out the mission
of the church, and the schools’ definition and
explanation of their roles is important.”
Id. at 2066.
In determining who is a minister, the Court in
Our Lady of Guadalupe emphasized a functional
analysis:
“What matters, at bottom, is what an employee does.
And implicit in our decision in Hosanna-Tabor was a
recognition that educating young people in their faith,
inculcating its teachings, and training them to live
their faith are responsibilities that lie at the very core
of the mission of a private religious school. As we put
it, Perich had been entrusted with the responsibility
of ‘transmitting the Lutheran faith to the next
generation.’ One of the concurrences made the same
point, concluding that the exception should include
‘any “employee” who leads a religious organization,
conducts worship services or important religious
ceremonies or rituals, or serves as a messenger or
teacher of its faith.’ ” (Citations omitted.)
Id. at 2064. The Court stressed that in making the
determination whether someone is a ministerial
employee, it must “take all relevant circumstances
into account and . . . determine whether each
particular position implicated the fundamental
purpose of the exception.” Id. at 2067.

24a
We begin, as Our Lady of Guadalupe instructs,
with what DeWeese-Boyd did, and what she did not
do. She was, first and foremost, a professor of social
work. She taught classes on sustainability and
general social work practice and oversaw practicums.
DeWeese-Boyd was not required to, and did not, teach
classes on religion, pray with her students, or attend
chapel with her students, like the plaintiffs in Our
Lady of Guadalupe, 140 S. Ct. at 2066, nor did she
lead students in devotional exercises or lead chapel
services, like the plaintiff in Hosanna-Tabor, 565 U.S.
at 192. We consider this a significant difference.
DeWeese-Boyd was, however, required to, and
did, both engage in teaching and scholarship from a
Christian perspective and integrate her faith into her
work.20 The handbook defines this faculty duty,
variously, as “continually explor[ing] how a Christian
worldview enhances, redefines, or confronts their
discipline’s preeminent practices and philosophical
assumptions”; “promot[ing] understanding of their
disciplines from the perspectives of the Christian
faith”; “help[ing] students make connections between
course content, Christian thought and principles, and
The concept of integrating faith and learning in higher
education is, of course, not unique to Gordon. See, e.g., Hasker,
Faith-Learning Integration: An Overview, Christian Scholar’s
Rev., vol. 21, No. 3, Mar. 1992, at 234; Smith, Liberty University,
Faculty Publications and Presentations, The Integration of
Faith and Learning: Perspectives on the Librarian’s Role (June
2004), https://digitalcommons.liberty.edu/lib_fac_pubs/2 [https:
//perma.cc/VPE8-4TMQ]. Because we are sensitive to the
judiciary's necessarily limited understanding of any religious
underpinnings of the concept of integration, we rely on the
handbook to illuminate DeWeese-Boyd’s duties in this respect.
20

25a
personal faith and practice”; and “encourag[ing]
students to develop morally responsible ways of living
in the world informed by biblical principles and
Christian reflection.” The social work curriculum “is
informed by a Christian understanding of individuals,
communities, and societies,” and seeks the
“integration and application of social work and
Christian values” and to “[e]mphasize the Christian
liberal arts foundation and perspective.” DeWeeseBoyd recognized this duty by submitting scholarship
on secular topics, teaching students about
connections between course material and the
Christian faith, and reflecting on the role of Christian
scholarship in the “decidedly nonsectarian” field of
social work in the “struggle against flawed social,
political and economic structures.”21 It is undisputed
that this integrative responsibility was part of her
duty and function as a social work professor at a
nondenominational religious institution.
We also recognize that the integrative
responsibility was an important aspect of being a
professor at Gordon. Curry and Lindsay referenced
Gordon’s history, mission, and tradition of integrating
faith into education when asked about religious
requirements for faculty, even likening joining
Gordon to responding to a formal call to religious
service. Both individual defendants testified to the
effect that Gordon’s nature makes every faculty
member, and likely every employee, ministerial.
Janitorial and kitchen staff, according to the
defendants, are ministerial because they “befriend[ ]
21

paper.

This language is drawn from DeWeese-Boyd’s tenure

26a
students,” “model[ ] Christ-like behavior,” and
“nurtur[e] the students’ faith commitments and
maturity.”
Less clear is whether DeWeese-Boyd was
required to take on the role of a spiritual mentor for
her students beyond her duties of integrating a
Christian perspective into her teaching and
scholarship. The recently revised handbook describes
a faculty duty to “participate actively in the spiritual
formation of our students into godly, biblicallyfaithful ambassadors for Christ” and to “seek to
engage our students in meaningful ways to
strengthen them in their faith walks with Christ.”
Even applying this language -- added eighteen years
into her employment -- to DeWeese-Boyd, there are
nonetheless no formal requirements to meet with
students for spiritual guidance, pray with students,
directly teach them doctrine, or participate in
religious rituals or services with them, but rather a
general exhortation for faculty “to be fully prepared in
all facets of their tasks as Christian teachers and
advisors, both inside and outside the classroom.”
The individual defendants have testified to the
effect that taking on the role of a spiritual mentor or
advisor is “part and parcel” of what it means to be
faculty at a Christian college. While it may be true
that Gordon employs Christians, and “Christians
have an undeniable call to minister to others,” this
line of argument appears to oversimplify the Supreme
Court test, suggesting that all Christians teaching at
all Christian schools and colleges are necessarily
ministers. If this were the case, the Court could have
simply said so and not developed the two-prong test
and functional analysis laid out in Our Lady of

27a
Guadalupe. For this reason, we focus on the
handbook’s detailed expectations of faculty to
understand the nature and extent of DeWeese-Boyd’s
duties.
In particular, we focus on DeWeese-Boyd’s
responsibility to integrate the Christian faith into her
teaching, scholarship, and advising at a nondenominational Christian college, and whether this
rendered her a minister when she did not teach
religion, the Bible, or religious doctrine; did not lead
her students in devotional exercises or chapel
services; and was not required to pray or attend
chapel with her students. In Hosanna-Tabor and Our
Lady of Guadalupe, the religious instruction was
specific and sectarian, and the teachers led prayers
and religious rituals. These traditional ministerial
acts informed, or at least provided context for, the
Court’s more general statements about “educating
young people in their faith, inculcating its teachings,
and training them to live their faith.” Our Lady of
Guadalupe, 140 S. Ct. at 2064.
Here, the integrative function is not tied to a
sectarian curriculum: it does not involve teaching any
prescribed religious doctrine, or leading students in
prayer or religious ritual. Yet it does involve
integrating the Christian faith generally into
teaching and writing about social work. Whether this
more general religious reflection was meant to be
included in the Supreme Court’s statement about
“educating young people in their faith,” and is enough
to render her a minister, is not directly answered by
precedent. Id.

28a
We do not find DeWeese-Boyd’s title or training to
provide decisive insight into resolving the difficult
question whether she was a minister. More
specifically, DeWeese-Boyd’s formal title, “associate
professor of social work,” does not indicate any
religious position. The revised handbook does
describe all faculty not only as educators, but also as
ministers; that paragraph was, however, added to the
handbook in October 2016 -- eighteen years after
DeWeese-Boyd was hired, and just two months before
she was unanimously recommended for promotion to
full professor. All that being said, “[s]imply giving an
employee the title of ‘minister’ is not enough to justify
the exception.” Our Lady of Guadalupe, 140 S. Ct. at
2063. “A religious institution’s explanation of the role
of such employees in the life of the religion in question
is important,” id. at 2066, but the Court has not
adopted the position of two of its concurring justices
that we must accept Gordon’s view as binding where
there is disagreement, see id. at 2069-2070 (Thomas,
J., concurring, with whom Gorsuch, J., joined)
(expressing view that courts should “defer to religious
organizations’ good-faith claims that a certain
employee’s position is ‘ministerial’ ”); Hosanna-Tabor,
565 U.S. at 196 (Thomas, J., concurring) (same). See
also Sterlinski v. Catholic Bishop of Chicago, 934 F.3d
568, 571 (7th Cir. 2019) (courts are competent in
“separating pretextual justifications from honest
ones,” and church’s claim that organist was minister
“reflects a longstanding tradition; it is not an
explanation hoked up for the occasion”); Grussgott v.
Milwaukee Jewish Day Sch., Inc., 882 F.3d 655, 660
(7th Cir.), cert. denied, 139 S. Ct. 456 (2018)
(deferring to organization on question of distinction

29a
between secular and religious organization “where
there is no sign of subterfuge”).
In this instance, the label is uninstructive, not
only because it was added so late in DeWeese-Boyd’s
tenure, but also because there is abundant evidence
in the record of what was required and expected of
Gordon faculty during her employment there and our
focus, as the Supreme Court has directed, is on
function. Rather than rely on this late labeling of
DeWeese-Boyd’s position, we return again to the
functional analysis recommended in Our Lady of
Guadalupe. She was a teacher of social work, expected
and required to integrate the Christian faith into her
teaching, scholarship, and advising.
Like her title, DeWeese-Boyd’s training provides
some guidance, but is not dispositive as to any
ministerial status. On the one hand, she is not
ordained, has not otherwise accepted formal religious
service, and was never formally commissioned by
Gordon. Cf. Hosanna-Tabor, 565 U.S. at 191-192.
Also, unlike the plaintiff in Hosanna-Tabor,
DeWeese-Boyd’s position did not require the formal
religious training that she obtained, and she was not
given a different title because of it. On the other hand,
the seminary training appears to have been relevant
to her initial hiring, and it provided her with
knowledge upon which she could have drawn to
perform her integrative responsibilities. In Our Lady
of Guadalupe, the Court cautioned against placing too
much weight on formal training, at least at the
elementary school level:
“the Ninth Circuit assigned too much weight to
the fact that Morrissey-Berru and Biel had less

30a
formal religious schooling than Perich. The
significance of formal training must be
evaluated in light of the age of the students
taught and the judgment of a religious
institution regarding the need for formal
training. The schools in question here thought
that Morrissey-Berru and Biel had a sufficient
understanding of Catholicism to teach their
students, and judges have no warrant to secondguess that judgment or to impose their own
credentialing requirements.” (Citations and
footnote omitted.)
Our Lady of Guadalupe, 140 S. Ct. at 2067-2068.
In addition to her title and training, which go to
the question whether Gordon held DeWeese-Boyd out
as a minister, we consider whether DeWeese-Boyd
ever held herself out as a minister for Gordon.22 See
The defendants would have us rely, in part, on DeWeeseBoyd’s professed faith in determining that she was a minister.
DeWeese-Boyd has made several statements concerning the
importance of her faith to her life and how it motivates her
personal choices, including her choice of profession and the
manner in which she practices it. We are, however, cautioned
against inquiring into what it means for her to practice her faith.
See Our Lady of Guadalupe, 140 S. Ct. at 2069 (argument that
plaintiff was not within ministerial exception because she was
not “practicing Catholic” rejected because it “would require
courts to delve into the sensitive question” of meaning of
“practicing”). We may, and do, consider that she was required to
share and affirm Gordon’s Statement of Faith as a duty of her
job; but we cannot, as the defendants suggest, rely on her
professions as evidence that DeWeese-Boyd was a minister. Her
personal statements of faith are not equivalent to expressly
holding herself out as a minister, as Perich did in HosannaTabor; as the defendants themselves testified, being a Christian
and being a ministerial employee are not the same. See
22

31a
Hosanna-Tabor, 565 U.S. at 191-192. This factor,
although again not dispositive, weighs against
finding that the ministerial exception applies. It is
clear that she did not view herself as a minister,
either formally or informally, in her role as a professor
at Gordon. On the contrary, she was part of the group
of professors opposed to the addition of “minister” to
the handbook because they viewed it as “wrongly
describing the faculty role within the College.” Unlike
Perich, she never held herself out as a minister or
referred to herself as such, and never claimed a
ministerial housing allowance. See id.
Having evaluated “all relevant [material]
circumstances,” Our Lady of Guadalupe, 140 S. Ct. at
2067, we conclude that a faculty member with
DeWeese-Boyd’s responsibilities at Gordon is
significantly different from the ordained ministers or
teachers of religion at primary or secondary schools in
the cases that have come before the Supreme Court.23
Hosanna-Tabor, 565 U.S. at 191-192; Richardson v. Northwest
Christian Univ., 242 F. Supp. 3d 1132, 1145 (D. Or. 2017)
(“although there is ample evidence plaintiff held herself out as a
Christian, there is no evidence she held herself out as a
minister”). The notion that, in DeWeese-Boyd’s words, all
Christians have “an undeniable call to minister to others” cannot
be the basis of the ministerial exception, or else the exception
would swallow the rule in every Christian context. Cf. Our Lady
of Guadalupe, supra at 2055 (ministerial exception applies to
“employment relationship between a religious institution and
certain key employees”).
The parties have identified several decisions from courts
other than the United States Supreme Court that involve a
ministerial exception analysis in an educational setting, but all
except one were decided prior to Our Lady of Guadalupe, and
none is directly analogous to the determination we must make.
23

32a

See Temple Emanuel of Newton v. Massachusetts Comm’n
Against Discrimination, 463 Mass. 472, 486 (2012) (teacher of
“religious subjects at a school that functioned solely as a
religious school, whose mission was to teach Jewish children
about Jewish learning, language, history, traditions, and prayer”
was ministerial employee); Menard v. Archdiocese of Boston, 98
Mass. App. Ct. 144, 150 (2020) (parish “director of music
ministries” who “prayerfully” selected music and was expected
to transmit “significant knowledge of her faith’s musical canon”
and “convey[ ] the Church’s message” was ministerial employee);
Grussgott, 882 F.3d at 659–660 (Hebrew teacher whose resume
“tout[ed] significant religious teaching experience” and who
followed religious curriculum, “integrate[d] religious teachings”
into lessons, “taught her students about Jewish holidays, prayer,
and the weekly Torah readings,” prayed, and performed certain
religious rituals with students was ministerial employee);
Fratello v. Archdiocese of N.Y., 863 F.3d 190, 195, 208-209 (2d
Cir. 2017) (Catholic school principal who expressly applied for
“important leadership role” with archdiocese, “understood that
she would be perceived as a religious leader,” supervised
leadership of Masses, led daily prayers, and updated parents on
students’ spiritual development was ministerial employee);
Lishu Yin v. Columbia Int'l Univ., 335 F. Supp. 3d 803, 817
(D.S.C. 2018) (teacher of English language at private Christian
university who directly engaged in students’ spiritual formation
by requiring them to pray together, directly preparing them for
ministry roles, and planning and leading chapels was
ministerial employee); Richardson, 242 F. Supp. 3d at 1145-1146
(assistant professor of exercise science with no specialized
religious training at Christian university who “was expected to
integrate her Christianity into her teaching and demonstrate a
maturing Christian faith,” did not perform religious instruction,
and “was charged with no religious duties such as taking
students to chapel or leading them in prayer” was not ministerial
employee); Braun v. St. Pius X Parish, 827 F. Supp. 2d 1312,
1319 (N.D. Okla. 2011), aff’d, 509 Fed. Appx. 750 (10th Cir. 2013)
(Catholic school teacher required to “teach and act in accordance
with the precepts of the Catholic Church” and to “aid in the
Christian formation of students” who did not teach religion or
lead students in prayer and was not Catholic was not ministerial

33a
DeWeese-Boyd was not ordained or commissioned;
she was not held out as a minister and did not view
herself as a minister; and she was not required to
undergo formal religious training, pray with her
students, participate in or lead religious services, take
her students to chapel services, or teach a religious
curriculum. Her responsibility to integrate the
Christian faith into her teaching, scholarship, and
advising was different in kind, and not degree, from
the religious instruction and guidance at issue in Our
Lady of Guadalupe and Hosanna-Tabor. See
Hosanna-Tabor, 565 U.S. at 199 (Alito, J., concurring)
(“The First Amendment protects the freedom of
employee); Adams vs. Indiana Wesleyan Univ., U.S. Dist. Ct.,
No. 3:09-CV-468 (N.D. Ind. July 15, 2010) (social work professor
at university governed by Wesleyan church who incorporated
church doctrine into classroom activities, used scriptural
principles to illustrate ideas, and led “in-class ‘devotions’ ” was
ministerial employee); Stately v. Indian Community Sch. of
Milwaukee, Inc., 351 F. Supp. 2d 858, 869 (E.D. Wis. 2004)
(teacher who “integrate[d] Native American culture and
religion” into classes, participated in and led religious
ceremonies, and served as mentor to students regarding their
spiritual health was ministerial employee); Kirby v. Lexington
Theological Seminary, 426 S.W.3d 597, 611-614 (Ky. 2014)
(seminary professor of Christian social ethics who gave sermons
on multiple occasions, served communion, taught classes on
religious doctrine, opened class with prayer each day,
affirmatively promoted students’ development in ministry, and
served as representative of seminary at events on multiple
occasions was ministerial employee); Kant v. Lexington
Theological Seminary, 426 S.W.3d 587, 593–595 (Ky. 2014)
(Jewish professor of religious studies and history of religion at
Christian seminary “was a source of religious instruction but did
not play an important role in transmitting the Seminary’s faith
to the next generation” and thus was not ministerial employee
[quotations and alteration omitted]).

34a
religious groups to engage in certain key religious
activities, including the conducting of worship
services and other religious ceremonies and rituals,
as well as the critical process of communicating the
faith”).
We recognize that some of the language employed
in Our Lady of Guadalupe may be read more broadly,
in a way that would include every educator at a
religious institution. As Gordon has stated, the
integrative function applies to all teachers at the
college, whether they teach computer science,
calculus, or comparative religion.24 See Richardson v.
Northwest Christian Univ., 242 F. Supp. 3d 1132,
1138-1139, 1145–1146 (D. Or. 2017) (“If plaintiff was
a minister, it is hard to see how any teacher at a
religious school would fall outside the exception.
Courts have properly rejected such a broad reading
. . . , which would permit the ministerial exception to
swallow the rule that religious employers must follow
federal and state employment laws”).
It would also apply, Gordon implies, to all its
employees, as integrating the Christian faith into
daily life and work is part of the college’s mission for

At some points, the defendants have suggested DeWeeseBoyd was a ministerial employee because she was a professor of
social work and there is a strong connection between the field of
social work and Christian values. It is clear that Gordon does not
view any one subject as more sacred or less so than others. To
rely on evidence implying that social work is particularly
Christian would require us to go too far in examining the
defendants’ testimony as to the Protestant beliefs underpinning
Gordon’s educational philosophy.
24

35a
everyone in the community,25 whether they be
coaches, food service workers, or transportation
providers. This would provide a significant expansion
of the ministerial exception well beyond “individuals
who play certain key roles” in a religious institution.
Our Lady of Guadalupe, 140 S. Ct. at 2060. It would
also change the existing understanding of those
“personnel who are essential to the performance” of
the religious instructions, services, and rituals.
Hosanna-Tabor, 565 U.S. at 199 (Alito, J.,
concurring). The integration of religious faith and
belief with daily life and work is a common
requirement in many, if not all, religious institutions.
As a result, the breadth of this expansion of the
ministerial exception and its eclipsing and
elimination of civil law protection against
discrimination would be enormous.
We recognize that a case need not mirror
Hosanna-Tabor and Our Lady of Guadalupe in order
for the ministerial exception to apply. Here, however,
the facts are materially different. Thus, the
significant expansion of the ministerial exception
doctrine requested by Gordon is not dictated nor, do
we believe, directed by existing Supreme Court
precedent. It is our understanding that the
ministerial
exception
has
been
carefully
circumscribed to avoid any unnecessary conflict with
civil law.

Gordon’s Statement of Life and Conduct includes
“recognizing the Lordship of Christ in every activity” and a
“responsibility for service to others” among its foundational
biblical principles.
25

36a
In sum, we conclude that DeWeese-Boyd was
expected and required to be a Christian teacher and
scholar, but not a minister.26 Therefore, the
ministerial exception cannot apply as a defense to her
claims against Gordon.27
4. Conclusion. We answer the reported question
in the negative. The Superior Court judge did not err
in dismissing on summary judgment the affirmative
defense of the ministerial exception, which was
recognized by the United States Supreme Court for
the first time in Hosanna-Tabor, 565 U.S. at 188-190.
The case is remanded for further proceedings
consistent with this opinion.
So ordered.

The distinction between being a Christian teacher and
scholar and a Christian minister is one DeWeese-Boyd has
drawn herself and is one drawn by many of Gordon’s faculty in
response to the change in the handbook that occurred eighteen
years into her tenure, and that attempted to collapse the
distinction. The defendants have also testified that being a
Christian scholar and a Christian minister, or a Christian and a
Christian minister, are not equivalent, although they maintain
that Gordon faculty are both.
26

Because we conclude that DeWeese-Boyd was not a
ministerial employee, we need not reach the question whether
the ministerial exception bars her contract claims. See HosannaTabor, 565 U.S. at 196 (“We express no view on whether the
exception bars other types of suits, including actions by
employees alleging breach of contract or tortious conduct by
their religious employers”).
27

37a
COMMONWEALTH OF MASSACHUSETTS
ESSEX, ss.
SUPERIOR COURT
CIVIL ACTION
NO. 1777CV01367
MARGARET DEWEESE-BOYD
v.
GORDON COLLEGE & others1
MEMORANDUM OF DECISION AND ORDER
ON DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT ON THE FIRST AMENDMENT
MINISTERIAL EXCEPTION (PAPER NO. 33)
AND PLAINTIFF’S CROSS-MOTION ON THE
FIRST AMENDMENT MINISTERIAL
EXCEPTION (PAPER NO. 33.2)
Jeffrey T. Karp, Associate Justice, Superior Court
The “ministerial exception” is an affirmative
defense grounded in the Religious Clauses of the First
Amendment that precludes government interference
with employment relationships between religious
institutions and their ministerial employees.
Before the Court are cross-motions for summary
judgment which ask the Court to determine whether
the ministerial exception applies in this case to
prohibit employment discrimination and other claims
brought by a former professor of social-work against
her former employer, a religious liberal arts college.

1

D. Michael Lindsay and Janel Curry.

38a
More specifically, plaintiff Margaret DeWeese-Boyd
(“DeWeese-Boyd”) claims defendants Gordon College
(“Gordon” or “College”), its president, D. Michael
Lindsay (“Lindsay”), and its provost, Janel Curry
(“Curry”)
(collectively,
“Gordon
Defendants”)
discriminated against her after she vocally and
publicly
opposed
Gordon
College’s
alleged
discriminatory policies relating to “LGBTQ+
individuals” by denying her application for promotion
to full professor in February 2017, despite she
received the unanimous recommendation of the
Faculty Senate. See Complaint And Jury Demand
(Paper No. 1) (“Complaint”), ¶ 1.
In the Complaint, DeWeese-Boyd asserts claims
against the Gordon Defendants for retaliation in
violation of G.L. c. 151B, § 9 (Count I); associational
and gender discrimination in violation of G.L. c. 151B,
§ 4 (Count II); violation of the Massachusetts Civil
Rights Act (“MCRA”) at G.L. c. 12, §§ 11H and 11I
(Count IV); breach of contract (Count VI); and, breach
of the implied covenant of good faith and fair dealing
(Count VII). In addition, DeWeese-Boyd asserts
claims against Lindsay and Curry, individually, for
aiding, abetting and interference with her civil rights
in violation of G.L. c. 151B, § 4 (Count III), and
tortious interference with contractual and/or
advantageous relations (Count V).
On November 7, 2019, the parties were before the
Court for a hearing on Defendants’ Motion For
Summary Judgment On The First Amendment
Ministerial Exception (Paper No. 33) (“Defendants’
Motion”) and Plaintiff’s Cross-Motion On The First
Amendment Ministerial Exception (Paper No. 33.2)
(“Plaintiff’s Cross-Motion”). On summary judgment,

39a
the Gordon Defendants assert, and DeWeese-Boyd
denies, that the ministerial exception applies to
prohibit all of DeWeese-Boyd’s claims.
For the reasons stated below, the Court concludes
that, in the circumstances of this case, the ministerial
exception does not apply. Therefore, Defendants’
Motion is DENIED and Plaintiff’s Cross-Motion is
ALLOWED.
PROCEDURAL HISTORY
On August 2, 2018, the Court (Tabit, J.) issued a
Memorandum and Order (Paper No. 17) bifurcating
discovery so that the first phase of discovery
pertained solely to the ministerial exception the
Gordon Defendants raise as an affirmative defense.
The parties brought the cross-motions for summary
judgment now before the Court at the close of the first
phase of discovery solely on the issue of whether the
ministerial exception applies.
On November 6, 2019, this Court (i.e., the
undersigned judge), sua sponte, struck the
Consolidated Statement Of Undisputed Material
Facts (Paper No. 33.5) because the parties failed to
comply with Mass. Super. Ct. R. 9A(b)(5), and ordered
the parties to file an amended statement of facts.2 See
Order at Paper No. 34.
On December 6, 2019, the parties filed an
Amended Consolidated Statement Of Undisputed
In addition to its failure to comply with Rule 9A, the
Consolidated Statement Of Undisputed Facts (Paper No. 33.5)
(“SOF”) contained more than 200 statements of fact, was 79
pages in length, and was argumentative and prolix. See Order
at Paper No. 34.
2

40a
Material Facts (Paper No. 36) (“Amended Statement
Of Facts”)3 and the following: (a) Amended
Memorandum In Support Of Defendants’ Motion For
Summary Judgment On The First Amendment
Ministerial Exception (Paper No. 37); (b) Defendants’
Amended Opposition To Plaintiff’s Cross-Motion For
Summary Judgment On The First Amendment
Ministerial Exception (Paper No. 38); (c) Plaintiff’s
Amended Opposition To Defendants’ Motion For
Summary Judgment And Plaintiff's Cross-Motion On
The First Amendment Ministerial Exception And
Memorandum In Support (Paper No. 39); and, (d)
Plaintiff’s Amended Reply Brief In Support Of
Plaintiff’s Cross-Motion On The First Amendment
Ministerial Exception (Paper No. 40).
In resolving the pending cross-motions for
summary judgment, the Court has relied on the oral
arguments of counsel at the hearing, the parties’ Joint
Exhibits Appendix For Summary Judgment (Paper
No. 33.6) (“J.A.”), the Amended Statement Of Facts,
and the aforementioned amended memoranda of law.4
Although the Amended Statement Of Facts reduced the
length and violations of Rule 9A(b)(5), unfortunately, the Gordon
Defendants continued to violate the spirit and letter of Rule
9A(b)(5) when responding to the plaintiff’s statement of
additional facts. See, e.g., the Gordon Defendants’ responses to
the Plaintiff’s Statement of Additional Facts at Nos. 24, 30, 31,
35, 38, 39, 41, 44–46, 52, 98, 106, 118, 128, etc. Nevertheless, the
Court considered the responses.
3

In its amended memorandum of law in support of
Defendants’ Motion, the Gordon Defendants “incorporate by
reference the materials, arguments, and cases cited in the
memoranda in support of their Motion for Judgment on the
Pleadings.” (Paper No. 37, p. 15 n.2). However, the Court has not
considered the Gordon Defendants’ Motion for Judgment on the
4

41a
BACKGROUND
The following facts are taken from the Amended
Statement Of Facts and the summary judgment
record.5
A. Gordon College
Founded in 1889, Gordon College is an
evangelical Christian undergraduate and graduate
college. Its campus is located in Wenham,
Massachusetts. The campus has two chapels set aside
for prayer and meditation. Religious art, Christian
artifacts, and Bible verses are displayed, and
Christian music is played, throughout the campus.
The Commonwealth chartered Gordon to carry on
the educational work begun in 1889 by the Reverend
Gordon.6 According to its formal Mission Statement,
“Gordon College strives to graduate men and women
distinguished by intellectual maturity and Christian
character, committed to lives of services and prepared

Pleadings when deciding the cross-motions for summary
judgment because the Court granted the parties leave to file
memoranda in excess of the twenty-page limit required by Mass.
Super. Ct. R. 9A(a)(5)(iv). To be sure, the Gordon Defendants’
amended memoranda span 51 pages, their amended statement
of facts cover 18 pages, and the Joint Appendix is hundreds of
pages. At bottom, the Court granted the parties sufficient
opportunity to present their arguments at this stage of the
proceedings.
Additional relevant facts are discussed, infra, in the
Court’s Discussion section.
5

In 1970, Gordon’s divinity school, which is located in South
Hamilton, MA, became a separate entity, Gordon-Conwell
Theological Seminary. J.A., Ex. 4, p. 5, Art. 1.2.
6

42a
for leadership worldwide.” J.A., Ex. 1, Preamble, p. 3;
Ex. 4, Section 1.3, p. 5.
Gordon filed Restated Articles Of Organization
with the Commonwealth on June 24, 1988. The
Restated Articles state Gordon was formed “to
provide a college education in the liberal arts and
sciences to qualified persons; to provide training for
the professions; to provide instruction in the Bible
and other subjects; [and,] to prepare men and women
for the work of foreign and home missions, for the
duties of the Christian ministry and other special
forms of Christian work[.]” J.A., Ex. 2, p. 1.7
Similarly, Gordon’s Bylaws, as amended on
September 24, 2010, state, among other things,
Gordon is “dedicated” to the following: “The historic,
evangelical, biblical faith”; “[e]ducation, not
indoctrination”; “[s]cholarship that is integrally
Christian”; “[p]eople and programs that reflect the
rich mosaic of the Body of Christ”; “[l]ife guided by the
teaching of Christ and the empowerment of the Holy
Spirit”; “[t]he maturation of students in all
dimensions of life: body, mind, and spirit”; and, “[t]he
application of biblical principles to transform society
and culture.” J.A., Ex. 1, p. 3.

In its annual nonprofit disclosure form filed with the
Massachusetts Attorney General’s Office for the fiscal year
ending June 30, 2017, when given the choice, Gordon selected a
description of its purpose as “[h]igher education,” rather than
“[r]eligious.” J.A., Ex. 33, p. 1. In addition, on the same
disclosure, Gordon did not claim it was a religious organization
and, thus, exempt from having to file a solicitation of
contributions certificate. J.A., Ex. 33, p. 4.
7

43a
Gordon’s Mission Statement8 reflects these purposes,
stating, in part:
As an intentional Christian community, Gordon
serves students from a wide range of
backgrounds who embrace the College’s broadly
evangelical identity and desire an experience
that combines an exceptional liberal arts
education with an informed Christian faith....
Gordon also remains committed to the power of
a liberal arts education to hone qualities most
sought by employers—the ability to think
holistically, reason analytically, communicate
persuasively and—even more importantly—to
act morally. Our primary responsibility is to
prepare students for the long haul, to make them
spiritually, intellectually, relationally and
professionally ready for a lifetime of growth—
from the first job out of college and beyond, into
fields not yet existing .... Our mission is the
foundation of all we do as we inspire the next
generation toward faithful leadership for the
common good.
J.A., Ex. 27.
In keeping with Gordon’s mission, undergraduate
student applicants must “have a profession of
Christian faith ... [and] they have to be able to talk
about that [profession] in the admissions interview.”
J.A., Ex. 7, pp. 15-16. Further, all Gordon
undergraduate students are required to complete the
This Mission Statement is different from the
aforementioned mission statement in the Bylaws and appears to
come from Gordon’s website. See J.A., Ex. 27.
8

44a
College’s “Core Curriculum,” which “explores the
liberal arts and sciences from a Christian
perspective.” J.A., Ex. 9, p. 1 (emphasis added). The
purpose of the Core Curriculum is to, among other
things, “foster [k]nowledge of God’s character as
revealed in Scripture and understood in the Church.”
J.A., Ex. 9. Mandatory classes include Old Testament
History, Literature and Theology; New Testament
History, Literature and Theology; and, Christian
Theology.9 J.A., Ex. 9. Gordon’s curriculum also
mandates “Christian Life and Worship” credits that
students can fulfill by attending chapel services or
other faith-based events on campus. J.A., Ex. 7, pp.
38-39.
B. The Faculty Handbook
The Gordon College Administrative/Faculty
Handbook (“Faculty Handbook”) refers to Gordon
“[a]s a Christian community of learners.” J.A., Ex. 4,
p. 5. The Faculty Handbook also contains various
provisions about Gordon’s perceptions of the role of
faculty members and its expectations about their
approach to work at Gordon. For example, the Faculty
Handbook states “Gordon College approaches its
educational task from within the fixed reference
points of biblical theism, which provides a coherent
perspective on life and the world.” J.A., Ex. 4, p. 6
(emphasis added). Further, the Faculty Handbook
states Gordon’s “community” is “challenged” to,
among other things, assist its students to “[p]ursue
truth as revealed by God in Christ, Scripture and
The Core Curriculum also includes numerous nonreligious requirements including foreign language, and physical
and outdoor education. J.A., Ex. 9.
9

45a
Creation”; “[d]evelop a Christian worldview as a basis
for both informed reflection and a reformation of
culture”; “[b]egin a journey of lifelong, faith-directed
learning”; “[r]espect the heritage of the Church and
serve the Body of Christ with commitment, fidelity,
and self-sacrifice”; and, “[a]cquire a sense of vocation
and calling before God[.]” J.A., Ex. 4, p. 6.
According to the Faculty Handbook, the
foundations of Gordon’s education philosophy are
Christian doctrine, such as an acknowledgement that
“God reveals Himself through His created order,
Scriptures,” and a recognition “that God’s eternal
Word is the ultimate source and foundation of all
truth.” J.A., Ex. 4, Section 1.5, pp. 6–7.
In addition, according to the Faculty Handbook,
faculty members “are expected to be fully prepared in
all facets of their tasks as Christian teachers and
advisors, both inside and outside the classroom,” and
“[t]hey are expected to strive to engage students in
their respective disciplines from the perspectives of
the Christian faith and to teach with accuracy and
integrity.” J.A., Ex. 4, p. 38. Moreover, the Faculty
Handbook provides that “each member of faculty is
expected to participate actively in the spiritual
formation of [Gordon’s] students into godly biblicallyfaithful ambassadors for Christ[,]” and that, “[i]n the
Gordon College context, faculty members are both
educators and ministers to our students.”10 J.A., Ex.
4, p. 64 (emphasis added).
There is no dispute the Faculty Handbook states that
faculty are expected to be “both educators and ministers”
(emphasis added). However, DeWeese-Boyd contends that this
latter phrase (i.e., “and ministers”) was added in 2016 to give
10

46a
Finally, the Faculty Handbook states that
“[a]mong the tasks of the Christian educator, none is
more important than that which seeks the integration
of faith, learning, and living.” J.A., Ex. 4, p. 4.
Moreover, it states “integration” of faith and learning
includes a professor’s assistance in helping students
make connections between course content, Christian
thought and principles, and personal faith and
practice. J.A., Ex. 4, pp. 65-66. This principle of
integration means “[t]he faculty of Gordon College is
a community of Christians, committed to imaging
Christ in all aspects of their educational endeavors.”
J.A., Ex. 4, p. 64. Moreover, during DeWeese-Boyd’s
employment, Gordon conducted seminars for
professors about the integration of the Christian faith
and learning.
C. Applying To, And Working For, Gordon
College
Gordon does not require that its professors have
any specific formal religious training prior to starting
their employment. J.A., Ex. 29, ¶ 17. Thus, a
seminary degree is not a condition to becoming a
professor at Gordon College.11 J.A., Ex. 34, p. 60.
However, when applying to work at Gordon College,
all faculty, administrators, and trustees must sign a
“Memorandum Of Understanding,” in which they
agree to “support the goals and objectives of Gordon
more heft to Gordon’s assertion of the ministerial exception
defense, and that there was significant faculty opposition to
adding the phrase.
Although Gordon does not require its professors to have
seminary degrees, many do, including DeWeese-Boyd. J.A., Ex.
62, Answer No. 18.
11

47a
College as a distinctively Christian Institution of
higher learning”; “acknowledge personal agreement
with the Statement of Faith”; and, “agree to abide by”
the standards set forth in “the [S]tatement of ‘Life and
Conduct at Gordon College[.]’ ” J.A., Ex. 5.
In turn, the Statement of Faith,12 with which
faculty members must agree, provides, inter alia,
that: (1) “[t]he 66 canonical books of the Bible as
originally written were inspired by God”; (2) “[t]here
is one God, the Creator and Preserver of all things,
infinite in being and perfection”; (3) “humankind can
be saved only by the grace of God”; (4) “it is the
responsibility of the believer to contribute by word
and deed to the universal spread of the gospel”; and
(5) “[a]t the end of the age the bodies of the dead shall
be raised[,] ... [t]he righteous shall enter into full
possession of eternal bliss[,] ... [and] the wicked shall
be condemned to eternal death.” J.A., Ex. 6.
Similarly, the Statement of Life and Conduct, 13
with which faculty members must agree to obey,
states “Gordon College strives to maintain its identity
as a Christian academic community of students,
faculty, and staff.” It further states Gordon “expects”
all members of the college community, including the
faculty, to “[c]all themselves Christian by virtue of the
grace of God and their personal commitment to Jesus
Christ”; “[r]ecognize the Bible to be the Word of God
The Statement of Faith is set forth in Section 1.6 of the
Faculty Handbook.
12

The Statement of Life and Conduct is set forth in Section
1.7 of the Faculty Handbook. In addition to faculty members, all
students agree to abide by the Statement of Faith and the
Statement of Life and Conduct. J.A., Ex. 8, p. 3.
13

48a
and hence fully authoritative in matters of faith and
conduct”; and, “[h]ave a sincere desire for that
commitment to mature both in insight and behavior.”
J.A., Ex. 6.
In addition, the Statement of Life and Conduct
provides that individuals who join Gordon’s
community must, inter alia, “[u]nderstand that they
have become part of an evangelical Christian
tradition which is to be respected and valued”;
“[s]trive to exemplify those positive elements of
Christian behavior which are taught in Scripture”;
and, “[a]ssume responsibility for their own behavior
as it reflects upon their Lord, their community and
themselves, particularly in the area of personal
freedom, where discretion, moderation and restraint
must be practiced.” J.A., Ex. 6. The Statement of Life
and Conduct also sets forth certain faith-based
“Behavioral Standards,” with which all students,
faculty, and staff agree to comply, such as refraining
from “words and actions which are expressly
forbidden in Scripture.” J.A., Ex. 6.
President Lindsay testified that all Gordon
employees must be “committed to the evangelical
mission of the institution[,]” and that “journeys of
faith are evaluated ... when employees are hired” and
“through the performance review process.” J.A., Ex. 7,
p. 18. He testified further that, when he interviews
faculty applicants, he emphasizes “the importance of
taking seriously signing the Statement of Faith and
the Statement of Life and Conduct and being able to
embrace the Christian mission and purpose of the
institution.” J.A., Ex. 7, p. 42. President Lindsay also

49a
testified that he “liken[s] joining Gordon College to
joining a religious order.”14 J.A., Ex. 7, p. 42.
D. DeWeese-Boyd’s Hiring And Retention By
Gordon College
Prior to joining Gordon, DeWeese-Boyd received a
master’s degree in General Theological Studies from
Covenant Theological Seminary in St. Louis. J.A., Ex.
12. She performed mission work in the Philippines in
addition to her seminary training.
DeWeese-Boyd first contacted Gordon about a
tenure-track faculty position in its social work
department on February 25, 1998. She sent a cover
letter to Gordon’s then-Provost in which she stated,
“[a]s a product of a Christian liberal arts college ... I
very much want to participate in, and contribute to,
Christian liberal arts education.” J.A., Ex. 12. She
further stated that her seminary training and mission
work in the Philippines “could be of particular benefit
to Gordon College Students.” J.A., Ex. 12.
On March 9, 1998, DeWeese-Boyd submitted an
application for employment to Gordon in which she
acknowledged her personal agreement with the
Statement of Faith, agreed to comply with the
Statement of Life and Conduct, described her
Christian belief and her pilgrimage as a Christian,
and explained how her Christian commitment
affected her scholarship. J.A., Ex. 15. In the
application,
DeWeese-Boyd
was
asked
her
understanding of the basic responsibilities of a faculty
member in an institution of Christian higher
Lindsay was not the president of Gordon College in 1998
when DeWeese-Boyd was hired.
14

50a
education, to which DeWeese-Boyd stated “to provide
a critical, and distinctly Christian, perspective[,] ... to
guide and mentor each student in such a way as to
help her discern how Christianity impacts upon her
particular discipline[,] ... [and] to teach her students
how to do ‘Christian scholarship.’ ”15 J.A., Ex. 15.
In a letter dated June 9, 1998, Gordon College
offered DeWeese-Boyd a “tenure track faculty
position.” J.A., Ex. 16. This letter stated, “Your
achievements, academic pedigree, commitment to the
Triune God, and expressed desire to benevolently
serve in this Christian liberal arts setting have led to
your appointment to the faculty.” J.A., Ex. 16. In
closing, the letter stated, “Welcome to Gordon College
faculty. May the Lord always bless your work here as
you join us in the ‘precious trust’ of developing young
Christian hearts, hands, and minds.” J.A., Ex. 16.
Gordon specifically hired DeWeese-Boyd as an
Assistant Professor to work in Gordon’s Social Work
Department. She began teaching in fall 1999.
In 2004, Gordon promoted DeWeese-Boyd to
Associate Professor and Gordon approved her for
tenure in September 2009. J.A., Ex. 29.
There appears to be no dispute that applicants for faculty
positions are required to sign the Memorandum of
Understanding discussed above. See SOF, ¶ 12. However, the
record is unclear regarding whether DeWeese-Boyd signed it.
Nevertheless, there is no dispute that in signing her application
for employment, DeWeese-Boyd acknowledged her personal
agreement with the Statement of Faith and agreed to comply
with the Statement of Life and Conduct, two things
memorialized in the Memorandum of Understanding. See J.A.,
Ex. 15, p. 2.
15

51a
After her promotion in 2004, DeWeese-Boyd’s
formal title was Associate Professor of Social Work,
with tenure. J.A., Ex. 37. She avers she never held
herself out as a minister inside or outside Gordon, and
she never regarded herself as a minister. J.A., Ex. 29,
¶¶ 19-20.
E. The Social Work Department
The Gordon College Social Work Program
Student Handbook (“Social Work Handbook”) states
the program “prepares graduates for beginning level
generalist social work practice and for graduate study
in social work.” J.A., Ex. 21, p. 78. In addition, the
Social Work Handbook provides that the College’s
social work program is “informed by a Christian
worldview which affirms the value and dignity of
every person[,]” and requires “Christians to strive for
the enhancement of human wellbeing, the alleviation
of poverty and oppression, and the healing of the
whole person and the whole society.” J.A., Ex. 21, p.
79.
The goals of the Social Work Program include the
integration of social work and Christian values, and
the program’s competencies are “designed,” at least in
part, to reflect this goal. J.A., Ex. 21, pp. 79-80.
Moreover, the program’s “supporting intentions”
include, inter alia, “[p]reparing graduates to integrate
Christian and social work values in their practice of
social work[,] .. [p]reparing graduates for graduate
study in social work, related disciplines, or Christian
ministry[,] [and] [p]reparing graduates for service in
other social service fields, including Christian
ministry.” J.A., Ex. 21, p. 81.

52a
F. Promotion & Integration Of Faith And
Teaching
As stated, Gordon expects its faculty members to
integrate the Christian faith into their teaching. The
significance of “integration” in Gordon’s mission is
illustrated by its prominence in the Faculty
Handbook and the Statement of Faith. In
summarizing how the faculty practices “integration,”
Lindsay testified that “[i]n their teaching, they are
expected to profess – and that’s the professor – to
profess the Christian faith; to assist students in their
spiritual journey as part of their intellectual
formation; to be available to minister to students with
questions, personal needs, spiritual exploration; ... ;
[and,] to inculcate the Christian identity and to
transmit it to the next generation.” J.A., Ex. 14, p. 43.
According to Lindsay, “all professors [are] expected to
profess the Christian faith. It is the purpose of the
institution.” Id. at p. 55.
As faculty members progress through the
promotion and tenure application processes at
Gordon, they are required to describe in detail how
they integrate faith and teaching.16 In 2002,
In the summary judgment record, Gordon submitted
student feedback regarding DeWeese-Boyd’s integration of faith
and teaching. This came in the form of Course & Faculty
Evaluation Forms (“Forms”) in which students claimed
DeWeese-Boyd “did a great job” of integrating faith and
teaching. See J.A., Ex. 23. DeWeese-Boyd objects on hearsay
grounds to the Court considering the Forms. The Court overrules
the objection because the Forms qualify as business records.
However, the Forms are not helpful to the Court’s consideration
of whether the ministerial exception applies because there is
little dispute that DeWeese-Boyd’s responsibilities included
16

53a
DeWeese-Boyd submitted her first integration paper
to Gordon. J.A., Ex. 18. In the cover letter
accompanying this paper, she stated, “I understand
my work to be inherently integrated because the
topics and issues that I choose to spend time
researching, thinking about, and writing on are topics
and issues that I understand to be fundamental to the
call of Christian life and action in the world.” J.A., Ex.
18, p. 4.
In 2009, Gordon approved DeWeese-Boyd for
tenure. As part of her application for tenure,
DeWeese-Boyd
submitted
a
paper
entitled
“Reflections on Christian Scholarship.” J.A., Ex. 19.
Therein, DeWeese-Boyd made various statements
about what she understood integration to mean and
how she integrated the Christian faith into her
teaching, including the following:
• “I understand the work of integration to be
fundamentally about ... pursuing scholarship
that is faithful to the mandates of Scripture”
and “the vocational call of Christ[.]” J.A., Ex.
19, p. 1.
• “My approach to Christian scholarship—
indeed, my choice of disciplinary field as well
as my scholarly interest and pursuits within
that field—are shaped by the Scriptural
mandate to pursue shalom.” J.A., Ex. 19, p. 5.
• “In my vocation as [a] Christian Scholar, I
strive to make useful contributions to the body
of knowledge in my area of expertise—
integrating faith and teaching, and her performance in doing so
is irrelevant at this stage of the proceedings.

54a
contributions informed by a uniquely Christian
perspective, as well as one with practical
applications for human society.” J.A., Ex. 19, p.
8.
• “My Christian commitment also affects my
scholarship by allowing me to see my work as
participation in the ministry of Christian
reconciliation.” J.A., Ex. 19, p. 8.
• “[I]n my role as Christian educator, a desire to
follow Christ impacts my work in several ways.
First and foremost it informs the choice of
disciplinary field in which I teach, as discussed
previously. Secondly, it plays out in the
methods with which I teach, and how I interact
with students.” J.A., Ex. 19, p. 9.
• “In sum, I believe it is our understanding of
mandates of Scripture, our understanding of
vocation, as well as the dictates of our own
consciences, that help shape how we come to
view—and take up—our individual roles in
furthering in (sic) the Kingdom of God as
Christian scholars and educators.” J.A., Ex. 19,
p. 10.
In 2016, DeWeese-Boyd submitted an application
for promotion to Full Professor. J.A., Ex. 20. In the
“Introduction” section of the application, she stated,
“my desire to follow Christ informs my chosen field of
study, my approach to teaching, the topics I engage as
a scholar, and my approach to institutional service.”
J.A., Ex. 20, p. 1. Further, DeWeese-Boyd stated,
“[t]hroughout my life, I have sought to cultivate a
living and active faith in Jesus Christ—one that
informs all of my personal and professional

55a
endeavors.” J.A., Ex. 20, p. 1. Moreover, in the
application under the heading “Scholarship/
Professional Development,” DeWeese-Boyd stated,
“God calls us throughout Scripture to struggle against
flawed social, political and economic structures .... For
my part, this means taking up scholarly questions
that have moral and ethical significance beyond their
academic merits.” J.A., Ex. 20, p. 9.
During her employment at Gordon, DeWeeseBoyd attended religious services, convocations, and
religious gatherings with students at the Gordon
chapel.17 SOF, ¶ 64. She also attended a local church
at which Gordon students sometimes attended. SOF,
¶ 65.
G. Gordon College Denial Of DeWeese-Boyd’s
Promotion To Full Professor
According to the Faculty Handbook, “[t]he
Faculty Senate and the provost are responsible for
coordinating faculty evaluation efforts.” J.A., Ex. 4, p.
43. The Faculty Senate is responsible for making
recommendations on professors’ applications for
tenure and promotions. J.A., Ex. 4, pp. 39, 41-42.
On December 15, 2016, the Faculty Senate
informed DeWeese-Boyd in writing that it
unanimously recommended her to Provost Curry for
promotion to full professor. The Faculty Senate
“found [her] to be meritorious in teaching and
institutional service and [her] scholarship was
assessed at the expected level.” J.A. Ex. 45, p. 1.

The extent to which DeWeese-Boyd participated in these
religious services is unclear in the record.
17

56a
Notwithstanding the recommendation from the
Faculty Senate, in a letter dated February 8, 2017,
Provost Curry declined to recommend DeWeese-Boyd
for promotion to President Lindsay and the Board of
Trustees. J.A., Ex. 46. Lindsay “concurred with
[Curry’s] assessment.” J.A., Ex. 46. According to
Curry, DeWeese-Boyd was a “strong teacher” with
“very high” teaching evaluations. Id. However,
DeWeese-Boyd’s scholarly productivity “did not reach
acceptable levels” for a Gordon faculty member, and
her professionalism and follow through on
institutional projects about which she may not feel
passionate was lacking. J.A., Ex. 46.
DeWeese-Boyd contends Gordon College denied
her promotion because she “has been one of the most
outspoken critics among the Gordon College faculty
regarding the College’s policies and practices”
concerning “LGBTQ+ individuals” and the College’s
prohibition against sexual activity outside of
marriage between one man and one woman.
Complaint, ¶ 18. DeWeese-Boyd claims her
“outspoken” criticism and her gender resulted in the
denial of her application for promotion. Complaint, ¶
25.
DISCUSSION
In Hosanna-Tabor Evangelical Lutheran Church
& School v. E.E.O.C., 565 U.S. 171, 188-190 (2012)
(“Hosanna-Tabor”), the United States Supreme Court
recognized the existence of the “ministerial exception”
as an affirmative defense for the first time. Citing
Hosanna-Tabor and other cases, Gordon College
argues it is entitled to invoke the ministerial
exception affirmative defense because it is a religious

57a
institution and DeWeese-Boyd was a ministerial
employee, and, accordingly, it is entitled to summary
judgment on all DeWeese-Boyd’s claims.
On the other hand, also citing Hosanna-Tabor and
other cases, DeWeese-Boyd argues summary
judgment should enter in her favor, dismissing the
ministerial exception affirmative defense, because the
ministerial exception is inapplicable here since
Gordon College is not a religious institution and she
was not a ministerial employee. Alternatively, she
argues that, even if the Court decides the ministerial
exception applies, the exception does not bar her
contract-based and gender discrimination claims.
As discussed below, the Court finds that, although
Gordon is a religious institution for purposes of the
ministerial exception, DeWeese-Boyd was not a
ministerial employee. Therefore, Gordon may not
invoke the exception to bar any of DeWeese-Boyd’s
claims and summary judgment dismissing the
affirmative defense must enter in her favor.18
I. STANDARD OF REVIEW
A motion for summary judgment may be granted
“if the pleadings, depositions, answers to
interrogatories, and responses to requests for
admission under Rule 36, together with the affidavits,
if any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
The parties agree that the determination of whether the
ministerial exception affirmative defense applies to prohibit
DeWeese-Boyd’s claims is a matter appropriate for resolution at
the summary judgment stage. As discussed below, case law
applying the exception confirms this.
18

58a
a judgment as a matter of law.” Mass. R. Civ. P. 56(c).
“The moving party has the burden of demonstrating
affirmatively the absence of a genuine issue of
material fact on every relevant issue, regardless of
who would have the burden on that issue at trial.”
Arcidi v. NAGE, Inc., 447 Mass. 616, 619 (2006).
The party opposing summary judgment must
respond and allege facts establishing the existence of
a genuine issue of material fact for trial. Polaroid
Corp. v. Rollins Envtl. Servs. (N.J.), Inc., 416 Mass.
684, 696 (1993). Moreover, “[i]n deciding a motion for
summary judgment, the motion judge must consider
all factual allegations, and draw all reasonable
inferences therefrom, in favor of the nonmoving
party.” Godfrey v. Globe Newspaper Co., Inc., 457
Mass. 113, 119 (2010); see also Willitts v. Roman
Catholic Archbishop of Boston, 411 Mass. 202, 202
(1991) (any conflicts in the supporting materials are
answered in favor of the non-movant). However,
although the Court views the evidence in the light
most favorable to the non-moving party, it does not
weigh evidence, assess credibility, or find facts.
Drakopoulos v. United States Bank Nat’l Ass’n, 465
Mass. 775, 788 (2013) (quoting O’Connor v. Redstone,
452 Mass. 537, 550 (2008)).
II. OVERVIEW
EXCEPTION

OF

THE

MINISTERIAL

The First Amendment to the United States
Constitution provides, in part, “Congress shall make
no law respecting an establishment of religion, or
prohibiting the free exercise thereof.” Generally
speaking, the Religion Clauses of the First
Amendment bar government action that establishes

59a
religion (Establishment Clause) or interferes with the
practice of religion (Free Exercise Clause).
As relevant here, “[t]he Establishment Clause
prevents the Government from appointing ministers,
and the Free Exercise Clause prevents it from
interfering with the freedom of religious groups to
select their own [ministers].” Hosanna-Tabor, 565
U.S. at 184. More specifically, “[b]oth Religion
Clauses bar the government from interfering with the
decision of a religious group to fire one of its
ministers.” Id. at 181. Therefore, as relevant here, the
essence of the Religion Clauses is that a court should
neither require a religious institution to retain or
accept an unwanted minister, nor punish it for not
doing so because, to do so, interferes with the
institution's internal governance.
The Federal Circuit Courts of Appeals and
various state appellate courts, including the Supreme
Judicial Court,19 “have uniformly recognized the
existence of a ‘ministerial exception,’ grounded in the
In Williams v. Episcopal Diocese of Mass., 436 Mass. 574
(2002), the SJC affirmed the dismissal of an Episcopal priest’s
claim of sexual discrimination brought under G.L. c. 151B, § 4.
Id. at 575. In so doing, the SJC observed that Federal courts had
long recognized the ministerial exception to “preclude[ ] civil
courts from adjudicating employment discrimination suits by
ministers against their church or religious institution.” Id. at 577
(citations omitted). Without specifically adopting the ministerial
exception, or its nomenclature, the SJC applied the exception in
substance when it ruled that the Religion Clauses of the First
Amendment “precludes jurisdiction of civil courts over church
disputes touching on matters of doctrine, canon law, polity,
discipline, and ministerial relationships [and] is firmly
established in Massachusetts case law.” Id. at 579 (citations
omitted).
19

60a
First Amendment, that precludes application of [civil
rights] legislation to claims concerning the
employment relationship between a religious
institution and its ministers.”20 Id. at 188 (citations
omitted). However, it was not until 2012 in HosannaTabor that the Supreme Court had an opportunity to
officially recognize the ministerial exception for the
first time. In so doing, the Court clarified that the
ministerial exception “operates as an affirmative
defense to an otherwise cognizable claim, [rather
than] a jurisdictional bar.” Id. at 195 n.4.
In reaching the holding in Hosanna-Tabor, the
Supreme Court stated:
Requiring a church to accept or retain an
unwanted minister, or punishing a church for
failing to do so, intrudes upon more than a mere
employment decision. Such action interferes
with the internal governance of the church,
depriving the church of control over the selection
of those who will personify its beliefs. By
imposing an unwanted minister, the state
infringes the Free Exercise Clause, which
protects a religious group’s right to shape its
own faith and mission through its appointments.
According the state the power to determine
The ministerial exception traces its roots to the Fifth
Circuit’s decision in McClure v. Salvation Army, 460 F.2d 553
(5th Cir. 1972). See Kirby v. Lexington Theol. Seminary, 426
S.W.3d 597, 605 (Ky. 2014) (“Barring a Salvation Army
employee’s Title VII claim, the Fifth Circuit, in creating the
ministerial exception over forty years ago [in McClure], relied
heavily on preserving church autonomy and not even peeking
over the ‘wall of separation’ between church and state.”) (quoting
McClure, 460 F.2d at 558).
20

61a
which individuals will minister to the faithful
also violates the Establishment Clause, which
prohibits government involvement in such
ecclesiastical decisions.
Id. at 188-189.
Accordingly, the Supreme Court observed that
the purpose of the ministerial exception “is not to
safeguard a church’s decision to fire a minister only
when it is made for a religious reason.” Id. at 194.
Rather, the purpose is to “ensure[ ] that the authority
to select and control who will minister to the faithful
-- a matter ‘strictly ecclesiastical,’ [ ] -- is the church’s
alone.” Id. at 194-195 (quoting Kedroff v. St. Nicholas
Cathedral of Russian Orthodox Church, 344 U.S. 94,
119 (1952)).21
Not long after the Supreme Court’s decision in
Hosanna-Tabor, the Supreme Judicial Court applied
the holding in Temple Emanuel of Newton v.
Massachusetts Comm’n Against Discrimination, 463
Mass. 472 (2012) (“Temple Emanuel”). In that case,
the SJC held that the ministerial exception prohibited
discrimination claims asserted by a teacher that
“taught religious subjects at a school that functioned
solely as a religious school, whose mission was to
“The ministerial exception is best understood as a narrow,
more focused subsidiary of the ecclesiastical abstention
doctrine,” Kirby, 426 S.W.3d at 604, which is also called the
church autonomy doctrine. Doe v. First Presbyterian Church
U.S.A., 421 P.3d 284, 288-289 (Ok. 2017). That doctrine, first
recognized in Watson v. Jones, 80 U.S. 679 (1871), is rooted in
the Religious Clauses of the First Amendment and prohibits
courts from interfering “in matters of church government, faith
and doctrine.” Doe, 421 P.3d at 289.
21

62a
teach Jewish children about Jewish learning,
language, history, traditions, and prayer.” Id. at 486.
In so holding, the SJC in Temple Emanuel stated:
In deciding whether the ministerial exception
applies to a religious school teacher, the
fundamental question is whether it would
infringe the free exercise of religion or cause
excessive entanglement between the State
and a religious group if a court were to order
a religious group to hire or retain a religious
teacher that the religious group did not want
to employ, or to order damages for refusing to
do so..... We conclude that it would. Where a
school’s sole mission is to serve as a
religious school, the State should not
intrude on a religious group’s decision as to
who should (and should not) teach its religion
to the children of its members.
Id. (internal citations omitted) (emphasis added).
For the ministerial exception to apply as a bar to
an employment discrimination claim, the employer
must demonstrate two things: (a) that it is a religious
institution; and, (b) that the employee is a ministerial
employee (i.e., a “minister”).22 EEOC v. R.G., 884 F.3d
560, 581 (6th Cir. 2018) (citations omitted); see also
Lishu Yin v. Columbia Int’l Univ., 335 F. Supp. 3d
803, 812 (D. S.C. 2018) (“In order for the ministerial
This Court has found very few reported Massachusetts
decisions interpreting and applying the ministerial exception, in
general, and the Hosanna-Tabor decision, specifically. As such,
in resolving the pending motions, the Court has looked to other
jurisdictions that have applied the exception and the holding in
Hosanna-Tabor.
22

63a
exception to apply, an employer must be a religious
institution, and an employee must be a minister.”)
(citation omitted); Kirby v. Lexington Theol.
Seminary, 426 S.W.3d 597, 609 (Ky. 2014) (“The
application of the ministerial exception requires two
main inquiries: 1) is the employer a religious
institution, and 2) is the employee a minister.”)
(citation omitted); Winbery v. La. College, 124 So. 3d
1212, 1215 (La. Ct. App. 2013) (same).
III. GORDON COLLEGE IS A RELIGIOUS
INSTITUTION FOR PURPOSES OF THE
MINISTERIAL EXCEPTION
As stated, “[b]oth Religion Clauses bar the
government from interfering with the decision of a
religious group to fire one of its ministers.”
Hosanna-Tabor, 565 U.S. at 181 (emphasis added);
see also id. at 184 (“The Establishment Clause
prevents the Government from appointing ministers,
and the Free Exercise Clause prevents it from
interfering with the freedom of religious groups to
select their own.”) (emphasis added). Hence, the first
prong of the ministerial exception doctrine requires
the Court to determine whether Gordon, the
employer, is a religious institution capable of
employing ministers.
Gordon College argues it qualifies as a religious
institution for purposes of the ministerial exception
because its mission is marked by clear and obvious
religious characteristics. On the other hand,
DeWeese-Boyd argues Gordon is not a religious
institution because its primary purpose is that of a
liberal arts college, not a religious institution; it is not
affiliated
with
any
particular
church
or

64a
denomination; and, it declined to identify itself with
the Commonwealth as having a religious purpose.
The Court agrees with Gordon College.
Unfortunately, Hosanna-Tabor is not helpful in
determining the first prong of the ministerial
exception doctrine, i.e., determining whether the
employer is a religious institution capable of having
“ministers,” because the status of the plaintiff
employer as a “religious group” was not at issue and
not addressed by the Court. See Hosanna-Tabor, 565
U.S. at 177 (referring to “the employer [a]s a religious
group”); see also Winbery, 124 So. 3d at 1214 (stating
Hosanna-Tabor did not address how to determine
whether the defendants were a religious organization
entitled to protection under the Religious Clauses).23
Therefore, the Supreme Court did not provide any
guidance in Hosanna-Tabor for trial courts to use to
determine what organizations may properly invoke
the ministerial exception. Nevertheless, both before
and after Hosanna-Tabor, “[n]umerous courts have
held that the term ‘religious institution,’ in this
context, can include religiously affiliated schools,
hospitals, and corporations.” Shaliehsabou v. Hebrew
Home of Greater Wash., Inc., 363 F.3d 299, 310 (4th
Cir. 2004) (citations omitted).
Likewise, in Temple Emanuel there was no dispute that
the employer was a “religious group” capable of having
“ministers.” See Temple Emanuel, 463 Mass. at 484 (“[The
teacher] does not dispute that the mission of the [plaintiff]
religious school is to instill in its students a commitment to
lifelong Jewish learning and build on the central values of
Jewish heritage, including learning, worship, and acts of loving
kindness.”).
23

65a
For example, in Kirby, decided after HosannaTabor, the Supreme Court of Kentucky stated:
Importantly, the scope of “religious institution”
is not so narrow that only traditional faith
communities qualify. Across the federal circuits,
the ministerial exception has been applied to
religiously affiliated hospitals, schools, and
corporations because they were sufficiently
within the understanding of “religious
institution.” An entity, allegedly religiously
affiliated, will be considered a “religious
institution” for purposes of the ministerial
exception “whenever that entity’s mission
is marked by clear or obvious religious
characteristics.”
426 S.W.3d at 609 (citations and footnotes omitted)
(emphasis added).
In
Conlon
v.
Intervarsity
Christian
Fellowship/USA, 777 F.3d 829 (6th Cir. 2015), the
plaintiff “worked at InterVarsity Christian
Fellowship/USA (“IVCF”) in Michigan as a spiritual
director, involved in providing religious counsel and
prayer.” Conlon, 777 F.3d at 831. The employer,
IVCF, was:
“[A]n evangelical campus mission serving students
and faculty on college and university campuses
nationwide,” whose “vision is to see students and
faculty transformed, campuses renewed and world
changers developed.” IVCF’s purpose “is to
establish and advance at colleges and universities
witnessing communities of students and faculty
who follow Jesus as Savior and Lord: growing in
love for God, God’s Word, God’s people of every

66a
ethnicity and culture and God’s purposes in the
world.”
Id.
In Conlon, IVCF terminated the plaintiff’s
employment as a spiritual director upon learning she
was contemplating divorce. Id. The plaintiff sued
IVCF, claiming gender discrimination under federal
and Michigan law. Id. at 832. Taking its “first
opportunity since the Supreme Court’s decision in
Hosanna-Tabor ... to address the ‘ministerial
exception,’ ” id. (citation omitted), the Sixth Circuit
recognized that, “[u]nlike the defendant in HosannaTabor, IVCF is not a church. So [the court] must first
determine whether IVCF is an organization that can
assert the ministerial exception.” Id. at 833. In
concluding that IVCF was a religious organization
protected by the ministerial exception, the Sixth
Circuit stated:
[T]he ministerial exception’s applicability does not
turn on its being tied to a specific denominational
faith; it applies to multidenominational and
nondenominational religious organizations as
well.... “[I]n order to invoke the exception, an
employer need not be a traditional religious
organization such as a church, diocese, or
synagogue, or an entity operated by a traditional
religious organization.” ... “[A] religiously affiliated
entity” is one whose “mission is marked by clear or
obvious religious characteristics.” .... That is clearly
the case for IVCF, with not only its Christian name,
but its mission of Christian ministry and teaching.
Id. at 834 (internal citations omitted).

67a
In Shaliehsabou, the Fourth Circuit observed that
it “ha[d] never addressed whether the phrase
‘religious institution,’ in the context of the ministerial
exception, applie[d] only to churches or churchoperated entities, or whether it ha[d] broader
meaning.” Shaliehsabou, 363 F.3d at 310. There,
without “decid[ing] the full reach of the phrase
‘religious institution,’ ” id. at 311, the Fourth Circuit
held that the ministerial exception applied to a
“religiously affiliated” Jewish nursing home because:
(a) “its By-Laws define[d] it as a religious and
charitable non-profit corporation”; (b) its mission was
“to provide elder care to ‘aged of the Jewish faith in
accordance with the precepts of Jewish law and
customs’ ”; and, (c) “[p]ursuant to [this] mission,” the
nursing home “maintained a rabbi on its staff,
employed mashgichim to ensure compliance with the
Jewish dietary laws, and placed a mezuzah on every
resident’s doorpost.” Id. at 310–311.
In Penn v. N.Y. Methodist Hosp., 884 F.3d 416
(2nd Cir. 2018), the Second Circuit “determine[d]
whether a hospital—only historically connected to the
United Methodist Church but still providing religious
services through its pastoral care department —can
invoke [the ministerial exception].” Id. at 418. There,
the hospital: (a) was “no longer affiliated with the
United Methodist Church”; (b) “took steps to distance
itself from its religious heritage”; (c) changed its “bylaws [to] no longer require the hospital to seek
permission from the United Methodist Church to
make significant business decisions”; (d) did not “give
the United Methodist Church the power to veto any
amendment
to
the
hospital's
articles
of
incorporation”; and, (e) did not have a religious

68a
affiliation that “pervade[d] its work as a healthcare
organization.” Id. at 425. Acknowledging that
whether the hospital qualified as a “religious group”
was “a close question,” id. at 423, the Second Circuit
held that the hospital was such a group given “its
history and continuing purpose,” id. at 424, and the
fact that the employee worked as a chaplain in “the
hospital’s Department of Pastoral Care.” Id. at 425.
The case of EEOC v. R.G. is instructive on the
limits to finding an entity qualifies as a religious
institution for purposes of invoking the ministerial
exception. In that case, the employer was a funeral
home with “a mission statement ... that [its] ‘highest
priority [wa]s to honor God in all that we do as a
company and as individuals’ and include[d] a verse of
scripture on the bottom of the mission statement
webpage.” Id. at 568. The funeral director “was
terminated from the [f]uneral [h]ome ... shortly after
[she] informed [the owner] that she intended to
transition from male to female and would represent
herself and dress as a woman while at work.” Id. at
566. On appeal, citing Conlon, the amici argued the
ministerial exception applied to the former funeral
director’s claim for unlawful sex discrimination. Id. at
581. The Sixth Circuit disagreed, stating:
As we made clear in Conlon, the ministerial
exception applies only to “religious institution[s].”
... While an institution need not be “a church,
diocese, or synagogue, or an entity operated by a
traditional religious organization,” ..., to qualify
for the exception, the institution must be
“marked by clear or obvious religious
characteristics[.]”

69a
...
The Funeral Home, by comparison, has virtually no
“religious characteristics.” Unlike the campus
mission in Conlon, the Funeral Home does not
purport or seek to “establish and advance”
Christian values.... [T]he Funeral Home “is not
affiliated with any church; its articles of
incorporation do not avow any religious purpose;
its employees are not required to hold any
particular religious views; and it employs and
serves individuals of all religions.” .... Though the
Funeral Home’s mission statement declares that
“its highest priority is to honor God in all that we
do as a company and as individuals,” ..., the
Funeral Home’s sole public displays of faith, ...
amount to placing “Daily Bread” devotionals and
“Jesus Cards” with scriptural references in public
places in the funeral homes, which clients may pick
up if they wish[.] ... The Funeral Home does not
decorate its rooms with “religious figures” because
it does not want to “offend[ ] people of different
religions.” ....The Funeral Home is open every day,
including on Christian holidays.
Id. at 582 (internal citations omitted) (emphasis
added).
In Lishu Yin, another case decided after HosannaTabor, the court held that a multidenominational
Christian college that identified itself as a ministry
was a religious institution that could invoke the
ministerial exception. 335 F. Supp. 3d at 814–815.
The court concluded that the college “possesse[d]
‘obvious religious characteristics,’ ” because it “
‘train[ed] Christians for global missions, full-time

70a
Christian ministry in a variety of strategic
professions, and marketplace ministry.’ ” Id. at 815
(citation omitted). “Moreover, as part of its mission,
‘[the college] educated people from a Biblical
worldview to impact the nations with the message of
Christ.’ ” Id. (citation omitted).
This Court has found very few reported decisions
applying the ministerial exception to a religious
liberal arts college, such as Gordon. Two such cases
are EEOC v. Mississippi College, 626 F.2d 477 (5th
Cir. 1980), and Winbery.
The case of Mississippi College involved “a fouryear coeducational liberal arts institution[,] ... owned
and operated by the Mississippi Baptist Convention
(Convention), an organization composed of Southern
Baptist churches in Mississippi.” Id. at 478. “The
Convention conceive[d] of education as an integral
part of its Christian mission.” Id. at 479. “Mississippi
College [had a policy that sought] to assure that
faculty and administrative officers [we]re committed
to the principle that ‘the best preparation for life is a
program of cultural and human studies permeated by
the Christian ideal, as evidenced by the tenets,
practices and customs of the Mississippi Baptist
Convention and in keeping with the principles and
scriptures of the Bible.’ ” Id. Further, “[t]he College’s
facilities include[d] prayer rooms available for use by
the students.” Id.
An applicant for an open position as a full-time
psychology professor “filed a charge of discrimination
with the EEOC, alleging that Mississippi College had
discriminated against her on the basis of sex” in
failing to hire her. Id. In finding that “[t]he

71a
employment relationship between Mississippi College
and its faculty and staff is one intended by Congress
to be regulated by Title VII[,]” (i.e., in finding the
ministerial exception did not apply)24 the Fifth Circuit
stated:
The College is not a church. The College’s
faculty and staff do not function as
ministers. The faculty members are not
intermediaries between a church and its
congregation. They neither attend to the
religious needs of the faithful nor instruct
students in the whole of religious doctrine.
That faculty members are expected to serve as
exemplars of practicing Christians does not
serve to make the terms and conditions of their
employment matters of church administration
and thus purely of ecclesiastical concern.
Id. at 485 (emphasis added). Therefore, unlike all
other Federal Circuit Courts, the Fifth Circuit
conflated the two prongs of the ministerial exception
doctrine by focusing solely on the role and functions
of the college’s faculty and staff, and not on the
religious attributes of the institution, itself.
In Winbery, the other case this Court found
involving a religious liberal arts college, the Court of
Appeal of Louisiana (Third Circuit), addressed the
trial court’s dismissal for lack of subject matter
jurisdiction of the plaintiffs’ claims of defamation and
violations of civil rights against Louisiana College, a
The term “ministerial exception” was not used by the
Fifth Circuit. However, the substance of its analysis was the
application of the ministerial exception doctrine in the context of
a challenge to an administrative subpoena issued by the EEOC.
24

72a
religious liberal arts college.25 Winbery, 124 So. 3d at
1213. Relying on Hosanna-Tabor, the “[d]efendants
argued that [the] [p]laintiffs’ suit was barred by the
First Amendment’s Free Exercise Clause because the
claims at issue concerned the employment
relationship between a religious institution, or
church, and one of its ministers.”26 Id. at 1214. On the
other hand, relying on Mississippi College, the
plaintiffs in Winbery, former professors at Louisiana
College, argued that the ministerial exception did not
apply
because
“Louisiana
College
is
[a]
nonhierarchical religious college,” not a church, and
the plaintiffs “were not ministers.” Id. The Court of
Appeal of Louisiana ruled that Mississippi College,
rather than Hosanna-Tabor, controlled on the issue of
whether Louisiana College was a religious
institution, and that the college was not such an
entity. Id. at 1217. In so ruling, the Court of Appeal
stated:
The trial court was correct in noting the clear
similarities between Louisiana College and
Mississippi
College.
Both
colleges are
coeducational liberal arts institutions that have
The plaintiffs also brought claims against Louisiana
Inerrancy Fellowship, which were not dismissed and not at
issue.
25

“Additionally, [the] [d]efendants contend[ed] that
determining the validity of [the] [p]laintiffs’ claims would
require a court to determine the truth or falsity of certain
religious beliefs and Baptist ecclesiastical disagreements over
inerrancy or literal truth of the Bible as scripture, thereby
violating the constitutional protections against government
entanglement with religion found in the First Amendment’s
Establishment Clause.” Id.
26

73a
undergraduate curricula which require all
students to take certain religious courses.
Mississippi College was owned and operated by
the Mississippi Baptist Convention, an
organization composed of Mississippi’s Southern
Baptist Churches. Louisiana College is governed
by a Board of Trustees, elected by the Louisiana
Baptist Convention, an organization composed
of Louisiana’s Southern Baptist Churches.
Id. at 1217 (citation omitted). Therefore, the Court of
Appeal in Winbery “f[ou]nd no error in the trial
court’s determination that the ministerial exception
of the First Amendment’s Free Exercise Clause [wa]s
inapplicable.” Id. at 1218.27
At bottom, three principles are clear from the case
law applying the first prong of the ministerial
exception determination, i.e., whether the employer is
a religious institution. First, “in order to invoke the
This ruling appears to be dicta. The Court of Appeal
ultimately ruled that the defendant college’s appeal was
“without merit” because it impermissibly challenged “the
reasons for judgment [i.e., that the college did not qualify for the
ministerial exception] and not the judgment itself [i.e., that the
trial court lacked subject matter jurisdiction].” Id. Thus, the
court in Winbery went on to apply the ministerial exception to
the plaintiffs’ “appeal[ ] [of] the trial court’s ruling that it did
not possess subject matter jurisdiction over their claims
pursuant to the Establishment Clause.” Id. at 1214. In so doing,
the Winbery court ruled that “[t]he trial court was correct in
holding that the dispute ... centers on the nature of Baptist
theology and church governance over how theology is taught at
Louisiana College and would, thus, require the court to
impermissibly entangle itself in deciding ecclesiastical
matters[,]” thus, the trial court judgment that it lacked subject
matter jurisdiction was correct. Id.
27

74a
[ministerial] exception, an employer need not be a
traditional religious organization such as a church,
diocese, or synagogue, or an entity operated by a
traditional religious organization.” Conlon, 777 F.3d
829 at 834 (quotations and citation omitted). Second,
notwithstanding the decisions in Mississippi College
and Winbery, the exception applies to a “religiously
affiliated entity,” whose “mission is marked by clear
or obvious religious characteristics.” Shaliehsabou,
363 F.3d at 310; see also Kirby, 426 S.W. 3d at 609
(“An entity, allegedly religiously affiliated, will be
considered a ‘religious institution’ for purposes of the
ministerial exception ‘whenever that entity’s mission
is marked by clear or obvious religious
characteristics.’ ”). Third, and of particular
significance to this case, “[j]ust like churches, schools
may pursue a religious mission. Indeed, education is
at the core of religious activity for many Americans.”
Duquesne Univ. of the Holy Spirit v. NLRB, 947 F.3d
824, 828 (D.C. Cir. 2020) (citations omitted).
Applying the above case law and principles here,
the Court finds Gordon College qualifies as a religious
institution for purposes of the first prong of the
ministerial exception doctrine. Gordon’s Restated
Articles Of Organization state that it was formed to
provide instruction in the Bible, and to prepare
students missionary work, Christian ministry, and
“other special forms of Christian work.” Similarly,
according to its Bylaws, Gordon is dedicated the
evangelical biblical faith, integrally Christian
scholarship, programs that reflect “the rich mosaic of
the Body of Christ,” a life guided by the “teaching of
Christ and the empowerment of the Holy Spirit,” and

75a
applying biblical principles “to transform society and
culture.”
In addition, Gordon’s mission is as “an intentional
Christian community” that serves those who
“embrace the College’s broadly evangelical identity”
and desire an experience that “combines an
exceptional liberal arts education with an informed
Christian faith.” Further, undergraduates wishing to
attend Gordon must affirm their belief in the
Christian faith, a purpose of Gordon’s Core
Curriculum “is to foster knowledge of God's character
and purpose as revealed in Scripture,” and attending
students are required to take religious-based courses
and attend religious services on campus.
Moreover, when applying to work at Gordon
College, all applicants must sign a Memorandum Of
Understanding, in which applicants agree to support
the goal of Gordon College to serve “as a distinctively
Christian Institution of higher learning,” agree with
the Statement of Faith (which sets forth certain
tenets of the Christian evangelical faith), and agree to
abide by Gordon’s Statement of Life and Conduct
(which includes a set of biblical-based behavioral
standards). Further, faculty members are expected to
integrate faith and teaching. Finally, Gordon’s
campus has two chapels, and Christian artwork,
artifacts, and Bible verses are displayed (and
Christian music is played) throughout the campus.
In the face of the record evidence, DeWeeseBoyd’s three arguments that Gordon College does not
qualify as a religious institution for purposes of the
ministerial exception are unpersuasive. First,
DeWeese-Boyd claims the College should not be

76a
deemed a religious institution because it is not
affiliated
with
any
particular
church
or
denomination. However, as stated, copious case law
makes it clear that “[t]he ministerial exception’s
applicability does not turn on its being tied to a
specific denominational faith; it applies to
multidenominational
and
nondenominational
religious organizations as well.” Conlon, 777 F.3d at
834; see also Grussgott v. Milwaukee Jewish Day
Sch., Inc., 882 F.3d 655, 658 (7th Cir. 2018) (“There is
no requirement that an organization exclude
members of other faiths in order to be deemed
religious.”) (citing Hosanna-Tabor, 565 U.S. at 177).
Second, DeWeese-Boyd argues Gordon College is
not a religious institution because its primary
purpose is that of a liberal arts college. This assertion
is equally unavailing. The Court has found, and
DeWeese-Boyd has cited, no case that stands for the
proposition that to qualify as a religious institution an
entity’s purpose must be primarily or solely religious.
In fact, “[a]n entity can provide secular services and
still
have
substantial
religious
character.”
Shaliehsabou, 363 F.3d at 310. As explained above,
numerous religiously affiliated entities, such as
schools and hospitals, which serve more than one
purpose, have been deemed religious institutions for
purposes of the ministerial exception. Thus, the fact
that Gordon College is an educational institution does
not prevent it from also qualifying as a religious
organization.
Third, DeWeese-Boyd argues Gordon College does
not qualify as a religious institution because it
identifies its purpose in its annual filings with the
Commonwealth as “higher learning” and it “declines”

77a
to identify itself as having a religious purpose.
However, this is just another version of DeWeeseBoyd’s second argument, that Gordon is primarily an
educational institution.
In sum, like the entities in Lishu Yin,
Shaliehsabou and Penn, the record evidence supports
the conclusion that Gordon College qualifies as a
religious institution for purposes of the first prong of
the ministerial exception determination. At bottom,
Gordon’s mission has clear religious characteristics.
IV. DEWEESE-BOYD IS NOT A MINISTERIAL
EMPLOYEE
Now that the Court has ruled that Gordon is a
religious institution for the purposes of the
ministerial exception, a more challenging question
remains regarding whether DeWeese-Boyd qualifies
as a ministerial employee for purposes of the
exception. In Hosanna-Tabor, the Supreme Court
“recognized that the ministerial exception is not
limited to the ‘head of a religious congregation,’ but
declined to adopt a ‘rigid formula for deciding when
an employee qualifies as a minister.’ ” Temple
Emanuel, 463 Mass. at 485 (quoting Hosanna-Tabor,
565 U.S. at 190). Instead, Hosanna-Tabor identified
four “considerations” it found relevant to the
determination in that case: (1) the employee’s “formal
title;” (2) “the substance reflected in that title;” (3) the
employee’s “use of that title;” and, (4) “the important
religious functions [the employee] performed.”
Hosanna-Tabor, 565 U.S. at 192.
In addition to the above factors used by the Court
in Hosanna-Tabor, it is important to recognize the
“three errors” the Court found the Sixth Circuit made

78a
in holding that the ministerial exception did not
apply. Id. at 192. “First, the Sixth Circuit failed to see
any relevance in the fact that [the employee] was a
commissioned minister.... It was wrong for the Court
of Appeals ... to say that an employee’s title does not
matter.” Id. at 192–193. “Second, the Sixth Circuit
gave too much weight to the fact that lay teachers at
the school performed the same religious duties as [the
employee].... [T]hough relevant, it cannot be
dispositive that others not formally recognized as
ministers by the church perform the same functions.”
Id. at 193. “Third, the Sixth Circuit placed too much
emphasis on [the employee's] performance of secular
duties. It is true that her religious duties consumed
only 45 minutes of each work-day, and that the rest of
her day was devoted to teaching secular subjects....
The issue ..., however, is not one that can be resolved
by a stopwatch. The amount of time an employee
spends on particular activities is relevant in assessing
that employee's status, but that factor cannot be
considered in isolation, without regard to the nature
of the religious functions performed and the other
considerations discussed above.” Id. at 193–194.
Gordon College argues that in applying the
ministerial exception, both before and after HosannaTabor, courts focus on the functions the employee
performed for the religious organization. Here,
according to Gordon, because DeWeese-Boyd was
responsible for integrating its faith-based beliefs into
her teachings, she qualifies as a ministerial employee.
On the other hand, relying on a strict application
of the factors identified in Hosanna-Tabor, DeWeeseBoyd argues she was not a ministerial employee
because her title did not suggest any ministerial or

79a
religious role, she did not hold herself out as a
minister, and she did not perform any religious
functions of a minister. The Court concludes the strict
application urged by DeWeese-Boyd is misplaced and
inconsistent with how the ministerial exception has
been applied before and after Hosanna-Tabor.
Nevertheless, as discussed below, the Court finds
that, when applying the proper framework, DeWeeseBoyd is not a minister for purposes of the exception.
A. The Functional Approach In Determining
Whether An Employee Qualifies As A “Minister”
Before the Supreme Court decided HosannaTabor, the majority of courts that applied the
ministerial exception took a functional approach, i.e.,
focusing on the employee’s functions while employed
at the religious organization. See, e.g., Hollins v.
Methodist Healthcare, Inc., 474 F.3d 223, 226 (6th
Cir. 2007) (noting that other federal Circuits “have
considered a particular employee to be a ‘minister’ for
purposes of the ministerial exception based on the
function of the plaintiff’s employment position rather
than the fact of ordination.”); Petruska v. Gannon
Univ., 462 F.3d 294, 304 n.6 (3rd Cir. 2006) (“In
evaluating whether a particular employee is subject
to the ministerial exception, other circuits have
concluded that the focus should be on the ‘function of
the position.’ ”) (quoting Rayburn v. General
Conference of Seventh-Day Adventists, 772 F.2d
1164, 1168 (4th Cir. 1985)); Dayner v. Archdiocese of
Hartford, 23 A.3d 1192, 1204 (Conn. 2011) (“In
determining whether a plaintiff’s employment related
claims against a religious institution are subject to
the ministerial exception, the federal circuit courts
generally rely in the first instance on the ‘primary

80a
duties analysis [that] requires a court to objectively
examine an employee’s actual job function, not her
title, in determining whether she is properly
classified as a minister.’ ”) (citations omitted); Coulee
Catholic School v. Labor & Indus. Review Comm’n,
768 N.W.2d 868, 881 n.16 (Wis. 2009) (“The focus ...
should be on the function of the position, not the title
or a categorization of job duties.”); Pardue v. Center
City Consortium Schs. of the Archdiocese of
Washington, Inc., 875 A.2d 669, 675 (D.C. Ct. App.
2005) (“ ‘inquiry focuses on the function of the position
at issue and not on categorical notions of who is or is
not a minister.’ ”) (citations and internal quotations
omitted); EEOC v. Catholic Univ., 83 F.3d 455, 463
(D.C. Cir. 1996) (“the ministerial exception
encompasses all employees of a religious institution,
whether ordained or not, whose primary functions
serve its spiritual and pastoral mission.”).
To be sure, “[t]he functional consensus has held
up over time[,]” and the Court’s decision in HosannaTabor “should not be read to upset this consensus.”
565 U.S. at 202, 204 (Alito, J., concurring with whom
Kagan, J., joined). As Justice Alito noted:
Because virtually every religion in the world is
represented in the population of the United
States, it would be a mistake if the term
“minister” or the concept of ordination were
viewed as central to the important issue of
religious autonomy that is presented in cases
like this one. Instead, courts should focus on
the function performed by persons who
work for religious bodies.

81a
Id. at 198 (emphasis added). Therefore, after
Hosanna-Tabor, the majority of courts that have
considered the ministerial exception have continued
to apply a functional analysis when determining
whether an employee qualifies as a ministerial
employee, while still applying the four HosannaTabor factors.28
For example, in Cannata v. Catholic Diocese of
Austin, 700 F.3d 169 (5th Cir. 2012), the “first
opportunity for the [Fifth Circuit] to address the
ministerial exception in light of Hosanna-Tabor[,]” id.
at 170, the Fifth Circuit ruled that the exception
applied to the music director at a Catholic Church,
despite his argument “that he merely played the
piano at Mass and that his only responsibilities were
keeping the books, running the sound system, and
Both before and after Hosanna-Tabor, while using a
functional approach, many courts focused on the employee’s
“primary duties.” See e.g., Petruska, 462 F.3d at 304 n.6 (“As a
general rule, an employee will be considered a minister if her
primary duties include ‘teaching, spreading the faith, church
governance, supervision of a religious order, or supervision of
participation in religious ritual and worship.’ ”) (citations
omitted); Shaliehsabou, 363 F.3d at 306 (applying “the same
primary duties test” that is used when determining the
ministerial exception in Title VII cases as in claims brought
under the Fair Labor Standards Act). Further, at least one court
has observed that in Hosanna-Tabor “the Court did seem to cast
considerable doubt on the ‘primary duties’ test as used by the
Sixth Circuit below. Importantly, the ‘primary duties’ test has
been prominent throughout the federal circuits with a few
circuits now shifting away.” Kirby, 426 S.W.3d at 606 (citations
and footnote omitted). However, as explained below, whether
one examines DeWeese-Boyd’s “primary duties” or her
“functions” while employed at Gordon, one reaches the same
conclusion: she was not a “minister.”
28

82a
doing custodial work, none of which was religious in
nature.” Id. at 177. According to the Fifth Circuit,
“[a]pplication of the exception” did not “depend on
finding that Cannata satisfie[d] the same
considerations that motivated the [Supreme Court] to
find that [the plaintiff in Hosanna-Tabor] was a
minister within the meaning of the exception.” Id.
Instead, it was “enough” that Cannata “played an
integral role in the celebration of Mass and [by]
playing piano during services, [he] furthered the
mission of the church and helped convey its message
to the congregants.” Id. In reaching this conclusion,
the Fifth Circuit pointed out that it was important not
to “overemphasize” the “performance of secular
duties.” Id. (rejecting the idea that the ministerial
exception should be limited to those who perform
exclusively religious functions) (citing HosannaTabor, 565 U.S. at 193).
With few exceptions, later decisions continued to
follow this functional-type approach. In Fratello v.
Archdiocese of N.Y., 863 F.3d 190 (2nd Cir. 2017), the
Second Circuit’s first occasion to address the
ministerial exception after Hosanna-Tabor, id. at 192,
the former principal of a Roman Catholic school
alleged she was terminated from her position based
on gender discrimination and retaliation. Id. at 192.
In applying the exception, the Second Circuit stated,
“Hosanna-Tabor instructs only ... what [the courts]
might take into account as relevant ... it neither limits
the inquiry to [the four considerations identified] nor
requires their application in every case.” Id. at 204205. Instead, according to the Second Circuit, “courts
should focus primarily on the function[s] performed
by persons who work for religious bodies,” as “[i]t is

83a
the relationship between the activities the employee
performs for her employer, and the religious activities
that the employer espouses and practices, that
determines whether employment-discrimination laws
implicate the religious group’s First Amendment
rights[.]” Id. (quotations and citations omitted). The
Second Circuit ruled that the plaintiff was a minister
because, “[a]lthough her formal title was not
inherently religious, ... the record clearly
establishe[d] that she held herself out as a spiritual
leader of the school, and that she performed many
significant religious functions to advance its religious
mission.” Id. at 192.
The SJC likewise used the functional approach in
Temple Emanuel. In that case, the SJC applied the
ministerial exception to prohibit the plaintiff’s age
discrimination claim even though “she was not a
rabbi, was not called a rabbi, and did not hold herself
out as a rabbi.” 463 Mass. at 486. According to the
SJC, “the ministerial exception applie[d] to the
school’s employment decision regardless whether [the
plaintiff was] ... called a minister or h[eld] any title of
clergy” because “an employee’s title is not
determinative of ... status as a minister, and there is
consensus among the courts that a minister is defined
by ... function, rather than ... title.” Id. (citing
Hosanna-Tabor, 565 U.S. at 206 (Alito, J., concurring,
with whom Kagan, J., joined)).
Examination of a post-Hosanna-Tabor case in
which a court applied a functional approach, but
hewed closely to the Hosanna-Tabor factors is also
instructive. In Herx v. Diocese of Fort Wayne-South
Bend Inc., 48 F. Supp. 3d 1168 (N.D. Ind. 2014), “[t]he
Diocese of Fort Wayne-South Bend, Inc. and St.

84a
Vincent De Paul School declined to renew [the
plaintiff’s] teaching contract after learning that she
was undergoing in vitro fertilization in an effort to
become pregnant.” Id. at 1170. The plaintiff sued the
Diocese and school, claiming sex discrimination. Id.
The defendants argued on summary judgment that
the ministerial exception applied because:
[Although] [the plaintiff] wasn’t employed as a
religion teacher, she qualified as a “minister”
because the Church, the School, and the parents
of students at the school expected and relied on
her to perform the function of a minister every
day while teaching her students. According to
the Diocese, even [the plaintiff] agreed that
she was to provide students with an
example of how to live their faith to share
her devotion to God whenever she could.
These functions, the Diocese claims, go to
the heart of what makes St. Vincent de
Paul School a Catholic school.
Id. at 1176 (emphasis added).
Applying Hosanna-Tabor, the court in Herx
disagreed with the defendants and ruled that the
plaintiff was not a “minister” for purposes of the
ministerial exception. Id. at 1177. In so ruling, the
court stated:
The Diocese hasn’t shown that [the plaintiff’s]
teaching qualifications or job responsibilities in
any way compare to [the teacher in HosannaTabor]’s situation. Nothing in the summary
judgment record suggests that [the plaintiff] was
a member of the clergy of the Catholic Church.
[The plaintiff] has never led planning for a Mass,

85a
hasn’t been ordained by the Catholic Church,
hasn’t held a title with the Catholic Church, has
never had (and wasn’t required to have) any
religious instruction or training to be a teacher
at the school, has never held herself out as a
priest or minister, and was considered by the
principal to be a “lay teacher.” The religion
teachers for the Diocese schools have different
contracts than the nonreligion teachers and are
required to have religious education and
training. For example, [ ] a religion teacher in
the Diocese, has a Master’s Degree in Theology.
Labeling [the plaintiff] a “minister” based on her
attendance and participation in prayer and
religious services with her students, which was
done in a supervisory capacity, would greatly
expand the scope of the ministerial exception
and ultimately would qualify all of the Diocese’s
teachers as ministers, a position rejected by the
Hosanna-Tabor Court.
Id. at 1177.
B. The Totality Of The Circumstances Approach
In Determining Whether An Employee Qualifies
As A “Minister”
Since Hosanna-Tabor, while still focusing on the
employee’s functions, some courts have taken a
“totality of the circumstances” approach when
determining if an employee qualified as a minister.
One such court was the Seventh Circuit in Grussgott,
which was that court’s “first opportunity ... to address
the ministerial exception in light of Hosanna-Tabor.”
882 F.3d at 658.

86a
There, the plaintiff’s job titles (“grade school
teacher” and/or “Hebrew teacher”) and her use of
those titles, where she neither held herself out “as an
ambassador of the Jewish faith, nor ... understood
that her role would be perceived as a religious
leader[,]” did not necessarily support a finding that
the teacher was a minister under Hosanna-Tabor. Id.
at 659. Nevertheless, the Seventh Circuit decided the
teacher was a minister because, among other reasons,
the school “expected its Hebrew teachers to integrate
religious teachings into their lessons[,]” id. at 559; the
teacher’s resume “tout[ed] significant religious
teaching experience,” which the principal identified
as a “critical” factor in deciding to hire her, id.; “the
substance of [the teacher’s] title as conveyed to her
and as perceived by others entail[ed] the teaching of
the Jewish religion to students[,]” id. at 660; and,
“[the teacher] performed ‘important religious
functions’ for the school[ ]” because she “taught her
students about Jewish holidays, prayer, and the
weekly Torah readings [and] she practiced the
religion alongside her students by praying with them
and performing certain rituals.” Id. at 660 (internal
citation omitted).
In reaching the conclusion that the teacher was a
minister, the Seventh Circuit noted that “at most two
of the four Hosanna-Tabor factors [we]re present.” Id.
at 661. However, the court observed, “the same four
considerations [outlined in Hosanna-Tabor] need not
be present in every case involving the [ministerial]
exception,” id. at 658, and cautioned against “drawing
a distinction between secular and religious teaching
... when doing so involves the government challenging
a religious institution’s honest assertion that a

87a
particular practice is a tenet of its faith.” Id. at 660.
The Seventh Circuit ultimately concluded that “the
Supreme Court’s decision [in Hosanna-Tabor was] to
impose, in essence, a totality-of-the-circumstances
test.” Id. at 661.
C. Strict Adherence To The Hosanna-Tabor
Factors In Determining Whether An Employee
Qualifies As A “Minister”
Given the functional approach accepted by the
majority of jurisdictions and, in particular, by the SJC
in Temple Emanuel, DeWeese-Boyd’s argument for
strict adherence to the four factors announced in
Hosanna-Tabor, and her reliance on Biel v. St. James
Sch., 911 F.3d 603 (9th Cir. 2018), in support of that
argument are unpersuasive.
The Ninth Circuit’s decision in Biel appears to be
the only decision of a Federal Circuit Court that has
broken from the functional approach traditionally
applied in applying the ministerial exception and
rigidly applied the four factors of Hosanna-Tabor. In
that case, the plaintiff was a fifth grade teacher at a
Catholic elementary school.29 Id. at 605. Her duties
included praying with her students twice daily,
taking her students to monthly Mass, and teaching
them about the Catholic faith. Id. at 605.
Nevertheless, the Ninth Circuit concluded that the
plaintiff was not a minister because, compared to the
teacher in Hosanna-Tabor, the plaintiff had a less
“Biel d[id] not dispute that [the defendant school], as a
part of the Roman Catholic Archdiocese of Los Angeles, [wa]s the
type of religious organization that could potentially invoke the
ministerial exception as a defense.” Id. at 607.
29

88a
religious title and background, received less religious
training, had a smaller role in teaching religion, and
did not hold herself out as a minister. Id. at 608-610.
The Ninth Circuit reasoned that, even though the
plaintiff “taught lessons on the Catholic faith[, and]
incorporated religious themes and symbols into her
overall classroom environment and curriculum, .. this
shared characteristic alone” was not sufficient to
confer ministerial status. Id. at 609.
Since Biel, the Ninth Circuit has faced criticism
for this decision. Most notably, in June 2019, after it
declined to rehear Biel en banc, nine members of the
Ninth Circuit issued a dissent stating, in part:
By declining to rehear this case en banc, our
court embraces the narrowest construction of
the First Amendment’s “ministerial exception”
and splits from the consensus of our sister
circuits that the employee’s ministerial function
should be the key focus .... The panel majority’s
approach
conflicts
with
Hosanna-Tabor,
decisions from our court and sister courts,
decisions from state supreme courts, and First
Amendment principles. And it poses grave
consequences for religious minorities ... whose
practices don’t perfectly resemble the Lutheran
tradition at issue in Hosanna Tabor.
Biel v. St. James Sch., 926 F.3d 1238, 1239–1240 (9th
Cir. 2019) (Nelson, J., dissenting from denial of
rehearing en banc, with whom Bybee, J., Callahan, J.,
Bea, J., M. Smith, J., Ikuta, J., Bennett, J., Bade, J.,
and Collins, J. joined); see also Sterlinski v. Catholic
Bishop of Chicago, 934 F.3d 568, 570 (7th Cir. 2019)
(criticizing Biel for “disregarding what Biel’s

89a
employer (a Roman Catholic school) thought about its
own organization and operations,” and, instead,
asking “how much like [the plaintiff in HosannaTabor] a given plaintiff is, rather than whether the
employee served a religious function”). As such, this
Court will not follow the minority approach adopted
by the Ninth Circuit and advanced by DeWeese-Boyd.
D. Application Of The Kirby Framework In
Determining Whether An Employee Qualifies
As A “Minister”
In a pair of decisions that addressed the
ministerial exception for the first time after HosannaTabor, the Supreme Court of Kentucky refused to
adopt an “inelastic approach” and, like the Seventh
Circuit in Grussgott, ruled that “[t]he legal
determination of a minister, instead, requires a
review of the totality of the circumstances
surrounding the plaintiff’s employment.” Kant v.
Lexington Theol. Seminary, 426 S.W.3d 587, 591 (Ky.
2014). More significantly, the Supreme Court of
Kentucky provided specific guidance for trial courts to
use in determining the ministerial status of an
employee after Hosanna-Tabor.
Acknowledging that the Hosanna-Tabor Court
“did not provide[ ] any substantial guidance on how a
court should determine if an employee is a minister
for ministerial exception purposes,” id., the Court
stated, “that a trial court should undergo the
following review” in making such a determination:
When considering the formal title given, a trial
court should weigh whether the title is
inherently, exclusively, or primarily religious.
The consideration of the substance reflected in

90a
the title should include the duties and
responsibilities associated with the title.
The trial court, in looking to the associated
duties and responsibilities, may look at whether
they carried substantial religious significance,
involved supervision or participation in religious
ritual and worship, or spreading the tenets or
doctrine of the faith. The employee’s own use of
the title should include consideration of whether
the position involved, expected, or required
proselytizing on behalf of the religious
institution. Or, did the employee use the title in
a manner that would indicate to the members of
the particular faith community or to the public
that he was a representative of the religious
institution authorized to speak on church
doctrine. Finally, consideration of the
important functions performed for the
religious institution should involve a review of
whether those functions were essentially
liturgical, closely related to the doctrine of
the religious institution, resulted in a
personification
of
the
religious
institution’s beliefs, or were performed in
the presence of the faith community.
Id. at 591–592 (citing Kirby v. Lexington Theol.
Seminary, 426 S.W.3d 597, 613-614 (Ky. 2014)
(emphasis added)).30 “If, after the consideration of
these factors, in light of the totality of the
circumstances, the trial court finds an employee is a
minister under the law, the religious institution is
The Supreme Court of Kentucky issued the decisions in
Kant and Kirby on the same day.
30

91a
entitled to the benefit of the ministerial exception.”
Kirby, 426 S.W.3dat 614.
After exhaustive consideration of cases applying
Hosanna-Tabor, and reported decisions prior to
Hosanna-Tabor, this Court believes that the
framework announced by the Supreme Court of
Kentucky in Kirby is an excellent, thoughtful,
pragmatic approach to determining whether an
employee qualifies as a “minister” after HosannaTabor. To be sure, as the above highlighted portion of
the Kirby framework illustrates, it carries on the
functional approach in many ways. Moreover, the
Kirby framework appears to be mindful of the
overarching purpose of the ministerial exception:
avoidance of governmental interference in the
internal decision-making by a religious institution
regarding the retention, promotion, and hiring of “any
‘employee’ who leads [it], conducts worship services or
important religious ceremonies or rituals, or serves as
a messenger or teacher of its faith.” Hosanna-Tabor,
565 U.S. at 199 (Alito, J., concurring with whom
Kagan, J., joined). As such, this Court will adopt the
Kirby framework here.
In Kirby, the Supreme Court of Kentucky
considered whether a tenured professor of a
seminary, “teaching Christian social ethics for fifteen
years,” was a minister for purposes of the exception.
Id. at 603. After ruling that “it is beyond question that
the [defendant] Seminary exists as a religious
institution under the ministerial exception[,]” id. at
609, the Court in Kirby turned its attention to “[t]he
determination of whether [the plaintiff] [wa]s a
ministerial employee, [which] [wa]s much more
complicated than the determination of the Seminary’s

92a
religious-institution status.” Id. at 611. The Court
ruled that the fact that “[the plaintiff] [wa]s not
ordained ... [wa]s not dispositive. Given [his]
extensive involvement in the Seminary’s mission,
religious ceremonies, and the subject matter of
Kirby’s teaching, it [wa]s clear that [the plaintiff]
[wa]s a ministerial employee.” Id. at 611.
In reaching the conclusion that Kirby was a
minister, the Court considered the following: (a) in
hiring Kirby, “the Seminary ... ‘issued a call to carry
out [his] ministry by serving as Instructor of Church
and Society[,]’ ” id. at 611; (b) “Kirby was tasked with
carrying out the mission of the Seminary to prepare
students for the ministry of Jesus Christ[,]” id.; (c)
“Kirby’s teaching focused on ‘helping students
understand what the basic socio-ethical issues [we]re
and the nature of the Christian (or Christlike)
response’ ” and “emphasiz[ed] ‘Christian methods of
moral judgment’ [as an] important aspect[ ] of his
professorial role[,]” id.; (d) “Kirby began each class
with a voluntary participatory prayer regarding the
social issues and injustices he taught about[,]” id. at
611–612; and, (e) “Kirby participated in chapel
services, convocations, faculty retreats, and other
religious events [and he] preached on numerous
occasions at both his own [ ] congregation and various
Christian Church (Disciples of Christ) congregations.”
Id.
In sum, after consideration of the above in light of
the framework previously announced, the Court:
[C]onclude[d] that Kirby [wa]s closely connected to
the tenets of the faith espoused by the Seminary
and actively involved in the promotion of the

93a
Seminary’s mission. As a professor at an
ecumenical Seminary, instructing on Christian
principles, Kirby serve[d] as a representative of the
Seminary’s message. Kirby ha[d], on multiple
occasions, served as the Seminary’s official
representative, ambassador, and voice to the
faithful.
...
Kirby satisfie[d] most of the factors listed above. He
gave sermons on multiple occasions, served
communion, taught classes on Christian doctrine,
opened class with prayer each day, affirmatively
promoted students’ development in the ministry,
and served as a representative—a literal
embodiment—of the Seminary at events on
multiple occasions. The record is clear that Kirby
conducted worship services, important religious
ceremonies and rituals, and acted as a messenger
of the Seminary’s faith. He [wa]s most certainly a
ministerial employee of the Seminary.
Id. at 612–613 (footnote omitted), 614.
Most importantly for the case here, the Kirby
Court:
[P]ause[d] to emphasize the link between the
employee’s title or conduct and the actual tenets
or doctrine of the religious institution. It is
important that as a ministerial employee,
the employee be involved with the tenets of
the faith. As detailed in Kant, an employee
simply engaging in religious discourse
cannot serve as a minister of the religious
institution without involving himself in

94a
the doctrine or tenets of the faith. Simply
promoting the mission of the religious
institution alone is not sufficient.
Id. at 613 n.63 (emphasis added).
In Kant, decided the same day as Kirby, the
Supreme Court of Kentucky was “present[ed] [with]
the question [of] whether the ministerial exception
categorically applie[d] to all professors employed by
seminaries.” Kant, 426 S.W.3d at 588. In that case,
“Laurence Kant [ (“Kant”) ] was a tenured Professor
of Religious Studies at Lexington Theological
Seminary, employed to teach courses on several
religious and historical subjects. The Seminary
terminated his employment, and Kant challenged the
legitimacy of his termination by filing [an] action for
breach of contract.” Id.
The Court in Kant “h[e]ld that Kant was not a
ministerial employee of the Seminary.” Id. at 589. In
doing so, the Court “reject[ed] a categorical
application of the ministerial exception that would
treat all seminary professors as ministers under the
law. Each case must be reviewed on the totality of its
facts as [it] outlined in Kirby.” Id. “[Professor] Kant,
as opposed to Kirby, did not participate in
significant religious functions, proselytize, or
espouse the tenets of the faith on behalf of his
religious institutional employer.” Id. (emphasis
added).
Faculty at the Seminary in Kant (i.e., the same
seminary as in Kirby) were expected to adhere to a
Faculty Handbook, which “stated the fundamental
responsibility of faculty ‘shall be to uphold the
purpose of [the] Seminary to prepare faithful leaders

95a
for the Church of Jesus Christ and, thus, to
strengthen the Church’s participation in God’s
mission for the world.’ ” Id. at 589–590. Further,
“although there was no ordination requirement,
faculty were expected ‘to serve as models for
ministry[,]’ ” id. 590, and “were ‘expected’ but not
required to participate in Seminary worship services
and convocations.” Id. Moreover, as the Court
observed:
In the circumstances of the instant case, we find
it important to emphasize the connection
between the religious institution’s employee and
the doctrine or tenets of the religious institution.
A minister, in the commonly understood sense,
has a very close relationship with doctrine of the
religious institution the minister represents.
The members of the congregation or faith
community view a minister as one who is, among
other things, the face of the religious institution,
permitted to speak for the religious institution,
the embodiment of the religious institution’s
tenets, and leader of the religious institution’s
ritual. Kant did none of these things.
Id. at 592.
Upon becoming a tenured professor, Kant’s title
was “Associate Professor of the History of Religion.”
Id. at 592. During his employment, Professor Kant
participated in chapel services, was a scripture reader
at two ordination ceremonies, once served as a greeter
for a communion service, once gave an ordination
sermon, once gave the benediction a the student
orientation chapel service, served as Chair of the
Convocation Committee for two years, and gave the

96a
invocation at two faculty meetings. Id. at 593. “Kant
acknowledge[d] his participation in Seminary events,
including convocations and chapel services. But[,] he
claim[ed] he never did so as a Christian, rather, as a
teacher and Jew.” Id. “In light of Kant’s participation
in the Seminary and its mission,” the Court turned “to
the Kirby factors [to] determine if Kant qualifie[d] as
a minister,” id., and held that Professor Kant was not
a minister for the purposes of the ministerial
exception. Id. at 596.
In so holding, the Kant Court stated: (a) “Kant’s
formal titles given by the Seminary were not
inherently, exclusively, or primarily religious,”
although “serving as a professor of [religious studies
and history] inherently involves religion, ... [b]ut
there [wa]s no indication that the title ha[d] any
significance to the particular religious views of the
Seminary[,]” id.; (b) “the substance reflected in Kant’s
title similarly indicate[d] an absence of any
connection to the faith of the Seminary[,]” id. at 594;
(c) although, “the duties and responsibilities
associated with Kant’s title include[d] the promotion
of the Seminary’s mission and participation in
Seminary events ... these duties alone [we]re [not]
enough to label Kant a ministerial employee[,]”
because his “role did not ‘involve, expect, or require
proselytizing on behalf of the religious institution[,]’ ”
id.; (d) “Kant did not, in the context of the Seminary’s
strong connection with the doctrine of the Christian
Church (Disciples of Christ), perform any ‘important
functions’ for the Seminary[,]” id.; and, (e) “the
functions performed by Kant were not liturgical, did
not personify the Seminary’s beliefs, and were not

97a
performed in the presence of the faith community.”31
Id.
E. Application Of The Hosanna-Tabor Factors,
The Kirby Framework, And The Functional
Approach In This Case
In applying the Kirby framework (which
necessarily involves the application of the HosannaTabor factors) and the functional approach outlined
above, this Court concludes that DeWeese-Boyd does
not qualify as a ministerial employee for several
reasons. First, notwithstanding the numerous
aforementioned provisions in Gordon College’s
Faculty Handbook, other governing documents,32 and
other places in the record mandating that faculty
members support and promote Gordon’s evangelical
Christian doctrine and mission (e.g., expecting faculty
members to be “both educators and ministers to
Gordon’s students,” to “approach[ ] [their] educational
tasks from within the fixed reference points of biblical
theism,” “to be fully prepared in all facets of their
“As Kant admit[ed], as a practicing Jew, he [wa]s not
licensed as Christian clergy or qualified to partake in or lead any
Christian rites of worship. While an employee practicing a
different religion than the religious institutional employer [wa]s
not dispositive, it [wa]s indicative of the employee’s relationship
to the tenets of the faith espoused by the Seminary.” Id.
31

In addition to other governance documents, such as the
Social Work Handbook and the Memorandum of Understanding,
there are numerous instances in the record where DeWeeseBoyd acknowledged Gordon College’s expectation that she would
integrate the Christian faith into her teaching. These include the
2002 cover letter accompanying her first integration paper and
her 2009 application for tenure and paper entitled “Reflections
on Christian Scholarship.”
32

98a
tasks as Christian teachers and advisors, both inside
and outside the classroom,” and, “to strive to engage
students in their respective disciplines from the
perspective of the Christian faith and to teach with
accuracy and integrity.”), “[t]he simple promotion of a
religious institution’s mission, alone, provides little
insight into whether the duties or responsibilities
undertaken by the employee ‘carried substantial
religious significance.’ ” Kant, 426 S.W.3d at 594
(footnote omitted). To be sure, “mission promotion in
no way indicates whether the employee’s duties or
responsibilities involved ‘supervision or participation
in religious ritual and worship[ ] or spread[ing] the
tenets or doctrine of the faith.’ [Instead,] [t]he conduct
said to be in promotion of the religious institution’s
mission must be linked to the tenets of the religious
institution’s faith.” Id. (citations and footnotes
omitted). Here, although DeWeese-Boyd was expected
to integrate the principles and concepts that underlie
the Christian evangelical tradition with her teaching,
she had no religious duties and did not actively
promote the tenets of evangelical Christianity.
Second, DeWeese-Boyd’s “role did not ‘involve,
expect, or require proselytizing on behalf of [Gordon
College].’ ” Id. Based on the record before the Court,
the Court concludes that Gordon’s requirement of the
integration of faith and teaching by a social work
professor did not involve any expectation that she
would actively proselytize or preach religious tenets
or doctrine to the students in her classes.
Third, DeWeese-Boyd did not “use h[er] role in
any way that would indicate to the members of the
faith [s]he was a ‘representative of the religious
institution authorized to speak on church doctrine.’ ”

99a
Id. She neither held a ministerial title nor held herself
out as a minister. Rather, like Professor Kant,
DeWeese-Boyd’s “professorial role[, at most,]
exemplifie[d] the distinction between ‘teaching about
religion’ and ‘the teaching of religion.’ [In fact,] [t]he
record does not evince any example of [DeWeeseBoyd] holding h[er]self out as an employee authorized
to speak on church doctrine.” Id. 594–595.
Fourth, DeWeese-Boyd did not perform any
important religious functions for Gordon College. In
making this determination when applying the Kirby
framework, the Court “consider[s] whether the
functions performed by [DeWeese-Boyd] ‘were
essentially liturgical, closely related to the doctrine of
the religious institution, resulted in a personification
of the religious institution’s beliefs, or were performed
in the presence of the faith community.’ ” Id. at 595.
Even if one assumes DeWeese-Boyd may have “dealt
closely with religious texts, biblical languages, and
scriptural interpretations[,]” (which would be
stretching the summary judgment record before this
Court) id., and may even have been, in a general
sense, “a ‘source of religious instruction,’ ” id.;
DeWeese-Boyd “did not play ‘an important role in
transmitting [Gordon’s] faith to the next
generation.’ ” Id. Other than attending on-site chapel
and local church services with her students, on an
unknown number of occasions, DeWeese-Boyd
performed almost no liturgical or ecclesiastical
functions for Gordon, especially when compared to the
functions performed by Professor Kant and teachers
in other cases applying the ministerial exception. See
e.g., Herx, 48 F. Supp. 3d at 1176–1177. She was not
responsible for leading students in prayer or

100a
devotional exercises; she did not lead chapel services,
or even select liturgy, hymns, or other content for
chapel services; she did not teach religion or the Bible;
and, she did not play a particular role as a minister or
spiritual leader.
In sum, although DeWeese-Boyd had a seminary
degree when hired, she did not have a religious title
at Gordon,33 she did not represent herself as a
minister, she did not play an integral (or any) role in
religious services, she did not convey Christian
doctrine to the Gordon community, she did not lead
her students in prayer, and she did not perform any
religious functions. Although she was responsible for
integrating the Christian evangelical faith into her
teaching
and
advancing
Gordon
College’s
distinctively Christian perspective and worldview,
“[t]he primary focus under the law is on the nature of
the particular employee’s work for the religious
institution.” Kant, 426 S.W.3d at 595. DeWeeseBoyd’s work did not make her a minister for purposes
of the ministerial exception.34 See Richardson v.
Northwest Christian Univ., 242 F. Supp. 3d 1132,
1145 (D. Or. 2017) (ministerial exception did not
apply where “plaintiff’s title, assistant professor of
Referring to faculty members in passing as “ministers” in
the Faculty Handbook does not make them ministerial
employees for purposes of the exception.
33

The Court recognizes that, as a religious institution,
Gordon College has the right to shape its own faith and mission
through its appointments, and a Court should not entangle itself
in these ecclesiastical decisions. However, the law is clear that
antidiscrimination and other laws apply to decisions by religious
institutions that do not involve ministers, such as DeWeeseBoyd.
34

101a
exercise science, was secular”; “plaintiff did not
undergo any specialized religious training”; “although
there [wa]s ample evidence plaintiff held herself out
as a Christian, there [wa]s no evidence she held
herself out as a minister”; and, although “plaintiff
performed some important religious functions in her
capacity as a professor[,] [and] [s]he was expected to
integrate her Christianity into her teaching and
demonstrate a maturing Christian faith[,]” her
“religious function was wholly secondary to her
secular role: she was not tasked with performing any
religious instruction and she was charged with no
religious duties such as taking students to chapel or
leading them in prayer.”); Bohnert v. Roman Catholic
Archbishop of San Francisco, 136 F. Supp. 3d 1094,
1114 (N.D. Cal. 2015) (Catholic high school biology
teacher was not a minister where, although she spent
one-fifth of her time performing ministry duties, the
duties were mostly logistical rather than providing
actual spiritual or religious guidance); Braun v. St.
Pius X Parish, 827 F. Supp. 2d 1312, 1319 (N.D. Okla.
2011) (teacher of secular subjects was not a minister;
although plaintiff had to “ ‘adopt and embrace the
concept that teachers are ministers of the Catholic
faith,’ ” plaintiff was required “to ‘teach and act in
accordance with the precepts of the Catholic Church’
and to ‘aid in the Christian formation of students,’ ”
the defendants failed to “articulate[ ] specific
responsibilities or actions that might be considered
ministerial,” such as leading students in prayer);
Redhead v. Conference of Seventh-Day Adventists,
440 F. Supp. 2d 211, 221 (E.D. N.Y. 2006) (teacher
was not a minister where her “teaching duties were
primarily secular; those religious in nature were

102a
limited to only one hour of Bible instruction per day
and attending religious ceremonies with students
only once per year.”); Guinan v. Roman Catholic
Archdiocese of Indianapolis, 42 F. Supp. 2d 849, 852
(S.D. Ind. 1998) (teacher was not a minister,
notwithstanding that she “did participate in some
religious activities as a teacher at All Saints, but it
cannot be fairly said that she functioned as a minister
or a member of the clergy”); Geary v. Visitation of
Blessed Virgin Mary Parish Sch., 7 F.3d 324 (3d Cir.
1993) (refusing to apply the ministerial exception to a
lay teacher at a Catholic church school,
notwithstanding the teacher’s general employment
obligation to be a visible witness to the Catholic
Church’s philosophy and principles); DeMarco v. Holy
Cross High Sch., 4 F.3d 166, 172 (2d Cir. 1993)
(refusing to apply the ministerial exception to a math
teacher at a Catholic high school because the
relationship between employee and employer was not
“so pervasively religious” that it was impossible to
engage in an employment discrimination inquiry
without serious risk of offending the Establishment
Clause).
At bottom, “[i]f [DeWeese-Boyd] was a minister, it
is hard to see how any teacher at a religious school
would fall outside the exception.” Richardson, 242 F.
Supp. 3d at 1145. As such, Defendants’ Motion is
DENIED and Plaintiff’s Cross-Motion is ALLOWED.
ORDER
For the reasons stated above, it is hereby
ORDERED that:

103a
1. Defendants’ Motion For Summary Judgment
On The First Amendment Ministerial Exception
(Paper No. 33) is DENIED.
2. Plaintiff’s Cross-Motion On The First
Amendment Ministerial Exception (Paper No. 33.2) is
ALLOWED.
3. The affirmative defense of the ministerial
exception is HEREBY DISMISSED.

104a

To:
From:
Re:
Date:

Margie DeWeese-Boyd
Faculty Senate
Application for Promotion
December 15, 2016

The Senate has carefully reviewed and discussed all
of the materials submitted for your promotion and
tenure review. It is with great pleasure that we are
able to inform you that we have passed along a
recommendation to the Provost, by unanimous vote,
that you be promoted to full professor. We found you
to be meritorious in teaching and institutional service
and your scholarship was assessed at the expected
level.
The portfolio you prepared, along with supporting
documentation that included letters of support from
both departmental and non-departmental colleagues,
student classroom assessments, course syllabi, and
samples of scholarly activity provided ample evidence
that you have made considerable contributions to the
Gordon community. The Senate appreciates the
energy and vitality you bring as a faculty member.
In terms of your teaching effectiveness, the file
demonstrates that you are a skilled educator who
regularly reflects on and refines your teaching
practices; including touching on matters ranging from
overall course design and pedagogical strategy all the
way down to the conduct of individual class sessions.
You have a well-developed philosophy of teaching that

105a
creates a rigorous and challenging classroom
environment that encourages critical thinking.
Although the number of course/instructor evaluations
were limited compared to the number that we
normally review, we realize that this is a function of
the significant administrative and practicum duties
you carry for the department. Nonetheless, students
routinely give you exemplary marks (on average 4.4
or higher on a 5-point scale) for the overall experience
you deliver in the classroom. It was refreshing to
learn that students see you working hard to create a
safe, hospitable environment that encourages them to
speak up in class. We also want to commend you for
exploring new pedagogical techniques as a means to
deepen your students’ learning. Taking these risks
can be worth the effort to become a more effective
educator. It was wonderful to see comments by a
colleague say, “The only regret we have with respect
to Margie’s teaching is that her current social work
program responsibilities mean that students have
limited opportunities to encounter her in the
classroom.” We concur.
In terms of your contributions to scholarship and
professional activity, since your last promotion in
2004-05, it is clear you have broad academic interests.
Your affiliation with nine professional organizations
that span disciplines such as political science, social
welfare,
economic
development,
community
organization, among others, is a testament to your
breadth and desire for faithful Christian reflection to
permeate real-world applications geared toward
communal flourishing. In terms of productivity, the
articles, book reviews, and professional conference
presentations you have completed since your previous

106a
promotion is on par with what we expect for a faculty
member at this point in her career. We wish to
acknowledge your excitement about pursuing
research in a long standing area of interest you have
had in intentional Christian communities. More
importantly, we are encouraged to see that you have
a plan in place for developing your future scholarship.
In the area of institutional service, we were
encouraged to learn that when your department lost
two of its members you stepped up to the plate and
took on the position of Director of Social Work
Practicum which involves the important tasks of
developing new placement sites and becoming a
liaison to community-based supervisors. One
departmental colleague put it this way, “Margie’s
willingness to do all of this is hardly surprising,
however, as it is wholly consistent with the spirit of
sacrificial service to the social work program that she
and others have long cultivated in the department.”
We acknowledge the work you invested in developing
and now coordinating a minor in Sustainable
Development. We were also heartened to learn that
students use the minor to build a major in
Sustainable Development through the Kenneth Pike’s
Honors Program. In addition to the minor you
brought to Gordon, we also commend you for
proposing and designing a sustainable agriculture
program that delves into experiential exploration of
topics such as community, sustainability and
agriculture. We hope that in the near future you will
be able to launch the program and see it flourish.
Overall, the Senate was impressed with your
accomplishments. We are grateful for the excellent
teaching, thoughtful scholarly work, and the

107a
significant contributions you have made. Although
this will be your last promotion in rank at Gordon, we
look forward to your continued development as a
teacher, advisor, and scholar.

108a

February 8, 2017
Dr. Margaret DeWeese-Boyd
Department of Sociology and Social Work
Dear Margie,
The Faculty Senate recommend you for promotion,
but after carefully reviewing your file. I chose not to
forward that recommendation to President Lindsay
and the Board of Trustees. However, I did provide
President Lindsay with the Senate letter of support
and your application for promotion. He concurred
with my assessment. In light of that decision, I want
to share with you some of the areas that inform my
evaluation.
First, let me affirm you as a strong teacher. Your
teaching evaluations are very high and the social
work students sense your love for them and your
desire to engage with them to deeper levels of
understanding. This is clearly where you excel, and I
would love to see you have more time in the classroom
because you this is a strong area in your professional
performance at Gordon.
The next topic relates to scholarly productivity. Your
promotion to associate professor began in the 20042005 academic year. You published four peerreviewed articles over the following three years, but
your scholarly productivity has been limited to only a
single publication since 2008. That does not reflect a
sustained level of scholarship, and does not reach

109a
acceptable levels of scholarly productivity for a
Gordon faculty member, especially one who has been
granted two sabbaticals during this time (fall of 2010
and fall of 2015). I had difficulty assessing your
professional presentations because of the mixing of
“participant” with “presenter” on your vita, but it
appears that you have not made a professional
presentation since 2013. I encourage you to get the
full benefit of your last sabbatical and the
manuscripts and projects that are in process and
build a sustained track record of scholarship. This is
essential for a faculty promotion at Gordon.
Beyond your need for greater scholarly productivity, I
want to encourage you to make greater progress in
your professionalism and institutional service. Let me
offer three substantive evaluations. First, you have
established a track record of initiating or seeking out
institutional tasks. And when it is your idea or
passion, you can make a meaningful contribution. An
example would be the “listening retreat” you coorganized with Professor Elaine Phillips two years
ago. That was a real benefit to all involved, and you
were diligent with the planning and with the followthrough. But in other instances, you fail to follow
through or demonstrate enough diligence to bring a
project to completion. One example would be the
sustainable agriculture semester proposal. The
College has come close to moving forward on this
proposal three times, but it failed each time due to
lack of follow-through on your part. .
Second, you do not act with consistent
professionalism, and this is essential for faculty
members, particularly faculty leaders who achieve
the rank of full professor. Let me mention a few

110a
examples. All faculty are required to give a sabbatical
presentation based on the research completed during
their College-funded time away from the classroom.
You neglected to complete this in a timely fashion as
others did at the 2016 Fall Faculty Workshop. In
addition, several colleagues on campus report a lack
of responsiveness on your part. I have personally
experienced this even as you applied for this
promotion. I recently asked you to provide a list of
publications with full publication information as well
as the confirmed date of your last promotion. I got no
response. (As an aside, your vita falls short of
standards within academe. Faculty Senate and I both
noticed that items on your vita were out of
chronological order or were incomplete, and many
things were lumped into one category. In addition,
while reviewing your file, I noticed that a title to one
of your published articles was incorrect. This points
to a lack of professionalism that is expected of Gordon
faculty.)
To be candid, lack of responsiveness has been seen in
your institutional service as well. Last year, for
instance, I asked (given your leadership role within
the social work program) you to provide an
alternative load staffing model for the social work
department when I introduced a proposal based on
other institutions. Many months later, I have yet to
get one. And after I appointed Professor Ivy George as
Director of Social Work (at your request), I found out
that you had taken over the position without
permission. The Provost and Dean of the Faculty
make leadership appointments in consultation with
the faculty. You acted without consulting either of us
and, in the process, put the program at risk. There

111a
are, of course, examples, where you act with great
professionalism and courtesy to others. We are
grateful for your service on the sustainability
committee and the Pike program committee. At the
same time, you appear unaware of significant gaps in
your professional demeanor, and despite multiple
overtures, you are unresponsive to requests for
improvement.
Third, I would like to see growth in your broad
commitment to the Gordon academic division through
more sustained engagement. As a member of the
Gordon faculty, often we have to take on work that
contributes to the whole that is not necessarily our
area of direct interest. In 2015 we hoped you would
take leadership of the Pike committee for one
semester because of the need for a social science
representative and faculty chair, but you were not
willing. This is part of a larger pattern of inconsistent
contributions to the institution. When you want to do
something, you are willing, but sometimes when the
institution asks you to step up, you decline. This
needs to change.
To conclude, as I have carefully reviewed your
performance, I have concluded that your performance
is meritorious in teaching, but not in scholarship or
institutional service. As a result, I cannot support
your application for promotion. That said, Margie, I
believe you have much to contribute to the Gordon
faculty, and I hope this detailed feedback will provide
concrete ideas for improvement in the years ahead.
Sincerely,
Janel Curry
Provost

112a
COMMONWEALTH OF MASSACHUSETTS
ESSEX, ss.
SUPERIOR COURT DEPARTMENT
OF THE TRIAL COURT
MARGARET DEWEESEBOYD,
Plaintiff,
v.

Civil Action No.
1777CV01367

GORDON COLLEGE, D.
MICHAEL LINDSAY and
JANEL CURRY,
Defendants.
AMENDED CONSOLIDATED STATEMENT OF
UNDISPUTED MATERIAL FACTS
The parties submit the following consolidated
statement of the material facts pursuant to Mass. R.
Civ. P. 56 and Superior Court Rule 9A. This amended
statement of facts is being submitted pursuant to the
Court’s Order Regarding Consolidated Statement of
Undisputed Facts, dated November 6, 2019.
DEFENDANTS’ STATEMENT OF MATERIAL
FACTS IN SUPPORT OF MOTION FOR
SUMMARY JUDGMENT
1. Gordon’s Bylaws state, among other things,
that the Commonwealth of Massachusetts chartered
Gordon for the purpose of carrying on the faith-based
educational work begun in 1889 by Gordon’s founder,

113a
the Reverend Adoniram Judson “A.J.” Gordon. Exh.
1—DEF000508.
RESPONSE:
DEF000508.

Denied.

Gordon

Exh.

1,

2. Gordon’s Restated Articles of Organization
state, among other things, that Gordon was formed to
provide instruction in the Bible and to prepare men
and women for the duties of the Christian ministry
and other special forms of Christian work. Exh. 2—
DEF00053l.
RESPONSE: Admitted.
3. Gordon’s Bylaws state, among other things,
that Gordon is dedicated to the evangelical, biblical
faith; scholarship that is integrally Christian; life
guided by the teaching of Christ and the
empowerment of the Holy Spirit; and application of
biblical principles to transform society and culture.
Exh. 1-- DEF000508.
RESPONSE: Admitted.
4. To ensure the College does not stray from its
religious mission, its former Trustees issued a
mandate that it transfer its assets to the American
Bible Society, should it be determined that the
College has not lived up to these religious principles.
Exh. 3—DEF000530.
RESPONSE: Denied. Exh. 3, at DEF000529-30.
5. Gordon’s articulated mission is, among other
things, to graduate men and women distinguished by
intellectual maturity and Christian character. Exh.
4—DEF000054.
RESPONSE: Admitted.

114a
6. Gordon’s Faculty Handbook provides, among
other things, that Gordon approaches its educational
tasks from within fixed reference points of biblical
theism. Exh. 4—DEF000055.
RESPONSE: Admitted.
7. Gordon’s Faculty Handbook states that “[t]he
principal ingredients of [Gordon’s] academic
profession of faith” include, inter alia, God, Creation,
the integration of “faith and learning,” and the
“Christian
Calling.”
Exh.
4—DEF000055DEF000056.
RESPONSE: Admitted.
8. The Faculty Handbook states the Gordon
community is challenged with, among other things,
pursuing truth as revealed by God in Christ,
Scripture and creation; developing a Christian
worldview as a basis for both informed reflection and
a reformation of culture; beginning a journey of
lifelong, faith-directed learning; serving the Body of
Christ with commitment, fidelity and self-sacrifice;
acquiring a sense of vocation and calling before God
and proclaiming and living out the gospel. Exh. 4—
DEF000054-DEF000055.
RESPONSE: Admitted.
9. Gordon
requires
that
all
faculty,
administrators, and trustees sign Gordon’s Christian
Statement of Faith, through which they acknowledge
personal agreement that the “66 canonical books of
the Bible as originally written were inspired of God”
and that there “is one God, the Creator and Preserver
of all things, infinite in being and perfection.”. Exh.
5—DEF000520; Exh. 6—DEF000521.

115a
RESPONSE: Admitted.
10. Gordon community members must agree to
abide by Gordon’s Statement on Life and Conduct,
which includes an affirmation of Christian faith. Exh.
4—DEF000058, DEF000085.
RESPONSE: Admitted.
11. Each Gordon trustee must sign the Statement
of Faith, be a confessing Christian, an Evangelical
who is actively worshipping and serving in a
Christian church, and an individual who is committed
to the enterprise of Christian higher education. Exh.
1—DEF000508.
RESPONSE: Admitted.
12. Gordon’s Memorandum of Understanding
requires employee applicants to acknowledge being a
committed follower of Jesus Christ, confirm personal
agreement with the Statement of Faith, and agree to
abide by the Statement of Life and Conduct. Exh. 5—
DEF000520.
RESPONSE: Admitted.
13. Gordon's President, D. Michael Lindsay,
testified that all employees must be “committed to the
evangelical mission of the institution. And journeys of
faith are evaluated at the departmental level when
employees are hired, and they annually reaffirm their
commitment through the performance review
process.” Exh. 7—p. 18.
RESPONSE: Admitted.
14. President Lindsay testified that “[w]hen I
interview a faculty member, I will liken joining
Gordon College to joining a religious order ... and

116a
being able to embrace the Christian mission and
purpose of the institution.” Exh. 7—p 42.
42.

RESPONSE: Denied. Exh. 7 (Lindsay Dep.), at

15. Applicants for admission as students at
Gordon must become familiar with the Life and
Conduct Statement and Statement of Faith to ensure
they will abide by the guidelines if admitted as a
student, and must explain why they are interested in
attending a distinctively Christian college like
Gordon College, describe their faith in Jesus Christ,
and certify that they have read and accept the Life
and Conduct Statement and Statement of Faith. Exh.
8—DEF000500, DEF000504.
RESPONSE: Admitted.
16. President
Lindsay
testified
that
“[u]ndergraduates have to have a profession of
Christian faith; they have to be able to talk about that
in the admissions interview; and they also submit a
spiritual reference in their application for admission.
Exh. 7—pp. 15-16.
RESPONSE: Admitted.
17. All Gordon students are required to complete
the College’s “Core Curriculum,” the purpose of
which, among other things, is to foster knowledge of
God’s character and purpose as revealed in Scripture
and understood in the life of the Church and
development
of
Christian
character,
moral
discernment and civic responsibility. Exh. 9—
DEF000525.
RESPONSE: Admitted.

117a
18. The Core Curriculum’s required classes
include “Old Testament History, Literature and
Theology”; “New Testament History, Literature and
Theology”; and “Christian Theology.” Exh. 9—
DEF000526.
RESPONSE: Admitted.
19. President Lindsay testified that Gordon has
mandatory “Christian Life and Worship” credits that
students must earn each semester, which can be
fulfilled by attending chapel services or other faithbased events on campus. Exh. 7—pp. 38-39.
RESPONSE: Admitted.
20. President Lindsay testified that the College
has two chapels set aside for prayer and meditation-the A.J. Gordon Chapel and the Bethel Chapel. Exh.
7—pp. 23-24.
RESPONSE: Admitted.
21. President Lindsay testified that the College
has on display throughout the campus religious art,
Bible verses, and Christian artifacts, and it plays
Christian music around campus. Exh. 7—p. 24.
RESPONSE: Admitted.
22. Gordon’s Board of Trustees approved the
following statement:
The Board of Trustees of Gordon College of
Theology and Missions officially records the
absolute loyalty of the College to the great
evangelical doctrines of the Deity of Christ,
the Only-begotten Son of God; his miraculous
Birth; his sinless Life; his vicarious Death; his
bodily Resurrection; his triumphal Return;

118a
the Holy Spirit is the third Person of the
Trinity; and the Bible as the supernaturally
inspired word of God;--and in accepting the
confidence and the gifts of evangelical
Christians they hereby pledge the College to
such loyalty as its permanent policy, and
agree that the Trustees will now and
hereinafter hereafter engage or retain as
regular officers, professors or insturctors (sic)
only such persons as a firm genuine loyalty to
these doctrines. Exh. 3—DEF000530.
RESPONSE: Admitted.
23. Gordon’s Faculty Handbook states, among
other things, that all professors are expected to
promote understanding of their disciplines from the
perspectives of the Christian faith. Exh. 4—
DEF000087, DEF000060.
RESPONSE: Admitted.
24. The Faculty Handbook states, among other
things, that Gordon professors are expected to be fully
prepared in all facets of their tasks as Christian
teachers and advisors, both inside and outside the
classroom; and to strive to engage students in their
respective disciplines from the perspectives of
Christian faith. Exh. 4—DEF000087.
RESPONSE: Admitted.
25. The Faculty Handbook states, among other
things, that one of the distinctives of Gordon College
is that each member of faculty is expected to
participate actively in the spiritual formation of its
students into godly, biblically-faithful ambassadors
for Christ. Exh. 4—DEF000113.

119a
RESPONSE: Admitted.
26. The Faculty Handbook states, among other
things, that in the Gordon College context, faculty
members are both educators and ministers to its
students. Exh. 4—DEF000113. This language was
adopted and governed faculty in October, 2016, prior
to the decision by the College not to promote the
Plaintiff to full professor. Exh. 4—DEF000113.
RESPONSE: Admitted.
27. The Faculty Handbook states, among other
things, that “integration” of faith and learning
includes the professor’s ability to help students make
connections between course content, Christian
thought and principles, and personal faith and
practice; and encourage students to develop morally
responsible ways of living in the world informed by
biblical principles and Christian reflection. Exh. 4—
DEF000114-DEF000115.
RESPONSE: Admitted.
28. Gordon’s Faculty Handbook states, among
other things, that among the tasks of the Christian
educator, none is more important than that which
seeks the integration of faith, leaning and living. Exh.
4—DEF000053.
RESPONSE: Admitted.
29. Gordon conducted seminars for professors
concerning the integration of faith and learning that
are identified in Exhibit 10. Exh. 10—DEF001906DEF001907.
RESPONSE: Admitted.

120a
30. The integration of faith and learning factors
into performance reviews, promotions, and
applications for tenure for all Gordon faculty
members.
Exh.
4—DEF000093-DEF000094,
DEF000097-DEF000098.
RESPONSE: Denied. Exh. 4, at DEF000093DEF000094, DEF000097-DEF000098.
31. Gordon utilizes “Vision Day” for faculty, at
which Gordon “commissions” new and current faculty
through participation in a worship service, prayer and
dedication. Exh. 7—pp. 170-171; Exh. 11—
DEF004117-DEF004119.
RESPONSE: Admitted.
32. President Lindsay testified that Gordon’s
professors are “Christian educators” who are expected
by the College to “transmit, carry, and advance the
Christian mission through teaching, scholarship and
service.” Exh. 7—p. 34.
RESPONSE: Denied. Exh. 7, at 34; Exh. 31
(Lindsay Dep.) at 80.
33. President Lindsay testified that professors
are required to “profess the Christian faith; to assist
students in their spiritual journey as part of their
intellectual formation; to be available to minister to
students with questions, personal needs, spiritual
exploration; to advise students on their pursuits while
at Gordon and beyond; to inculcate the Christian
identity and transmit it to the next generation.” Exh.
7—p. 43.
RESPONSE: Admitted.

121a
34. President Lindsay testified that Plaintiffs
ministerial responsibilities are “[t]o carry and embody
the Christian faith; to advance it in its formation in
the lives of our students; to bring Christian reflection
to bear on her scholarship; to disciple, mentor, give
counsel to the students; and to serve their Christian
purpose of the institution.” Exh. 7—p 58.
RESPONSE: Admitted.
35. Plaintiff initially contacted Gordon about a
tenure track faculty position in its social work
department on February 25, 1998, through a cover
letter to its Provost, in which she states “[a]s a
product of a Christian liberal arts college ... I very
much want to participate in, and contribute to,
Christian liberal arts education.” Exh. 12—
DEF001858.
RESPONSE: Admitted.
36. Plaintiff states in the letter that her receipt of
a Masters in General Theological Studies and mission
field experience in the Philippines “ ... could be of
particular benefit to Gordon College Students.” Exh.
12—DEF001858.
RESPONSE: Admitted.
37. Plaintiff enclosed with her cover letter a
document titled “Educational Philosophy,” in which
she made the following statements:
x

“The pursuit of questions regarding the
application of Christianity to social work, for
example, requires Christian colleges and
universities”;

122a
x

“I believe the environment provided by the
Christian college is expressly germane to
social work education,” because “Christians
have an undeniable call to minister to others”;
and

x

“Our Lord further extends the call to minister
to others when he tells us that we must love
our neighbors as we love ourselves.” Exh. 13—
DEF001905.

RESPONSE: Admitted.
38. Plaintiff testified that she would use
“different language” if providing her educational
philosophy today. Exh. 14—pp. 47-52.
RESPONSE: Admitted.
39. Plaintiff testified that she made the
statements in the Educational Philosophy and
believed them to be true when she made them. Exh.
14—pp. 47-52.
RESPONSE: Admitted.
40. On March 9, 1998, Plaintiff submitted an
application for employment, in which she signed
acknowledgment of her personal agreement with
Gordon’s Statement of Faith, stated her Christian
beliefs, described her pilgrimage as a Christian,
explained how her Christian commitment affected
her scholarship, and restated her educational
philosophy. Exh. 15—DEF001831-DEF00l847.
RESPONSE: Admitted.
41. In the application section titled “[d]escribe
how your Christian commitment affects your
scholarship in your academic discipline,” Plaintiff

123a
stated, in part, that she intended to contribute to the
field of social work “with a distinctive Christian
perception” and that “Christian commitment affects
my scholarship by allowing me to see my work as
participation in the reform of human society.” Exh.
15—DEF001844.
RESPONSE: Admitted.
42. In the application section titled “[w]hat are
the basic responsibilities of a faculty member in an
institution of Christian higher education,” Plaintiff
stated “to provide a critical, and distinctly Christian,
perspective”; “to guide and mentor each student in
such a way as to help her discern how Christianity
impacts upon her particular discipline”; and “to teach
her students how to do ‘Christian scholarship.’” Exh.
15—DEF001845.
RESPONSE: Admitted.
43. Plaintiff testified that she “would probably
use different language today” and would today try to
“moderate” the language she originally used in her
application. Exh. 14—pp. 77-84.
RESPONSE: Admitted.
44. Plaintiff testified that she made the
statements in the application and believed them
when she made them. Exh. 13—pp. 83-84.
RESPONSE: Admitted.
45. As part of the application process, Plaintiff
signed acknowledgment to her agreement with
Gordon’s Statement of Faith, which provides, among
other things, that “[t]here is one God, the Creator and
Preserver of all things, infinite in being and

124a
perfection. He exists eternally in thee Persons: the
Father, the Son, and the Holy Spirit, who are of one
substance and equal in power and glory.” Exh. 15—
DEF001832.
RESPONSE: Admitted.
46. Plaintiffs application stated her religious
background, training, mission experience, and receipt
of an advanced degree in theology. Exh. 15—
DEF001840-DEF001841.
RESPONSE: Admitted.
47. Gordon made Plaintiff an offer of employment
in 1998. Exh. 16—DEF001813.
RESPONSE: Admitted.
48. In the letter submitted as Exhibit 16, Gordon
states that Plaintiff's “achievements, academic
pedigree, commitment to the Triune God, and
expressed desire to benevolently serve in this
Christian liberal arts setting have led to [her]
appointment to the faculty.” Exh. 16—DEF001813.
RESPONSE: Denied. Exh. 16, DEF001813.
49. Gordon’s undergraduate academic catalogue
directory lists Plaintiff’s degree from the seminary.
Exh. l 7—DEF000528.
RESPONSE: Admitted.
50. President Lindsay testified that Plaintiffs
“ministerial training that she received in seminary,
earning a seminary degree from a conservative
evangelical institution ... experience as a Southern
Baptist missionary ... [and] graduate-level training in
biblical counseling” all made Plaintiff well qualified

125a
for the ministerial duties of her position. Exh. 7—pp.
59-60.
RESPONSE: Denied. Exh. 7, at 59-60.
51. In the letter submitted as Exhibit 16, Gordon
states “[w]elcome to the Gordon College Faculty. May
the Lord always bless your work here as you join us
in the ‘precious trust’ of developing young Christian
hearts, hands, and minds.” Exh. 16—DEF0001813.
RESPONSE: Denied. Exh. 16, DEF0001813.
52. As Gordon faculty members progress through
the promotion and tenure application processes, they
are required to detail how they integrate faith and
learning, including by submitting an “integration
paper” at the end of their third year of appointment.
Exh. 4—DEF000096.
RESPONSE: Admitted.
53. In 2002, Plaintiff submitted her third-year
integration paper. Exh. 18—DEWEESE-BOYD
002828-DEWEESE-BOYD 002832.
RESPONSE: Admitted.
54. Plaintiff states in the cover letter to her
integration paper, among other things, that her “work
as a Christian scholar is reliant upon what I
understand to be the ethical responsibility of the
Christian interacting with the world” and speaks to
her idea of “faithful scholarship,” which she describes
as “scholarship that is faithful to the call of Christ as
made evident in scripture, revealed in the Holy Spirit,
and witnessed to by the holy catholic church.” Exh.
18—DEWEESE-BOYD 002828, DEWEESE-BOYD
002832.

126a
RESPONSE: Denied. DEWEESE-BOYD 002828;
Exh. 29 (DeWeese-Boyd Aff.) ¶ 42.
55. In 2009, as part of Plaintiff’s application for
tenure, she submitted a paper titled “Reflections on
Christian Scholarship.” Exh. 19—DEF001909DEF001918.
RESPONSE: Admitted.
56. Plaintiff testified at her deposition that
“Reflections on Christian Scholarship” was the second
paper she submitted for her tenure application. Exh.
14-- pp. 108-111, 121-124.
RESPONSE: Admitted.
57. Plaintiff testified that she had previously
submitted a draft paper for review by the
administration, after which the administration asked
her to submit a new paper that was “more explicit” on
her integration of the Christian faith into her work.
Exh. 14-- pp. 109-110.
RESPONSE: Admitted.
58. In her paper “Reflections on Christian
Scholarship,”
Plaintiff
made
the
following
statements, among others:
x

“I understand the work of integration to be
fundamentally about ... pursuing scholarship
that is faithful to the mandates of Scripture”
and “the vocational call of Christ” (Exh. 19—
DEF1909);

x

”My approach to Christian scholarship—
indeed, my choice of disciplinary field as well
as my scholarly interest and pursuits within
that field—are shaped by the Scriptural

127a
mandate to pursue shalom” (Exh. 19—
DEF001913);
x

“In my vocation as [a] Christian Scholar, I
strive to make useful contributions to the body
of knowledge in my area of expertise—
contributions informed by a uniquely
Christian perspective, as well as one with
practical applications for human society” (Exh.
19—DEF001916);

x

“My Christian commitment also affects my
scholarship by allowing me to see my work as
participation in the ministry of Christian
reconciliation” (Exh. 19—DEF001916);

x

“[I]n my role as a Christian educator, a desire
to follow Christ impacts my work in several
ways. First and foremost it informs the choice
of disciplinary field in which I teach, as
discussed previously. Secondly, it plays out in
the methods with which I teach and how I
interact
with
students”
(Exh.
19—
DEF001916, DEF001917); and

x

“In sum, I believe it is our understanding of
mandates of Scripture, our understanding of
vocation, as well as the dictates of our own
consciences, that help shape how we come to
view—and take up—our individual roles in
furthering in the Kingdom of God as Christian
scholars
and
educators.”
(Exh.
19—
DEF001918).

RESPONSE: Admitted.

128a
59. In 2016, Plaintiff submitted an application for
promotion to full professor. Exh. 20—DEF001919DEF001933.
RESPONSE: Admitted.
60. In the “[i]ntroduction” section of the 2016
application, Plaintiff states "my desire to follow
Christ informs my chosen field of study, my approach
to teaching, the topics I engage as a scholar, and my
approach to institutional service.” Exh. 20—
DEF001919.
RESPONSE: Admitted.
61. Plaintiff further states in the 2016
application, “[t]hroughout my life, I have sought to
cultivate a living and active faith in Jesus Christ—
one that informs all of my personal and professional
endeavors.” Exh. 20—DEF001919.
RESPONSE: Admitted.
62. A section of the 2016 application states, “this
is what I understand the work of integration to be
fundamentally about—pursuing scholarship that is
faithful to the mandates of Scripture, the vocational
call of Christ, and the dictates of conscience.” Exh.
20—DEF001927.
RESPONSE: Denied. Exh. 20, at DEF001927.
63. Plaintiff included feedback from student
evaluations in her 2016 application. Exh. 20—
DEF001919-DEF001923.
RESPONSE: Admitted.
64. When asked at her deposition,” ... [y]ou also
attended services at the chapel at Gordon with

129a
students, right?”, Plaintiff answered “[y]es.” When
next asked, “[t]hings like convocation and other
gatherings, correct?” Plaintiff answered “[y]es.” When
next asked, “[a]nd that is with Gordon College
students, correct?”, Plaintiff answered “[y]es.” Exh.
14-- pp. 224.
RESPONSE: Admitted.
65. Plaintiff testified that she has attended a local
church at which Gordon students sometimes attend.
Exh. 14—p. 223-224.
RESPONSE: Admitted.
66. Gordon’s Social Work Program Student
Handbook states, among other things, that the
Gordon College Social Work Program is informed by
a
Christian
understanding
of
individuals,
communities and societies and a Christian worldview
which affirms the value and dignity of every person.
Exh. 21—DEF000830-DEF00083l.
RESPONSE: Admitted.
67. Gordon’s Social Work Program Student
Handbook states, among other things, that its
program competencies are designed to reflect Gordon
College and the social work program’s commitment to
Christian and social work values. Exh. 21—
DEF000831.
RESPONSE: Admitted.
68. Gordons’ Social Work Program Student
Handbook states its basic supporting intentions
include preparing graduates to integrate Christian
and social work values in the practice of social work.
Exh. 21—DEF000833.

130a
RESPONSE: Admitted.
69. Gordon’s Course & Faculty Evaluation Form
asks students, among other things, “[d]o you think the
professor should do anything more or different to help
you connect course material with matters of Christian
faith, with content from other courses, or with the
concerns of life in today’s world?” and “[h]ow effective
is this course in awakening and strengthening your
understanding of the Christian faith and how it
connects to course content?” Exh. 22—p. 3.
RESPONSE: Admitted.
70. Plaintiff’s students provided the following
responses, among others, on the Course & Faculty
Evaluation Form:
x

“I think the professor did a great job of
connecting class materials with Christian
faith, with the content from other courses, and
concerns of life in today’s world” (Exh. 23—
DEF001099);

x

“I think the professor does a great job of
incorporating our faith into our materials,
calling us to be relevant and apply our
materials to our Christian life” (Exh. 23—
DEF001103);

x

“[This class] has impacted me and challenged
what it means to be a Christian and social
worker in society” (Exh. 23—DEF001754);

x

“This course was very applicable in this way.
For example, for the most part faith is not
something we could necessarily talk about at

131a
our agencies, but the class provided an
opportunity to do so” (Exh. 23—DEF001147);
x

“[Plaintiff] also did an excellent job of
provoking our thought and calling our
thoughts to a higher level of Christian
responsibility” (Exh. 20—DEF001923);

and
x

[Plaintiff] invited me to go w/ her to church w/
her family on Easter Sunday, even after we
had had a discussion in which her and I had
opposing views. It was after class and she took
the time to talk w/ me, encourage me,
challenge me, and support me on a personal
level. I really appreciated that.” Exh. 23—
DEF001746.

RESPONSE: Admitted.
71. In order to prepare for its future and help to
avoid adverse demographic and financial challenges,
in May 2019, Gordon College announced its intention
to eliminate eight majors and thirty-six full and parttime faculty positions, including the Social Work
department. Exh. 24—pp. 1-3.
RESPONSE: Denied. Exh. 24, at 1-3.
72. Shortly after Gordon announced the cuts, over
200 past and present students from the Social Work
program submitted an unsolicited petition to Gordon
with an attached letter, in an effort to persuade
Gordon to keep the Social Work program, in which the
students made the following statements:
x

The “Gordon Social Work program helps
intensify our undergraduate experience by

132a
integrating biblical values and cultural
literacy in all our course materials” (Exh. 25—
DEF003782);
• The “Social Work and Sociology departments
provide students the opportunity to learn about real
world issues and how to advocate for those in need,
which is exactly what Christ calls us to do” (Exh. 25—
DEF003782); and
• “Our unique perspectives in core [Social Work]
class discussions help enrich theological, moral and
ethical discussions.” Exh. 25—DEF003783.
RESPONSE: Admitted.
*****

133a
GORDON COLLEGE
BYLAWS
PREAMBLE
Gordon College was chartered by the Commonwealth
of Massachusetts for the purpose of carrying on the
educational work begun in 1889 by the Reverend
Adoniram Judson Gordon and continued without
interruption to the present time. In furtherance of
that purpose, the following Mission Statement was
approved by the Board of Trustees of the College on
April 23, 2010: Gordon College strives to graduate
men and women distinguished by intellectual
maturity and Christian character, committed to lives
of service and prepared for leadership worldwide.
To that end, Gordon College, a Christian community
of the liberal arts and sciences, is dedicated to:
x The historic, evangelical, biblical faith;
x Education, not indoctrination;
x Scholarship that is integrally Christian;
x People and programs that reflect the rich
mosaic of the Body of Christ;
x Life guided by the teaching of Christ and the
empowerment of the Holy Spirit;
x The maturation of students in all dimensions
of life: body, mind and spirit;
x The application of biblical principles to
transform society and culture.
ARTICLE I
Board Authority and Responsibilities
Section 1. Except as otherwise provided by the
Massachusetts General Laws, the Restated Articles of
Organization, as amended, or these Bylaws, the

134a
Board of Trustees shall have and exercise the entire
charge, control and management of the College and
its property. Its ultimate authority is affirmed
through its general, academic and financial policymaking functions and its responsibility for the
College’s financial health and welfare. The Board of
Trustees shall exercise ultimate institutional
authority as set forth in these Bylaws and in such
other policy documents it deems to be appropriate,
These Bylaws and other Board policy statements
shall take precedence over all other institutional
statements, documents and policies.
Section 2. The Board of Trustees shall have the
authority to carry out all lawful functions which are
permitted by the Massachusetts General Laws, the
Restated Articles of Organization, as amended, or
these Bylaws. This authority shall include but shall
not be limited to these illustrative functions:
1. Determine and periodically review the College’s
mission and purposes;
2. Appoint the president, who shall be the College’s
chief executive officer and set appropriate
conditions
of
employment,
including
compensation;
3. Establish the conditions of employment of other
key institutional officers who serve at the
pleasure of the president (in consultation with the
Board as may be appropriate);
*****

135a
The Commonwealth of Massachusetts
OFFICE OF THE SECRETARY OF STATE
ONE ASHBURTON PLACE, BOSTON, MA 02108
FEDERAL IDENTIFICATION
NO. 04-2104258
Michael Joseph Connolly, Secretary
RESTATED ARTICLES OF ORGANIZATION
*****
2. The purposes for which the corporation is
formed are as follows:· Carrying on the educational
work begun in 1889 by the Rev. Adoniram Judson
Gordon and continued without interruption to the
present time; to provide a college education in the
liberal arts and sciences to qualified persons; to
provide training for the professions; to provide
instruction in the Bible and other subjects; to prepare
men and women for the work of foreign and home
missions, for the duties of the Christian ministry and
other special forms of Christian work, and in general,
to do any and all things necessary to the proper
conduct of the work of the ·corporation not
inconsistent with the laws of the Commonwealth,
and, in addition to the degrees it is authorized to
grant under Chapter 61 of the Acts of 1927 to grant
the degrees of bachelor of arts and bachelor of science.
*****

